<html>
<title> - COMMERCIAL AIRLINE SAFETY OVERSIGHT</title>
<body><pre>[Senate Hearing 112-396]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-396

                  COMMERCIAL AIRLINE SAFETY OVERSIGHT

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 20, 2012

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>









                  U.S. GOVERNMENT PRINTING OFFICE
74-252 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







































       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
                Todd Bertoson, Republican Staff Director
           Jarrod Thompson, Republican Deputy Staff Director
    Rebecca Seidel, Republican Chief Counsel and Chief Investigator
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

MARIA CANTWELL, Washington,          JOHN THUNE, South Dakota, Ranking 
    Chairman                             Member
DANIEL K. INOUYE, Hawaii             JIM DeMINT, South Carolina
BARBARA BOXER, California            ROGER F. WICKER, Mississippi
BILL NELSON, Florida                 JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                DEAN HELLER, Nevada
MARK BEGICH, Alaska





















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 20, 2012...................................     1
Statement of Senator Cantwell....................................     1
Statement of Senator Lautenberg..................................    30
Statement of Senator Klobuchar...................................    32
Statement of Senator Thune.......................................    35

                               Witnesses

Margaret Gilligan, Associate Administrator for Aviation Safety, 
  Federal Aviation Administration................................     3
    Prepared statement...........................................     5
Hon. Calvin L. Scovel III, Inspector General, U.S. Department of 
  Transportation.................................................     7
    Prepared statement...........................................     9
William R. Voss, President and CEO, Flight Safety Foundation.....    18
    Prepared statement...........................................    19
Gregory Belenky, M.D., Research Professor and Director, Sleep and 
  Performance Research Center, Washington State University, 
  Spokane........................................................    21
    Prepared statement...........................................    23
Captain Carl Kuwitzky, President, Coalition of Airline Pilots 
  Associations (CAPA)............................................    24
    Prepared statement...........................................    25
Thomas L. Hendricks, Senior Vice President for Safety, Security 
  and Operations, Airlines for America (A4A).....................    27
    Prepared statement...........................................    28

                                Appendix

Hon. Charles E. Schumer, U.S. Senator from New York, prepared 
  statement......................................................    39
Response to written questions submitted to Margaret ``Peggy'' 
  Gilligan by:
    Hon. John D. Rockefeller IV..................................    40
    Hon. Maria Cantwell..........................................    40
    Hon. Barbara Boxer...........................................    43
    Hon. Tom Udall...............................................    44
    Hon. Mark Begich.............................................    44
    Hon. Roger F. Wicker.........................................    44
Response to written questions submitted to Hon. Calvin L. Scovel 
  III by:
    Hon. Maria Cantwell..........................................    45
    Hon. John Thune..............................................    47
Response to written questions submitted to William Voss by:
    Hon. John D. Rockefeller IV..................................    48
    Hon. Maria Cantwell..........................................    48
Response to written question submitted by Hon. Maria Cantwell to 
  Gregory Belenky, M.D...........................................    49
Response to written questions submitted to Captain Carl Kuwitzky 
  by:
    Hon. John D. Rockefeller IV..................................    51
    Hon. Maria Cantwell..........................................    51
    Hon. Tom Udall...............................................    53
Response to written questions submitted to Thomas L. Hendricks 
  by:
    Hon. John D. Rockefeller IV..................................    53
    Hon. Maria Cantwell..........................................    54
    Hon. Mark Begich.............................................    55
Air Line Pilots Association, International, prepared statement...    56
Gerald L. Dillingham, Ph.D., Director, Physical Infrastructure 
  Issues, GAO, prepared statement................................    59

 
                  COMMERCIAL AIRLINE SAFETY OVERSIGHT

                              ----------                              


                        TUESDAY, MARCH 20, 2012

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:45 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Maria Cantwell, 
Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Good afternoon. The Senate Committee on 
Commerce, Science, and Transportation Aviation Operations and 
Safety Subcommittee will come to order. I thank the witnesses 
for being here today for our hearing on ``Commercial Airline 
Safety Oversight.'' And I thank the witnesses for their 
testimony and my colleagues for attending this hearing.
    I want to welcome my fellow members of the Committee, the 
witnesses, and the families of the victims of Colgan Air Flight 
3407. Your steadfast efforts in the face of tragedy have led to 
safety improvements that would not have happened otherwise. And 
thank you for your advocacy on behalf of all the flying public.
    The Federal Aviation Administration's continued mission is 
to provide the safest and most efficient air space system in 
the world. And, by and large, our air transportation does 
maintain a very high level of safety day in and day out.
    The National Safety Transportation Board conducted an 
examination of U.S. civil aviation accidents involving 
commercial passenger and cargo carriers from 2000 through 2009, 
and this study shows that there is a drop in the accident rate 
when measured by the departures and numbers of flight hours. 
That's the good news for the American traveling public. And 
this is a credit to all the hard work put in by the FAA, 
airlines, airline manufacturers, and other stakeholders.
    Nevertheless, we cannot rest. We must maintain constant 
vigilance and make sure that ongoing system improvements are 
made, and we need to know all of the potential mishaps that 
could happen.
    Take the year 2009. The five fatal accidents involving 
commercial aircraft included three nonscheduled international 
cargo flights and one nonscheduled domestic business jet flight 
and one scheduled domestic passenger flight, the Colgan Air 
crash in Buffalo, New York, in which 50 lives were lost.
    There has not been a domestic commercial airline crash 
since. These results are a tribute to the incredibly hard work 
of, as I said, the airline industry and FAA employees focusing 
on safety. But that doesn't mean that things are working 
perfectly. We need to continue our efforts.
    First, we need to understand the root cause of the 
accident. And getting to the root cause of the Colgan Air crash 
is just what this committee did over the course of a dozen 
hearings that this subcommittee held in the last Congress. And 
I appreciate the steadfast work of my colleagues, Senator Chuck 
Schumer and Senator Kirsten Gillibrand, in advocating for the 
families of the Colgan Air tragedy.
    Pilot experience and training proved to be a critical 
issue, and pilot and crew fatigue was of equal concern. We 
learned about unimaginable long pilot and crew commutes to 
work. And the co-pilot of the Colgan Air Flight 3407 had a 
commute of over 2,000 miles from Seattle to Newark. So 
compensation levels for less experienced pilots and crew is not 
the only reason for long commutes, but it is far too common a 
reason.
    There was also much discussion regarding the consistency of 
safety practices between regional and large network airlines. 
And at a fundamental level, the hearing made question of 
whether regional carriers were effectively being used in their 
efforts to make sure that the level of safety was being 
provided. I find it very difficult to tell if one of the safety 
levels is more important than a policy of making sure that the 
airline giving the actual name to the regional carrier--whether 
they were meeting the same standards as the large carrier.
    Not surprisingly, company culture makes a huge difference 
in how safety is approached. As with all the industries, there 
is a range of approaches to safety standards from topnotch to 
marginally compliant. And we took particular notice of regional 
carriers, because over half of all domestic departures and 
about one-quarter of all passengers in the U.S. were on these 
regional carriers. And at this time, many passengers did not 
know what airline they were flying when they actually booked 
their ticket. They do now.
    Given the current financial state of several regional 
carriers that fly for network airlines, I think that the FAA 
needs to keep a very close eye to make sure that the safety and 
commitment remains on par. This committee, working with Senator 
Schumer and the House Transportation and Infrastructure 
Committee, led the effort to pass the Airline Safety and 
Federal Aviation Administration Act of 2010.
    This legislation made a number of improvements to airline 
safety and pilot training. Last December, the final rules were 
issued for flight and duty times for pilots and crew and 
proposed rules for pilot certification qualifications. There 
are several other key rulemakings in various stages that are 
still making their way through the agency.
    The purpose of today's hearing is to examine commercial 
aviation safety since the Colgan Air crash and the progress 
that has been made by the FAA and the industry collectively and 
to hear from the public about these issues. In short, the 
hearing is to keep American travelers safe and to make sure 
that we have the best practices in our air transportation 
system.
    The Committee is very interested in learning the impacts of 
the 2010 law. And we also want to understand whether the 
resulting rulemakings were implemented consistently with what 
Congress intended. Additionally, we would like to know if there 
are any issues that remain unaddressed either in the 2010 law 
that requires the FAA rules or in recent enactment of the FAA 
authorization bill.
    So I look forward to hearing from our witnesses. And I 
think with the prerogative of the Chair here--because have such 
a short hearing time before votes--I'm going to just go ahead 
and forego any opening statements by members and go right to 
our witnesses.
    So we'll start with you, Ms. Gilligan. Thank you so much 
for being here. If you could turn on your button and speak 
right into the microphone, and if you could keep your 
statements short and provide the full written testimony, we 
would so appreciate it.
    Thank you.

                STATEMENT OF MARGARET GILLIGAN,

          ASSOCIATE ADMINISTRATOR FOR AVIATION SAFETY,

                FEDERAL AVIATION ADMINISTRATION

    Ms. Gilligan. Thank you, Senator Cantwell, and thank you, 
members of the Subcommittee, for inviting me here today to 
provide you with an update of FAA's progress in implementing 
the initiatives in the Airline Safety and Federal Aviation 
Administration Extension Act of 2010. Given that the third 
anniversary of the tragic Colgan accident just passed last 
month, this gathering is particularly timely.
    The provisions of the Act presented a number of challenges 
for the FAA. Despite these challenges, in the 20 months since 
the passage of the Act, we have convened five aviation 
rulemaking committees, issued three notices of proposed 
rulemaking, one supplemental notice of proposed rulemaking, and 
one final rule. We've conducted two studies and drafted seven 
reports to Congress on our efforts to implement the initiatives 
in the Act.
    Although we have not met all the deadlines anticipated by 
Congress, we've made significant progress in several areas. 
This is due in large part to the dedication of over 70 safety 
professionals who have been working tirelessly on these 
initiatives, while at the same time allowing their counterparts 
to continue to meet our daily safety oversight 
responsibilities.
    I'm happy to report, Senator, as you noted, that on 
December 21, Secretary LaHood and Acting Administrator Huerta 
announced the publication of the final rule for new pilot 
flight duty and rest requirements for passenger airline pilots. 
The new rule capitalizes on advances in fatigue science to 
provide the necessary protections for pilots to be fully rested 
and alert when reporting for duty.
    Air carriers will now be required to consider the time of 
day a pilot accepts an assignment, the number of flight 
segments scheduled, and the number of time zones crossed to 
determine how long a pilot can remain on duty without a rest 
period. The final rule also recognizes that pilots have a 
responsibility in their off-time to use rest periods for their 
actual intent, to rest. We expect pilots to manage their off-
duty rest to report ready for work, and we require them to 
certify they are fit before each flight. We expect air carriers 
to support pilots who report if they are not fit and not assign 
them duty.
    We've also made progress on safety management systems. We 
issued this proposed rule on October 29, 2010, and are working 
to meet the August 2012 deadline set by Congress for the final 
rule. We and the industry recognize that safety management 
systems provide an approach to safety that allows for trend 
spotting and early identification of possible safety problems, 
and we are committed to completing that initiative.
    On February 29, 2012, we published a proposal to raise the 
qualification requirements for first officers. The proposal 
would require first officers to hold an Airline Transport Pilot 
certificate and require 1,500 hours of pilot flight time. 
Consistent with congressional direction, the proposal also 
considers allowing pilots with fewer than 1,500 hours of flight 
time to apply for an Airline Transport Pilot certificate with 
restricted privileges based on education or military flying 
experience. The comment period closes on this proposal April 
30, and we look forward to reviewing the comments and 
completing the final rule.
    To improve training requirements for pilots, just one month 
before the Colgan accident, FAA had published a comprehensive 
new proposal. We received over 3,000 pages of comments in 
response to that proposal. Following the accident, the National 
Transportation Safety Board issued several recommendations 
related to training, and the 2010 Act mandated additional 
training requirements that had not been addressed in our 
original proposal.
    To address the requirements in the Act, the NTSB 
recommendations, and the comments we had received, we issued a 
supplemental proposal in May 2011. The comment period closed in 
September 2011, and we are reviewing the comments to develop a 
final rule that addresses all of the training initiatives.
    And, finally, in September 2010, we established an aviation 
rulemaking committee to provide recommendations on leadership 
training and professional development for pilots. We have 
drafted a proposal which is in executive review while we work 
to balance regulatory burdens and costs.
    All of these rulemakings are very complex, and it is true 
we did not meet some of the deadlines Congress anticipated. The 
rulemaking process is by intention a deliberative one and by 
definition can take quite a bit of time. Even in instances 
where the FAA has been directed by Congress to issue a final 
rule, we are still required to meet the other statutory 
requirements, including the Administrative Procedures Act.
    We are also required to ensure the benefits resulting from 
the rule justify the costs, because as many in Congress have 
acknowledged, we have to be aware that new rules may add new 
costs. This has presented quite a challenge for many of the 
rulemakings that I've outlined for you today.
    Chairman Cantwell and members of the Subcommittee, this 
concludes my prepared remarks, and I'll be happy to answer any 
questions you might have.
    [The prepared statement of Ms. Gilligan follows:]

 Prepared Statement of Margaret Gilligan, Associate Administrator for 
            Aviation Safety, Federal Aviation Administration
    Chairman Cantwell, Senator Thune, Members of the Subcommittee:

    Thank you for inviting me here today to update the Subcommittee on 
the Federal Aviation Administration's (FAA's) progress in implementing 
the safety enhancement initiatives in the Airline Safety and Federal 
Aviation Administration Act of 2010. Just last month, we remembered the 
third anniversary of the tragic accident of Continental Flight 3407. 
Over the past three years, the aviation industry, as with many other 
industries, has faced some tough economic challenges. During this 
period, we have remained vigilant in our oversight responsibilities to 
ensure that we continue to have the safest aviation system in the 
world, while also advancing aviation for the future. The provisions in 
the 2010 Act helped facilitate several of these major advancements, 
such as new flight, duty and rest requirements for pilots, and issuing 
a proposal to require air carriers to implement safety management 
systems. Although some of the provisions have taken longer than 
Congress anticipated under the provisions of the Act, we have made 
significant strides in accomplishing many of the objectives and I am 
here today to outline this progress for you.
Pilot Flight, Duty, and Rest Requirements
    In 2009, the Department of Transportation identified the issue of 
pilot fatigue as a top priority in the Safety Call to Action following 
the accident of Flight 3407. The FAA launched an aggressive effort to 
create a new pilot flight, duty and rest proposal, which we issued in 
September 2010. On December 21, 2011, Secretary LaHood and Acting 
Administrator Huerta announced the completion of the final rule. This 
new rule provides the necessary protections for passenger airline 
pilots, allowing for responsible pilots to be fully rested and alert 
when reporting for duty, which is what the traveling public expects 
when they board an airplane. Using the latest fatigue science, the rule 
addresses cumulative fatigue and how flight schedules affect the body's 
24-hour clock in calculating appropriate duty periods for pilots, 
providing pilots a greater opportunity for rest. Factors such as the 
time of day a pilot takes his or her first flight, the number of 
scheduled flight segments, and the number of time zones crossed, will 
now all be considered when determining how long a pilot can remain on 
duty without a rest period.
    This rule also expands the definition of a flight duty period to 
include more than just flying the airplane. Flight duty periods are now 
more comprehensive, and include flight-related activities such as time 
spent in training in an aircraft simulator, and standing by on-call for 
flights at an airport. These duties are part of the workday, contribute 
to fatigue, and must be counted as part of the core job of flying the 
airplane. The rule also provides for a 10-hour minimum rest period 
before a flight duty period, which is two hours more than required 
under the old flight and duty time provisions. We have also addressed 
cumulative fatigue by placing weekly and 28-day limits on a pilot's 
schedule.
    This rule provides the necessary flexibility to use fatigue science 
as it progresses to combat fatigue. Air carriers will be allowed to 
develop a fatigue risk management system, which provides an opportunity 
to create an alternative model for combatting fatigue by incorporating 
the latest innovations in mitigating fatigue.
    This final rule also establishes new fitness for duty requirements 
that serve as a reminder to both airlines and pilots of their 
professional responsibilities to ensure that rest periods are used 
appropriately and that pilots arrive at the start of an assignment 
alert and ready for work. In establishing these requirements, we took 
into account that off-duty activities do have an impact on fatigue for 
pilots, regardless of the type of activity, such as playing golf or 
commuting to work. We expect pilots to manage their off-duty rest to 
ensure they report ready for work. We expect the air carriers to 
support pilots who self-report fatigued and not assign them to duty.
    Due to the complexity of the rule, completing this rulemaking 
effort took longer than expected. As many in Congress have noted, new 
rules may add new costs. As with discretionary rules, in instances 
where the FAA has been directed by Congress to issue a final rule, we 
are still required to do so in a manner in which the benefits resulting 
from the rule justify the costs. In evaluating this rule under this 
requirement, it became clear that applying this rule to cargo operators 
was not clearly justified compared to the benefits generated for this 
segment of the industry. The final rule does allow cargo operators to 
voluntarily adopt provisions of the rule, and some of these operators 
are already improving rest facilities for pilots. We have encouraged, 
and continue to encourage cargo carriers to continue improving their 
rest and fatigue related policies.
Safety Management Systems
    The 2010 Act required the FAA to issue a proposal to require air 
carriers to develop and implement a safety management system (SMS) 
within 90 days of the Act's enactment. The FAA met this statutory 
deadline and issued the proposal on October 29, 2010. It was published 
in the Federal Register on November 5, 2010 and the comment period 
closed March 7, 2011. As proposed, the SMS rule would give air carriers 
a set of business processes and management tools to examine data from 
everyday operations, isolate trends that may be precursors to incidents 
or accidents, and develop and carry out appropriate risk mitigation 
strategies. The FAA and industry recognize SMS as a holistic approach 
to safety that allows for trend spotting to help identify possible 
safety problems and correct them before they lead to accidents or 
incidents. In the proposal, the FAA described what an acceptable SMS 
might look like, not how the SMS requirements would be met. This allows 
air carriers to develop and implement an SMS that best matches the size 
and complexity of their own unique operating environments. SMS is not a 
substitute, however, for FAA oversight, inspection, and audits of air 
carriers to ensure compliance with existing regulations.
Pilot Qualification Standards
    On February 29, 2012, we published a proposal that would 
substantially raise the qualification requirements for first officers 
(sometimes referred to as ``co-pilots'') who fly for U.S. passenger and 
cargo airlines, consistent with the mandate in the 2010 Act. The 
proposed rule would require first officers to hold an Airline Transport 
Pilot (ATP) certificate, requiring 1,500 hours of pilot flight time. 
Currently, these pilots are required to have a commercial pilot 
certificate, which requires only 250 hours of flight time. Some other 
highlights of the proposed rule include requiring pilots to have a 
minimum of 1,000 flight hours as a pilot in air carrier operations that 
require an ATP prior to serving as a captain for a U.S. airline; 
enhanced training requirements for an ATP certificate, including 50 
hours of multi-engine flight experience; and completion of a new FAA-
approved training program.
    In the 2010 Act, Congress clearly acknowledged that the measurement 
of experience in determining when an individual may be ready to serve 
is not limited solely to the number of hours flown. Rather, education 
and other commercial flying experience must also be considered. 
Consistent with the requirements of the 2010 Act, this proposal also 
allows pilots with fewer than 1,500 hours of flight time to apply for 
an ATP certificate with restricted privileges. As proposed, this 
certificate would only be issued to graduates of a four-year 
baccalaureate aviation degree program with 1,000 hours of flight time, 
provided they have obtained a commercial pilot certificate and 
instrument rating from a pilot school affiliated with the university or 
college. Former military pilots with 750 hours of flight time may also 
qualify for this restricted ATP certificate. In both cases, pilots with 
this restricted certificate would only be able to serve as first 
officers for U.S. airlines. They could not use it to serve as a captain 
in any commercial flying operation that requires an ATP, nor use it to 
teach other pilots. Pilots seeking a restricted ATP would be tested to 
the same standard required for full ATP certificates, and they would be 
required to have the equivalent minimum instrument time and night time 
flight hours as a full ATP certificate would require. The comment 
period for this proposed rulemaking closes April 30, 2012, and we will 
work diligently to develop a final rule that addresses the safety 
initiatives required in the 2010 Act.
Crewmember Training Requirements
    In January 2009, one month prior to the Continental Flight 3407 
accident, the FAA published a proposal to enhance training programs by 
requiring the use of simulation devices by pilots. The FAA received 
over 3,000 pages of comments in response to this proposal. Following 
the accident, the National Transportation Safety Board issued several 
recommendations related to training requirements for air carrier 
pilots. And the 2010 Act mandated some additional training requirements 
as well. In order to fully consider the comments, address many of the 
NTSB's recommendations resulting from the accident of Flight 3407, and 
incorporate the mandates of the Act, the FAA issued a supplemental 
proposal to permit interested parties to comment on the new 
requirements. The supplemental proposal was issued on May 20, 2011 and 
the comment period closed on September 19, 2011. The FAA is actively 
reviewing the comments to develop a final rule that addresses these 
training enhancements.
    In addition to this rulemaking, in 2011, the FAA established the 
Stick Pusher and Adverse Weather (SPAW) Aviation Rulemaking Committee 
to examine upset prevention and recovery training and provide 
recommendations to address stick pusher and adverse weather events.
Mentoring and Professionalism
    The FAA recognizes the need to continuously improve professional 
standards to improve flightdeck discipline. On September 15, 2010, the 
FAA established an Aviation Rulemaking Committee to develop 
recommendations on appropriate leadership training and professional 
development requirements for pilots. That group of experts delivered 
its recommendations in November 2010, and the FAA has considered them 
in developing a rule to address the mentoring mandate in the 2010 Act. 
We have not met the statutory deadline for this proposal because we are 
evaluating how this effort aligns with existing rulemaking projects. We 
aim to find a set of proposals that appropriately balances 
effectiveness and resulting benefits, with regulatory burden and cost.
    These rulemakings are very complicated, and in some cases, very 
expensive. As these rules progress, we are constantly evaluating how 
these provisions may best be leveraged to improve safety, while 
ensuring that the aggregate costs to society are not greater than these 
benefits as we are required to do.
    We remain committed to aggressively addressing these safety 
enhancements while continuing with our daily oversight obligations. In 
the time since the passage of the 2010 Act, approximately 1.3 billion 
passengers have travelled on U.S. commercial airlines without a single 
fatality. At the same time, the FAA has overseen the safe management of 
the merger of 8 airlines, resulting in 4 new entities -each larger and 
more complex than ever before. While these mergers had a significant 
impact on FAA resources, they were handled efficiently and in a manner 
that ensure<STRIKE>s</STRIKE> continued compliance with regulations and 
safe operating practices. We have also approved and assisted in 
implementing the use of new technologies to support NextGen--making 
operations safer and more efficient. And every day our dedicated safety 
workforce performed inspections, analyzed data, spotted areas for 
improvement and worked with air carriers to enhance aviation safety.
    Our success in advancing these safety enhancements, while 
continuing to manage our daily safety oversight responsibilities and 
plan for the future, is due in large part to the dedication of safety-
minded aviation professionals in all parts of our industry, including 
the FAA's inspector workforce.
    In conclusion, we believe that the collective efforts of FAA, the 
airlines, labor unions and, of course, Congress, will continue to 
result in ensuring the safety enhancements identified in the 2010 Act 
are addressed. Safety is at the core of the FAA's mission, and we will 
always strive to make a safe system safer.
    Chairman Cantwell, Senator Thune, members of the Subcommittee, this 
concludes my prepared remarks. I would be happy to answer any questions 
that you might have.

    Senator Cantwell. Thank you, Ms. Gilligan.
    We'll now hear from the Honorable Calvin Scovel, who is the 
Inspector General for the U.S. Department of Transportation.
    Thank you.

STATEMENT OF HON. CALVIN L. SCOVEL III, INSPECTOR GENERAL, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Scovel. Madam Chairman, members of the Subcommittee, 
thank you for inviting me to testify at this important hearing 
on airline safety.
    As you know, Congress and FAA took swift action following 
the 2009 Colgan Air crash to improve pilot performance and 
enhance air carrier safety programs. These actions culminated 
with the passage of the Airline Safety and FAA Extension Act 
which is proving to be an important catalyst for change.
    Today, I will focus on FAA's progress in responding to the 
Act and the challenges it faces in implementing certain 
provisions. I will also discuss several concerns related to 
achieving the full measure of safety enhancements intended by 
the Act.
    FAA has made noteworthy progress. Early this year, FAA 
issued a final rule on crew rest requirements, a major 
achievement given that the regulations had not been updated 
since 1985. To its credit, FAA based the new regulations on 
scientific factors, such as the number of flight segments flown 
and the number of time zones crossed.
    FAA has also devised a plan to help air carriers implement 
voluntary safety programs. Our analysis shows a steady rise in 
the use of these programs. Seventy percent of Part 121 air 
carriers have at least one program, up from 59 percent 2 years 
ago. FAA is also close to issuing a rule on safety management 
systems which allow operators to examine day-to-day operations, 
isolate trends in data that may indicate danger, and put in 
place risk mitigation strategies.
    Despite these advancements, FAA has been challenged to 
implement key measures related to pilot proficiency and 
professionalism and to a new centralized pilot records data 
base. FAA's final rule on pilot training is almost 6 months 
overdue. This is due in part to industry opposition, which 
prompted FAA to issue a second proposed rule last May. The 
proposed rule now requires more thorough training for pilots to 
recognize and recover from stalls.
    FAA is nearly 8 months overdue in issuing a proposed rule 
for improving pilot performance, a longstanding safety concern. 
Our audits have found that poor decisionmaking, inadequate 
aircraft control, improper flying techniques, and a disregard 
for operating procedures are high-ranking causal factors in 
airline accidents, a finding consistent with NTSB's review of 
the Colgan accident.
    While FAA focused on advancing pilot mentoring as part of 
its 2009 call to action, since then it has not released a 
detailed plan for implementing these programs. Seven of nine 
carriers we recently visited did not have formal mentoring 
programs and none had professional development programs. 
Industry officials have expressed concern that potential pilot 
turnover could outweigh the benefits of establishing these 
programs.
    FAA does not expect to issue its final rule on enhanced 
pilot qualifications until August 2013, a year after the 
mandated deadline. The proposed rule issued in February calls 
for a substantial increase in pilot flight hours. Air carrier 
representatives are concerned that the new requirements for 
first officers do not gauge the quality of flying experience 
and that entry-level pilots will have difficulty meeting the 
new requirements.
    Beyond implementing the final rule, FAA will need to ensure 
carriers are ready to transition to the new requirements. This 
is important, because at the two carriers we recently visited, 
75 percent of current first officers did not have the advanced 
certificate.
    FAA must overcome three primary challenges to develop a 
robust and secure pilot record database that carriers can use 
when hiring pilots. First, FAA must determine what level of 
detail from pilot records the database should include. 
Capturing and standardizing historical pilot training records 
will also be difficult.
    Second, FAA must determine how to transition from current 
recordkeeping practices to the new database without disrupting 
the flow of information. Third, FAA must address data 
reliability concerns related to pilot information obtained from 
the National Driver Register.
    To fully implement the provisions of the Act, FAA will 
ultimately need to work more effectively with its field offices 
and the airline industry. Poor communication and outreach have 
stalled FAA's efforts to implement some safety initiatives. 
None of the nine FAA field offices we visited during our 
ongoing review were informed of the agency's progress in 
developing mentoring and leadership programs for pilots. Early 
outreach to field offices on the status of selected rulemakings 
and best practices would, we believe, better position carriers 
to implement new programs when rules are finalized.
    Helping small carriers establish voluntary safety programs 
is also critical to ensure the Act's provisions are fully 
implemented. However, FAA has yet to fully execute a plan to 
provide small carriers with best practices and guidance for 
these programs.
    Finally, FAA must address issues related to pilot 
commuting, a factor that may significantly contribute to 
fatigue. NTSB's investigation into the Colgan crash revealed 
that the two pilots had commuted hundreds of miles before that 
flight and NTSB found that both pilots' performance was likely 
impaired because of fatigue.
    In its report, NTSB stated that operators have a 
responsibility to identify commuting risks, implement 
strategies to mitigate those risks, and ensure commuting pilots 
are fit for duty. Although FAA considered mandating preflight 
rest periods for commuting pilots, it concluded that such a 
requirement would be difficult to enforce and would not 
guarantee responsible commuting.
    Last September, we recommended that FAA collect and analyze 
commuting data for all Part 121 flight crews and determine if 
additional actions are needed. FAA has committed to addressing 
our recommendation by October of this year. Despite delays and 
the many challenges FAA faces in responding to the Act, we are 
encouraged by its progress and will continue to monitor its 
efforts to meet remaining requirements.
    That concludes my statement, Madam Chairman. I'd be happy 
to answer any questions that you, or members of the 
Subcommittee may have.
    [The prepared statement of Mr. Scovel follows:]

  Prepared Statement of Hon. Calvin L. Scovel III, Inspector General, 
                   U.S. Department of Transportation
    Madam Chairman and Members of the Subcommittee:

    Thank you for inviting me here today to testify on the Federal 
Aviation Administration's (FAA) progress in implementing advanced 
standards for pilot training and new safety measures for air carriers. 
As you know, following the 2009 Colgan Air crash, Congress and FAA took 
swift action to implement measures for improving pilot training and 
qualifications programs, reducing flight crew fatigue, and ensuring 
operators meet safety standards. These efforts culminated with the 
August 2010 passage of the Airline Safety and FAA Extension Act,\1\ 
which contains new requirements to enhance safety in these areas. 
Effective implementation of these requirements should go a long way in 
improving safety in commercial airline travel.
---------------------------------------------------------------------------
    \1\ Airline Safety and Federal Aviation Administration Extension 
Act of 2010, Pub. L. No. 111-216, August 1, 2010.
---------------------------------------------------------------------------
    Prior to passing the Act, this Subcommittee, as well as the House 
Committee on Transportation and Infrastructure, requested that we 
review FAA and industry efforts to enforce new Federal regulations for 
flight crew rest requirements and address fatigue issues and airline 
pilot training program weaknesses. Since we began our work in 2009, we 
have issued three reports.\2\ Our testimony today is based on those 
reports as well as our ongoing work regarding implementation of the 
Act. Today, I will focus on: (1) FAA's progress in responding to 
provisions of the Act, (2) the challenges FAA faces in implementing 
certain provisions, and (3) concerns related to achieving the full 
measure of safety enhancements intended by the Act.
---------------------------------------------------------------------------
    \2\ OIG Correspondence Number CC-2009-074, ``Letter to Senators 
Rockefeller, Hutchinson and DeMint Regarding Commercial Aviation 
Accidents, Pilot Experience and Pilot Compensation,'' February 9, 2011. 
OIG Report Number AV-2011-176, ``FAA and Industry Are Taking Action To 
Address Pilot Fatigue, but More Information on Pilot Commuting Is 
Needed,'' September 12, 2011. OIG Report Number AV-2012-027, ``New 
Approaches Are Needed To Strengthen FAA Oversight of Air Carrier 
Training Programs and Pilot Performance,'' December 20, 2011. OIG 
reports are available on our website: www.oig.dot.gov.
---------------------------------------------------------------------------
In Summary
    FAA has met or is on schedule to meet many of the Act's 
requirements, such as improving pilot rest requirements and 
establishing better processes for managing safety risks. However, FAA 
has not met timelines for raising pilot training standards, 
implementing mentoring programs, providing enhanced leadership skills 
to captains, and increasing minimum pilot qualifications. FAA also 
faces challenges in establishing a pilot records database--an important 
component for enhancing the air carrier screening process for pilot 
applicants. In addition to overcoming these challenges, FAA needs to 
provide additional guidance and assistance to industry--especially 
smaller carriers--in developing and managing new safety programs.
Background
    The 2010 Act included 16 provisions to improve airline safety and 
pilot training with milestones spread over a 3-year period. The Act 
called for advanced standards for pilots, including required rulemaking 
activities for training programs, crewmember screening and 
qualifications, and new fatigue regulations to improve passenger 
safety. These rulemaking activities are complex, and some have 
encountered significant air carrier opposition. In addition to notice 
and comment periods required by law, FAA must conduct detailed analyses 
of each rule's likely effects and coordinate with stakeholders. The Act 
also included several important initiatives that FAA did not complete 
during its Call to Action on Airline Safety,\3\ such as developing 
mentoring and professional programs for pilots and following up with 
air carriers on efforts to adopt voluntary safety programs. In 
addition, the Act requires FAA to establish a pilot records database 
that air carriers must access to review qualifications and past 
performance data before hiring pilots. (See exhibit for further detail 
and current status of FAA's efforts in each section of the Act.)
---------------------------------------------------------------------------
    \3\ FAA's Call to Action Plan, announced on June 24, 2009, 
consisted of 10 short- and mid-term initiatives to enhance pilot 
performance and training, increase air carrier participation in 
voluntary safety programs, and expand pilot records review. FAA also 
set goals to develop new safety oversight guidance to its inspectors, 
issue rulemakings on pilot fatigue and training, conduct regional 
safety forums to discuss industry best practices, and develop programs 
addressing pilot professionalism.
---------------------------------------------------------------------------
FAA Met Act Requirements to Address Pilot Fatigue and Advanced Some 
        Safety Initiatives at Air Carriers
    FAA developed a concerted strategy to meet the Act's stringent 
timelines and implement new safety programs, including issuing a final 
rule on crew rest and fatigue, increasing air carrier use of voluntary 
safety programs, and advancing Safety Management Systems (SMS).
FAA Overhauled Flight and Duty Time Regulations
    In January 2012, FAA updated its flight and duty time regulations 
for Part 121 \4\ air carrier pilots to better ensure pilots are rested 
when they fly. This is a significant achievement for the Agency given 
that these updates were the first modifications to the regulations 
since 1985 and that the proposed rule received over 8,000 comments from 
the aviation industry, mostly opposing the planned requirements.
---------------------------------------------------------------------------
    \4\ 14 CFR Part 121, Operating Requirements: Domestic, Flag, and 
Supplemental Operations.
---------------------------------------------------------------------------
    Unlike the old rules--which included different rest requirements 
for domestic, international, and unscheduled flights--the new 
regulations establish one set of rules that are based on scientific 
factors, such as the time of day pilots begin their first flight, the 
number of scheduled flight segments, and the number of time zones 
crossed. Pilots are also now required to affirmatively state that they 
are fit to fly and are prohibited from flying during a scheduled duty 
period when they report fatigue. Other key changes in the new flight 
and duty time regulations include a 10-hour minimum rest period prior 
to duty, a 2-hour increase over the previous rule, and 30 consecutive 
hours free from duty per week--an increase of 25 percent over the 
previous regulation requirements.
    FAA Promoted Air Carriers' Use of Voluntary Safety Programs
    In March 2011, FAA completed a congressionally required review of 
Part 121 air carriers' use of voluntary safety programs \5\ and later 
devised a plan to help smaller air carriers implement these programs. 
Data gathered through voluntary safety programs can be used to identify 
the trends and patterns that represent risks. The Act targets air 
carrier participation in three such programs that FAA oversees:
---------------------------------------------------------------------------
    \5\ Voluntary Safety Programs, Response to P.L. 111-216, Sec. 213, 
January 28, 2011.

  <bullet> Aviation Safety Action Program (ASAP), which encourages air 
        carrier and repair station employees to voluntarily report 
        safety information that may be critical to identifying 
        potential precursors to accidents without fear of enforcement 
---------------------------------------------------------------------------
        or disciplinary action.

  <bullet> Flight Operational Quality Assurance (FOQA), which collects 
        and analyzes digital flight data generated during scheduled 
        flights to provide greater insight into performance and 
        operations.

  <bullet> Advanced Qualification Program (AQP), which provides a 
        voluntary alternative to traditional training standards by 
        incorporating data-driven quality control processes to refine 
        pilot training based on the individual's proficiency and 
        identified training needs.

    The review found that, as of March 2011, 68 percent of Part 121 air 
carriers participate in at least one voluntary safety program and just 
under half of those carriers use more than one. Our ongoing analysis of 
current FAA data as of January 2012 shows a continued rise in voluntary 
safety program use--70 percent of Part 121 air carriers have at least 
one program, up from 59 percent 2 years ago. Further, for the same time 
period, 47 percent of Part 121 air carriers have multiple programs, 
compared to 36 percent 2 years ago.
    As shown in figure 1 below, the highest concentration of new growth 
for these air carriers has been with ASAP and FOQA. We also determined 
that the majority of carriers that transitioned to AQP training were 
regional carriers. Air carriers that use AQP benefit from improved data 
collection and analysis techniques and enhanced flight crew 
coordination.
Figure 1. Increase in Voluntary Safety Program Participation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: OIG analysis of FAA-reported data
FAA Is Ahead of Schedule for Implementing SMS
    Increasing use of voluntary safety programs is important for Part 
121 air carriers of all sizes, as the data generated by these programs 
is a large driver of SMS, a systemic and comprehensive process for 
managing safety risks. Specifically, SMS provides operators with 
business processes and management tools to examine data from everyday 
operations, isolate trends that may be precursors to incidents and 
accidents, and develop and carry out appropriate risk mitigation 
strategies. FAA has nearly completed its efforts to issue a final rule 
on SMS for air carriers. The Agency released a proposed rule in October 
2010 and, according to the Act, has until August 2012 to issue a final 
rule.
    FAA has also taken steps to assist air carriers in developing SMS 
before the completion of the final rule. FAA developed an SMS pilot 
program in 2007 to develop implementation strategies and oversight 
responsibilities. SMS pilot projects allow FAA and air carrier input in 
developing guidance and provide carriers an opportunity to share best 
practices and lessons learned. Currently, 83 percent of all Part 121 
air carriers (73 of 88) are participating in the pilot program.
    The new system, when fully implemented across all carriers, has the 
potential to significantly advance safety. However, there is industry 
concern that the SMS rule will not be scalable for air carriers of 
varying size and operational complexity, posing a larger burden on 
smaller air carriers for their implementation. Currently, 14 of the 15 
carriers that are not yet participating in FAA's SMS pilot program are 
smaller carriers (with less than 20 aircraft). Additionally, air 
carriers are concerned about public disclosure of SMS-collected data. 
Most of these concerns focus on whether the data can be used in legal 
proceedings. The current proposed rule does not address these concerns.
FAA Faces Challenges In Meeting Act Provisions On Pilot Training And 
        Safety Issues
    FAA efforts to issue Act-mandated rules to improve training 
standards, establish mentoring and leadership programs, and enhance 
screening and qualifications for pilots are delayed. While FAA is 
responsible for raising pilot qualifications, the successful 
implementation of such rules depends on FAA's ability to address air 
carrier concerns and work through the regulatory process in a timely 
manner, which has been a significant challenge for FAA. The Agency also 
faces several challenges in establishing a new centralized electronic 
pilot records database to provide air carriers with better background 
information on pilots they intend to hire.
Industry Concerns Have Delayed FAA's Rulemaking Efforts To Enhance 
        Pilot 
        Training Standards
    FAA is almost 6 months overdue on issuing a final rule revising 
pilot training requirements--the delay is due in part to significant 
industry opposition. This is an important safety initiative that will 
require pilot training programs to incorporate flight simulators and 
enhance pilots' ability to work together during emergencies. In January 
2009, FAA issued the Notice of Proposed Rulemaking (NPRM). However, FAA 
received extensive industry comments, primarily opposing that the rule 
imposes overly prescriptive training hours rather than basing pilot 
training on skills most needed to safely perform flight operations. As 
a result, FAA issued a second proposed rule in May 2011. The revised 
proposal requires more thorough ground and flight training for pilots 
on how to recognize and recover from stalls, as well as remedial 
training for pilots who perform poorly in training.
    With advancements in pilot training on the horizon, it is important 
that FAA enhance its oversight practices. For example, under the new 
rule, carriers will be required to provide remedial training for pilots 
with performance deficiencies. However, it will be difficult for FAA to 
gauge the effectiveness of this training unless it corrects weaknesses 
we identified in our December 2011 report on pilot training. We found 
that FAA was not tracking poorly performing pilots due to inadequate 
guidance for its inspectors on how to gather data on pilot performance. 
Specifically, FAA guidance requires inspectors to compare pilot 
proficiency checks that they have performed against those conducted by 
the carriers' check airmen.\6\ However, we questioned the viability of 
this requirement since nearly all pilot proficiency checks are 
conducted by check airmen, not FAA inspectors. As a result, FAA 
inspectors may not have sufficient data to make a meaningful 
comparison.
---------------------------------------------------------------------------
    \6\ Pilots employed by air carriers who evaluate a pilot's 
proficiency during training and examinations.
---------------------------------------------------------------------------
FAA's Rule To Require Pilot Mentoring, Leadership, and Professional 
        Development Committees at Air Carriers Is Overdue
    FAA is also almost 8 months overdue in meeting a mandated timeline 
to issue a proposed rule requiring that air carriers establish pilot 
mentoring, leadership, and professional development committees to 
improve pilot performance. This is due, in part, to a lengthy delay in 
developing an appropriate balance between the costs and benefits of 
these programs. FAA intends to issue a proposed rule that it believes 
would generate benefits by reinforcing safe flying practices.
    Pilot performance issues are longstanding safety concerns--pilot 
performance was cited in 7 of the 10 major accidents that occurred over 
the last decade, indicating that the quality of training, 
professionalism, and mentoring is important to safety. In February 
2011,\7\ we also reported that poor pilot performance--such as poor 
decision-making, inadequate aircraft control, improper flying 
techniques, and a disregard for operating procedures--is a high-ranking 
causal factor in airline accidents,\8\ a finding consistent with the 
National Transportation Safety Board (NTSB) review of the Colgan 
accident.
---------------------------------------------------------------------------
    \7\ OIG Controlled Correspondence CC-2009-074, ``Letter to Senators 
Rockefeller, Hutchison, and DeMint Regarding Commercial Aviation 
Accidents, Pilot Experience and Pilot Compensation,'' February 9, 2011.
    \8\ We analyzed the experience (i.e., total flight time and total 
make and model flight time in the accident aircraft) of pilots involved 
in 322 scheduled Part 121 passenger accidents that occurred from 
January 2000 through December 2009.
---------------------------------------------------------------------------
    After the Colgan accident, FAA focused on advancing pilot mentoring 
as part of its 2009 Call to Action on Airline Safety and Pilot Training 
but never released a detailed plan to implement programs at air 
carriers. In December 2011, we reported that regional air carriers were 
not pursuing mentoring opportunities for their pilots. Officials at 
these carriers expressed concerns that a mentoring program would have 
to be scaled to their business model and that pilot turnover at these 
carriers could outweigh the benefits of establishing these often costly 
programs. Seven of nine large and small carriers we recently visited as 
part of our ongoing audit did not have formal mentoring programs, and 
none had professional development programs to instill and reinforce 
high performance standards for their pilots.
FAA Is Behind Schedule and Will Likely Miss the Deadline To Issue a 
        Rule 
        Increasing Minimum Qualifications for Commercial Airline Pilots
    The Act requires FAA to issue a final rule to substantially raise 
airline pilot qualifications by August 2012. However, FAA did not issue 
the proposed rule until February 2012 and expects to issue the final 
rule by August 2013--a year after the mandate. Given the significant 
increase in pilot flight hours that the Act mandates for the final 
rule, FAA has encountered industry opposition.
    FAA's rule would require first officers to hold an Airline 
Transport Pilot (ATP) certificate,\9\ requiring 1,500 hours of pilot 
flight time--up from the current mark of 250 hours with a commercial 
pilot's license. The proposed rule would also require first officers to 
have an aircraft type rating, which involves additional training and 
testing specific to the airplanes they fly. Air carrier representatives 
are opposed to the increased flight hour requirement because they feel 
a pilot's quality and type of flying experience should be weighted more 
heavily than the number of flight hours. They state that the supply of 
qualified and available pilots will decrease because it will be 
difficult for entry-level pilots to attain this amount of hours before 
being qualified to fly at a commercial air carrier.
---------------------------------------------------------------------------
    \9\ Airline Transport Pilot (ATP) Certificate is the highest level 
of pilot certification. Pilots certified as ATP are authorized to act 
as pilot-in-command of an aircraft in commercial airline service. 
Additional eligibility requirements are contained in 14 CFR 61.153.
---------------------------------------------------------------------------
    Further, while FAA's pilot qualification proposal satisfies most of 
the Act's requirements in this area, it may fall short in ensuring 
sufficient pre-employment screening. For example, the Act states that 
applicant pilot screening must include an assessment of skills, 
aptitudes, airmanship, and suitability specific to each air carrier's 
operations. However, it is unclear whether FAA intended for the 
enhanced ATP requirements in the proposed rule to also satisfy the pre-
employment screening measures contained in the Act. If so, air carriers 
may not make appropriate changes to their pre-employment screening 
procedures specific to their operations.
    Finally, FAA has not acted to ensure carriers are ready to 
transition to these new pilot qualification requirements. For example, 
at two regional air carriers we visited as part of our ongoing review, 
more than 75 percent of current first officers did not have an ATP. 
Yet, neither carrier had developed a plan to ensure these pilots would 
be able to meet the enhanced requirements by the deadline, nor had the 
local FAA inspectors followed up with these carriers to assess their 
ability to comply with enhanced requirements. Additionally, FAA has not 
taken steps to determine the potential impact the new ATP requirement 
would have on current pilots, information that will be important for 
safety oversight.
FAA Lacks a Clear Strategy for Transitioning to a New Centralized 
        Electronic Pilot Records Database
    FAA met the Act's initial milestone in developing a centralized 
electronic pilot records database that will include records previously 
maintained by air carriers. The Act did not prescribe any additional 
milestones for the database's implementation, but the Agency has 
recognized that a rulemaking will be necessary to fully develop the 
intricacies of this electronic system and is in the preliminary stages 
of writing this proposal. However, to create a robust, complete, and 
secure data repository that carriers can use when hiring pilots, FAA 
must overcome three key challenges:

  <bullet> First, FAA must address what level of detail should be 
        captured from air carrier pilot training records, such as 
        whether recurrent flight training will be included. The Act 
        stipulates that comments and evaluations made by the pilot 
        examiner \10\ be included in the database; however, industry is 
        highly protective of these data and opposes including them in 
        the database. FAA must also address how to include historical 
        air carrier pilot training records into its new system. 
        Gathering the historical records while keeping them 
        standardized across sources will be difficult because 
        information in the records varies based on differences in air 
        carrier training programs and the record retention period 
        varies from 5 years to indefinitely, depending on the carrier.
---------------------------------------------------------------------------
    \10\ An FAA inspector or air carrier pilot who is qualified, and 
permitted, to conduct flight checks or instruction in an airplane, in a 
flight simulator, or in a flight training device for a particular type 
airplane.

  <bullet> Second, FAA does not expect to issue a final rule and launch 
        the database for at least another 2 years, so FAA will have to 
        determine how to transition from current recordkeeping 
        practices mandated by the Pilot Records Improvement Act 
        (PRIA)\11\ to the new database without disrupting the flow of 
        information. Therefore, until air carrier records are fully 
        integrated into the new database, carriers may need to continue 
        requesting data from both FAA and previous employers.
---------------------------------------------------------------------------
    \11\ Pub. L. No. 104-264, Section 502 (codified at 49 U.S.C. 
Sec. 44703(h)-(j)).

  <bullet> Finally, a pilot records advisory committee identified 
        multiple challenges for FAA in accessing records from the 
        National Driver Register (NDR)\12\ and incorporating them into 
        the database. For example, FAA must decide how to ensure data 
        reliability of pilot records and resolve conflicting data 
        retention policies for the database versus NDR.
---------------------------------------------------------------------------
    \12\ NDR is a central information system that allows states to 
electronically exchange information on licensed drivers through a 
computerized network.

    In addition to these challenges, we reported in December 2011 that 
FAA lacks a centralized process to receive and respond to carriers' 
requests for pilot records. This raises questions about whether air 
carriers are getting all the relevant information FAA has on pilots 
before they are hired. While this problem may be mitigated once the new 
database is launched, it remains a concern in the interim, especially 
since FAA's 2009 Call to Action on Airline Safety and Pilot Training 
called on carriers to obtain more comprehensive records on pilots prior 
to hiring. As a result, FAA experienced an influx of record requests 
from carriers and an increased workload.
Sustained Commitment And Oversight Are Needed To Achieve The Full 
        Measure Of Safety Enhancements Intended By The Act
    Sustained FAA management commitment and oversight are needed to 
ensure that provisions of the Act are effectively implemented and have 
the desired impact of improving safety. Specifically, FAA needs to: (1) 
effectively communicate with local FAA offices and industry on the 
status of new rules and guidance, (2) provide additional direction and 
support for developing new safety programs at smaller air carriers, and 
(3) address pilot commuting issues.
FAA Has Not Provided the Level of Education, Outreach, and Guidance 
        Needed for Industry To Implement New Safety Programs
    A lack of key stakeholder involvement and poor communication 
between FAA and industry is impeding progress on several Act 
initiatives. FAA created six aviation rulemaking committees (ARC) to 
develop recommendations on multiple initiatives, such as identifying 
and promulgating best practices in pilot training and developing the 
pilot record database. However, FAA did not inform its field offices or 
airlines of many of the ARCs' results, such as status of rulemakings, 
or engage in effective outreach efforts for new safety programs other 
than SMS. For example, none of the nine field offices we visited during 
our ongoing review had received information from FAA on the Agency's 
progress in developing mentoring, professional development, and 
leadership programs for air carrier pilots. If FAA had provided early 
outreach to field offices on the status of rulemaking and best 
practices, air carriers could be better positioned to implement new 
pilot safety programs when the rules are finalized.
    Further, FAA did not follow up to ensure proper implementation of 
guidance it has issued to air carriers. For example, while FAA issued 
guidance for retaining and submitting pilot training records for the 
new electronic, centralized pilot records database, it did not follow 
up to see that air carriers were following the new requirements. Four 
of the six carriers we visited during our ongoing review had not 
clarified their policies to reflect this change. As a result, important 
details concerning pilot training and proficiency may be lost and not 
available for air carriers to use in future hiring decisions.
    Additionally, some air carriers that had moved forward with new 
programs encountered obstacles in obtaining FAA approval. For example, 
one regional air carrier attempted to proactively develop a program for 
first officers to obtain advanced certification as prescribed by the 
Act. While the local FAA office initially approved the program, FAA 
rescinded the approval 1 day before it was set to launch because 
national-level guidance had not been issued. Although most actions 
taken by air carriers thus far are voluntary, a lack of clear and 
timely communication by FAA provides little impetus for air carriers to 
move forward with new initiatives.
FAA Does Not Have a Focused Plan To Help Smaller Air Carriers Establish 
        New Safety Programs
    Despite overall gains, implementation of voluntary safety programs 
has mostly occurred at larger air carriers. Yet, the Act instructed FAA 
to develop a plan to help all Part 121 carriers establish such 
programs, with particular emphasis on ASAP and FOQA. FAA devised an 
implementation plan for ASAP and FOQA at smaller air carriers, but a 
lack of funding has prevented FAA from enacting the FOQA plan. As a 
result, smaller carriers have been unable to purchase and install the 
equipment needed to run this program. With a focused plan and dedicated 
funding, FAA can help smaller air carriers establish voluntary safety 
programs and realize the benefits of increased safety reporting and 
trend analyses.
    As shown in table 1, while all large carriers with more than 50 
aircraft in their fleet have an incident reporting system (ASAP), the 
system has been adopted by only 41 percent of small carriers with 15 or 
fewer aircraft. Similarly, just over 10 percent of these small 
operators have FOQA, compared to more than 90 percent of large 
operators.

                           Table 1. Air Carrier Voluntary Safety Program Participation
----------------------------------------------------------------------------------------------------------------
                                          Number of        Large Carriers                        Small Carriers
               Program                     Carriers        (more than 50     Medium Carriers      (15 or fewer
                                        Participating        aircraft)       (16-50 aircraft)      aircraft)
----------------------------------------------------------------------------------------------------------------
Aviation Safety Action                         60 of 88           24 of 24           19 of 23           17 of 41
Program                                           (68%)             (100%)              (83%)              (41%)
----------------------------------------------------------------------------------------------------------------
Flight Operational                             38 of 88           22 of 24           11 of 23            5 of 41
Quality Assurance                                 (43%)              (92%)              (48%)              (12%)
----------------------------------------------------------------------------------------------------------------
Advanced Qualification                         19 of 88           13 of 24            3 of 23            3 of 41
Program                                           (22%)              (54%)              (13%)               (7%)
----------------------------------------------------------------------------------------------------------------
Source: OIG analysis of FAA-reported data as of January 2012.

    Despite the disparities between the large and small air carriers, 
FAA has not fully implemented its plan to assist smaller air carriers 
with the resources needed--such as best practices and guidance--to 
establish new safety programs. Smaller air carriers have fewer 
resources than their mainline counterparts to handle the operation and 
management of new safety programs. As a result, they will have to 
prioritize development of these programs based on feasibility and 
importance and will face difficulties in implementing new programs 
simultaneously--especially without guidance or program assistance from 
FAA.
FAA's Fatigue Rule Does Not Address Pilot Commuting
    FAA's changes to the flight and duty time regulations represented a 
significant safety achievement; however, the regulations do not require 
air carriers to identify pilots who commute. These are significant 
factors that may contribute to fatigue given that many pilots in the 
industry reside hundreds or even thousands of miles from their duty 
locations. While FAA considered mandating that pilots arrive in time to 
receive a pre-flight rest period in the proposed rule, it stated that 
the requirement would be difficult to enforce and would not guarantee 
responsible commuting.
    Pilot commuting and related issues were concerns that came to light 
after the Colgan accident. The NTSB investigation into the crash 
revealed that both pilots had commuted hundreds of miles before the 
flight. NTSB also found that Colgan did not proactively address the 
pilot fatigue hazards associated with basing its operations at an 
airport where pilots typically have to commute long distances in order 
to begin their work shifts. In its investigative report, the NTSB 
stated that ``operators have a responsibility to identify risks 
associated with commuting, implementing strategies to mitigate these 
risks, and ensure that their commuting pilots are fit for duty.''
    NTSB issued a recommendation to FAA to address fatigue risks 
associated with commuting, including identifying pilots who commute. 
The National Academy of Sciences similarly noted in a July 2011 report 
that there are not enough data to determine the role commuting plays in 
contributing to fatigue or whether it should be regulated.\13\ This 
underscores how collecting and analyzing these data could help FAA make 
well-informed decisions on commuting. In our September 2011 report on 
pilot fatigue, we recommended that FAA collect and analyze data 
regarding pilot commuting for all Part 121 flight crews and determine 
if additional changes are needed or if airlines need to take further 
mitigating actions in their fatigue management systems. In its 
response, FAA stated that it will review available data on pilot 
commuting and determine if additional data could offer added safety 
benefits. FAA committed to completing these actions by October 1, 2012.
---------------------------------------------------------------------------
    \13\ The National Academy of Sciences, The Effects of Commuting on 
Pilot Fatigue, ISBN 978-0-309-21696-8, July 6, 2011 (Response to P.L. 
111-216, Sec. 212).
---------------------------------------------------------------------------
Conclusion
    FAA plays an integral role in maintaining the excellent safety 
record of the U.S. National Airspace System. FAA acted swiftly to 
address safety concerns highlighted by the Colgan crash and has since 
made commendable progress in meeting new Act requirements. FAA still 
faces several challenges, however, in updating pilot training and 
leadership programs, developing screening and qualifications standards, 
and ensuring carriers have the data they need to make sound hiring 
decisions. To effectively implement these initiatives in a timely 
manner, FAA must balance industry concerns with a sustained commitment 
to oversight. We are encouraged by FAA's progress to date and will 
continue to monitor its efforts to meet remaining Act requirements.
    This concludes my statement. I would be happy to address any 
questions from the Chairman or Members of the Subcommittee at this 
time.

                             Exhibit. Status of Key Airline Safety Act Requirements
----------------------------------------------------------------------------------------------------------------
 Section       Initiative            Milestone        Deadline                   Milestone Status
----------------------------------------------------------------------------------------------------------------
    202   NTSB Recommendations  Report                   Annual                                  Met, On-Target
           Report
----------------------------------------------------------------------------------------------------------------
    203   FAA Pilot Records     Database             10/30/2010                                             Met
           Database              Development
                               ---------------------------------------------------------------------------------
                                Report                 2/1/2012                                Missed & Overdue
----------------------------------------------------------------------------------------------------------------
    204   Air Carrier Safety &  ARC Report            7/31/2011                                             Met
           Pilot
                               ---------------------------------------------------------------------------------
          Training ARC          ARC Report            7/31/2012                                       On-Target
----------------------------------------------------------------------------------------------------------------
    205   FAA Inspector         Start OIG Review       5/1/2011                                             Met
           Staffing
----------------------------------------------------------------------------------------------------------------
    206   Mentoring,            NPRM                   8/1/2011                                Missed & Overdue
           Development, and
                               ---------------------------------------------------------------------------------
          Leadership            Final Rule             8/1/2013                                To Be Determined
----------------------------------------------------------------------------------------------------------------
    207   Crew Pairing and CRM  Study                  8/1/2011                                                Completed Late--8/26/2011
----------------------------------------------------------------------------------------------------------------
    208   NTSB Training         ARC Formation        11/29/2010                                             Met
                               ---------------------------------------------------------------------------------
          Recommendations       NPRM                   8/1/2011                                             Met
                               ---------------------------------------------------------------------------------
                                ARC report           11/30/2011                                                Completed Late -3/7/2012
                               ---------------------------------------------------------------------------------
                                Final Rule             8/1/2013                                To Be Determined
----------------------------------------------------------------------------------------------------------------
    209   FAA Rulemaking on     ARC Formation         9/30/2010                                                Completed Late--11/16/2010
           Training
                               ---------------------------------------------------------------------------------
                                ARC Report             8/1/2011                                                Completed Late--9/23/2011
                               ---------------------------------------------------------------------------------
                                Final Rule            10/1/2011                                Missed & Overdue
----------------------------------------------------------------------------------------------------------------
    210   Code Share Ticket     Amend 49 U.S.C.             N/A                                             Met
           Disclosure            Sec.  41712
----------------------------------------------------------------------------------------------------------------
    211   FAA Safety            Perform one per          Annual                                             Met
           Inspections           year
----------------------------------------------------------------------------------------------------------------
    212   Fatigue & Commuting   NPRM                   2/1/2011                                             Met
                               ---------------------------------------------------------------------------------
                                Final Rule             8/1/2011                                                Completed Late--1/4/2012
                               ---------------------------------------------------------------------------------
                                Risk Management       11/1/2010                                             Met
                                 Plans
                               ---------------------------------------------------------------------------------
                                Start Study           9/30/2010                                             Met
                               ---------------------------------------------------------------------------------
                                Preliminary           1/30/2011                                             Met
                                 Findings
                               ---------------------------------------------------------------------------------
                                Report                6/30/2011                                             Met
----------------------------------------------------------------------------------------------------------------
    213   Voluntary Safety      Report                1/28/2011                                                Completed Late--3/16/2011
           Programs
----------------------------------------------------------------------------------------------------------------
    214   ASAP & FOQA           Plans Issued          1/28/2011                                                Completed Late--4/14/2011
           Implementation
                               ---------------------------------------------------------------------------------
                                Plans Implemented      8/1/2011                            FOQA Portion Overdue
----------------------------------------------------------------------------------------------------------------
    215   Safety Management     NPRM                  11/1/2010                                             Met
           Systems
                               ---------------------------------------------------------------------------------
                                Final Rule             8/1/2012                                       On-Target
----------------------------------------------------------------------------------------------------------------
    216   Screening &           NPRM                  1/28/2011                                                Completed Late--2/29/2012
           Qualifications
                               ---------------------------------------------------------------------------------
                                Final Rule             8/1/2012                                To Be Determined
                               ---------------------------------------------------------------------------------
                                ATP                    8/1/2013                                To Be Determined
----------------------------------------------------------------------------------------------------------------
    217   ATP Certification     Final Rule             8/1/2013                                       On-Target
----------------------------------------------------------------------------------------------------------------
Source: OIG analysis of FAA-reported data.


    Senator Cantwell. Thank you, Mr. Scovel. You brought up 
some very important points, and I do have questions for you but 
I'm going to go to Mr. Voss next and hear from the rest of the 
witnesses. Unfortunately, I have to go to the floor to speak on 
an amendment that's being voted on shortly, and so I'm going to 
turn to my colleague, Senator Lautenberg, to continue the 
hearing in my absence.
    And so thank you, Senator Lautenberg, for taking over.
    But, Mr. Voss, why don't you go ahead--he's the CEO of 
Flight Safety Foundation--and we look forward to your comments.

STATEMENT OF WILLIAM R. VOSS, PRESIDENT AND CEO, FLIGHT SAFETY 
                           FOUNDATION

    Mr. Voss. Thank you, Madam Chairman and distinguished 
members of the Subcommittee.
    The Flight Safety Foundation is an independent nonprofit 
organization focused solely on aviation safety. We have more 
than 1,000 organizations and individuals as members across more 
than 150 countries. I appreciate this opportunity to testify.
    Let me first speak briefly to the fatigue rule. When the 
FAA published the new fatigue rule, it brought to an end more 
than 20 years of political gridlock and internal fighting. It 
brought forward a set of rules that reflect a modern 
understanding of the science of fatigue. The new rule gives 
industry the flexibility to respond to new operational risks as 
they emerge and to embrace new advances in science as they 
occur. This is a great achievement, and the world has taken 
notice.
    As difficult as that was, the pilot certification and 
qualification requirements are a far greater challenge. There's 
still a great deal of work to be done to address these issues 
in experience and training. The training standards for airline 
operations over the last few decades have become dangerously 
outdated, and we've seen some tragic consequences.
    The problem is not unique to the United States. It's a 
global problem that must be dealt with now, and the world will 
be watching the FAA to see how they address it.
    Since the initial proposal of the ATP and 1,500 hour rule 
in H.R. 5900, we've expressed some reservations that too much 
emphasis was being placed on mandatory flight hours. Our 
position is that if a flight crew needs to have a specific 
skill set in order to protect the lives of their passengers, 
then positive steps should be taken to ensure that knowledge is 
obtained. Assuming that vital knowledge will be obtained 
through experience leaves too much to chance.
    For that reason, the Foundation agrees very much with the 
FAA's suggestion that a structured training program can allow 
the 1,500 hour requirement to be reduced, because structured 
training programs simply leave less to chance. Ultimately, the 
Foundation believes the real effectiveness of the new rule will 
be the result of focused training mandates, and we're 
encouraged to see a number of these in the proposed rulemaking.
    The requirements for an ATP certification training program 
and the development of an ATP knowledge test are very positive. 
Also, the advanced jet training course suggested by one of the 
ARCs addresses many of the high-risk issues. In addition, the 
NPRM contains two experience requirements that make a great 
deal of sense. One is the 50-hour multi-engine requirement for 
second in command. The other is for 1,000 hours of airline 
operational experience before assuming the role of captain. 
Most responsible airlines already do this, and we 
institutionalize some of the best practices.
    Looking forward, the progress made to date has been rather 
impressive. However, I'd like to offer some suggestions and 
cautions as we move forward with implementation.
    First of all, while the external forces such as Congress 
and the family groups have provided clearly an essential push, 
it's important at this junction that the experts are allowed to 
focus on the issues that pose the real risks rather than the 
issues that only resonate politically. There are things that 
capture the public's imagination, but they may not always be 
the same things that need to be addressed to reduce risk.
    Second, progress against the objectives of H.R. 5900 must 
be made with a sense of urgency but without overreaching. The 
myriad of working groups and deadlines spawned by 5900 had the 
desired effect and unfroze the stagnant system. But the breadth 
of activity clearly exceeded the resources and capability of 
the FAA to manage. While a sense of urgency must be maintained, 
we also have to recognize we're now in a part of the process 
where the details really matter, and we must respect that.
    Finally, it should be acknowledged that H.R. 5900 will have 
significant international implications. The new ATP requirement 
the FAA will generate will result in a rule that the rest of 
the world will be unable to follow. The structure of the global 
airline industry and the demand for aviation professionals 
around the world will make it impossible for foreign regulators 
to follow the FAA's lead. This is an unusual situation and 
comes at a time when U.S. leadership in aviation is being 
challenged in some parts of the world.
    There will also be some challenges for foreign regulators 
who inspect U.S. airlines operating abroad. The Flight Safety 
Foundation strongly supports the FAA proposal to issue an ATP 
certificate with restricted privileges and to issue this with 
as few as 1,000 hours. But such a certificate falls outside the 
framework of international standards. Therefore, foreign 
inspectors will not be able to accept it unless special 
provisions are made.
    In summary, we are encouraged by the many advances we are 
seeing in the implementation of H.R. 5900. We retain a healthy 
respect for the detailed work of implementation which follows. 
We'll be happy to answer any questions.
    Thank you.
    [The prepared statement of Mr. Voss follows:]

       Prepared Statement of William R. Voss, President and CEO, 
                        Flight Safety Foundation
    Chairman Cantwell, Ranking Member Thune, and distinguished members 
of the Subcommittee: My name is William Voss and I am the President and 
Chief Executive Officer of the Flight Safety Foundation.
    The Flight Safety Foundation is an independent, nonprofit, 
international organization engaged in research, education, advocacy, 
and publishing. Its mission is to be the leading voice of safety for 
the global aerospace/aviation community. We have members all around the 
world representing every facet of the aviation industry. On behalf of 
the Foundation, I appreciate this opportunity to testify about the 
implementation of H.R. 5900, the Airline Safety and Federal Aviation 
Administration Extension Act of 2010.
    The short answer is that the implementation of H.R. 5900 is 
progressing well. The more complicated answer is that there is still 
work to be done and parts of this law that ought to be reconsidered.
The Fatigue Rule
    My background in aviation is diverse. I've been a pilot, an air 
traffic controller, a certified aviation mechanic, and a regulator and 
standard-setter, both at the FAA and the International Civil Aviation 
Organization (ICAO). I know firsthand how the issue of fatigue can 
affect every aspect of this industry. We all know that fatigue affects 
our performance, but normally our own drowsiness or lack of sleep does 
not have the potential for catastrophic consequences, unlike the 
airline pilot who is responsible for dozens or hundreds of lives. While 
some may not be entirely satisfied with all aspects of the fatigue rule 
mandated under H.R. 5900, I have to say that the overall result is 
indeed historic. More than 20 years of political gridlock has been 
broken. What we have today are a set of rules that reflect our modern 
understanding of fatigue and target operational risks based on science 
rather than just political horse-trading. The new rule gives the 
industry the flexibility to respond to new operational risks as they 
emerge and to embrace new advances in science as appropriate. The world 
has taken note, and to a great extent is following this positive 
example.
Pilot Certification and Qualification Requirements for Air Carrier 
        Operations
    There is still a great deal of work to be done to address the 
issues of experience and training requirements called for under H.R. 
5900. Congress and family groups were right to call for action in this 
area. The training standards for airline operations have been 
relatively static for decades, while incremental implementation of new 
technology and wholesale restructuring of the industry has caused those 
training requirements to become dangerously outdated and we are seeing 
some tragic consequences. This problem is not unique to the United 
States. It is a world-wide problem that must be dealt with now and the 
world will be watching to see how the FAA addresses it.
    Since the initial proposal of the 1,500 hour rule, the Flight 
Safety Foundation expressed reservations regarding the focus that H.R. 
5900 places on mandatory flight hours. Our position has been that if a 
flight crew needs to know, understand or have a specific skill set in 
order to protect the lives of their passengers, then steps should be 
taken to ensure the knowledge is obtained through training or previous 
experience. Mandating an arbitrary number of hours experience required 
to be in a cockpit makes the dangerous assumption that specific 
knowledge will be obtained simply due to hours in the air. This leaves 
too much to chance.
    There are countless examples of pilots with many thousands of 
hours, who lacked the critical knowledge to avert a tragedy. The Air 
Florida pilots who crashed at Washington National more than 20 years 
ago had 8,300 hours and 3,500 hours respectively, yet still lacked 
critical knowledge of cold weather and de-icing operations. While the 
final report has not been issued, it is clear that there were gaps in 
the knowledge of the crew of Air France 447, which crashed in the 
Atlantic Ocean several years ago, that lost control of the aircraft 
following a brief failure of an airspeed sensor.
    While the purpose of a 1,500 hour rule is understood, the Flight 
Safety Foundation strongly supports the notion that a structured 
training program can allow this requirement to be reduced, since that 
training program would reduce risk by leaving less to chance. The 
Foundation believes the real effectiveness of the new rule will be more 
a result of mandating critical training that targets risk in the real 
world, rather than simply increasing the number of hours.
    The Notice of Proposed Rule Making (NPRM) calls for several changes 
that are very important. The requirements for an Airline Transport 
Pilot (ATP) Certification Training Program and the development of a 
revised ATP Knowledge are positive. These changes will help ensure that 
the basic knowledge of air carrier operations are provided and will 
open the door to a modernization of the existing knowledge test.
    The Flight Operations and Qualifications Aviation Rulemaking 
Committee (ARC) also recommended a requirement for an Advanced Jet 
Training Course. The Foundation supports this recommendation since it 
would ensure specific practical training that addresses many of the 
highest-risk areas, and would meeting many of the requirements spelled 
out in Section 216 of H.R. 5900.
    The NPRM also includes two new experience requirements that 
institutionalize common practice and make a great deal of sense. One is 
the requirement for 50 hours of multi-engine experience for a second in 
command. This requirement is a de facto industry standard already. The 
other requirement is for 1,000 hours of airline operational experience 
before assuming the role of captain. This amounts to a requirement for 
one to two years of line experience as a first officer before assuming 
command. Most responsible airlines already have a similar requirement.
    It is vitally important to ensure that Captains are promoted in a 
thoughtful and deliberate manner. Captains become mentors and trainers 
for first officers. They also set the limits of what is acceptable and 
the types of risks that may or may not be taken. The professionalism 
and maturity of the Captains drive the safety culture of an airline. I 
hope to see additional work that focuses on the important area of 
mentoring.
Looking Forward
    The progress in the area of fatigue and pilot training is 
impressive. However I would like to offer some suggestions and cautions 
as we move forward with further implementation.
    First of all I would like to suggest that while external forces 
have provided an essential push, it is important at this junction that 
the experts are allowed to focus on the issues that pose a risk rather 
than just the issues that resonate politically. For example, H.R. 5900 
Section 207 directs the FAA to, ``. . . conduct a study on aviation 
industry best practices with regard to flight crewmember pairing, crew 
resource management techniques, and pilot commuting.'' I have heard a 
lot of controversy about pilot commuting but I have heard very little 
about crew pairing. As a safety professional I will tell you crew 
pairing techniques are a powerful tool to mitigate risk. We are at a 
juncture where the things that capture the public's imagination may not 
be the same things that need to be addressed to avert the next tragedy.
    Secondly, progress against the objectives of H.R. 5900 must be made 
with a sense of urgency, but without overreaching. The myriad of 
working groups, studies and deadlines, specified by H.R. 5900 had the 
desired effect. They created a flurry of activity that unfroze the 
system that had and drove overdue action on key issues. However, this 
flurry of activity generated as much heat as it did light. The breadth 
of activity clearly exceeded the resources and capability of the FAA to 
manage. From this point on, it would be best if the sense of urgency 
could be maintained and a schedule agreed to that allows for the 
thoughtful implementation of some difficult changes.
    Finally, it should be acknowledged that H.R. 5900, and specifically 
the requirement for an ATP for the second -in- command in an air 
carrier, will have significant international implications. Since the 
close of World War II, the United States has been a leader in the field 
of aviation, and the FAA has served as a model for regulatory 
authorities around the world. For the first time, the FAA will 
promulgate a rule that the rest of the world will have to universally 
dismiss. Given the structure of the global airline industry and the 
demand for aviation professionals around the world, it will be 
impossible for foreign regulators to follow the FAA's lead and 
implement an ATP requirement for the second-in-command of an air 
carrier.
    In addition, there will be challenges for foreign regulators who 
are confronted with an Airline Transport Pilot Certificate that was 
issued with less than 1,500 hours. While the Flight Safety Foundation 
strongly supports the FAA proposal to issue an ATP Certificate with 
restricted privileges at 1,000 hours, such a proposal does fall outside 
the framework of international standards and will require some 
thoughtful adjustments to accommodate international operations.
    These are not inconsequential concerns. Our actions reverberate 
throughout the world and it is important that our lawmakers and 
regulators at the FAA consider the impact new regulations have on 
international operators flying into the U.S. as well as the impact some 
of these regulations may have on the US's position as the standard-
bearer for aviation regulation. We are encouraged by many of the 
advances we have seen during the implementation of H.R. 5900, but still 
see some areas that need more work.
    For the traveling public, the tragedy of an aviation accident is 
magnified by the rarity. We've achieved levels of safety that are the 
envy of other industries and can make all of us proud. But we must stay 
vigilant and understand that safety is an ongoing effort. As we get 
deeper into the implementation of H.R. 5900, it is our hope that the 
FAA continues to increase its work with safety professionals and other 
experts in order to make our safe skies even safer.
    Thank you very much for this opportunity to testify this afternoon.

    Senator Lautenberg [presiding]. Thank you very much.
    Dr. Belenky, we'd like to hear from you now, please.

              STATEMENT OF GREGORY BELENKY, M.D.,

                RESEARCH PROFESSOR AND DIRECTOR,

             SLEEP AND PERFORMANCE RESEARCH CENTER,

              WASHINGTON STATE UNIVERSITY, SPOKANE

    Dr. Belenky. Chairman Cantwell, Senator Lautenberg, and 
distinguished members of the Subcommittee, thank you for the 
invitation to comment on the new FAA rule, Flight Crew Duty and 
Rest Requirements.
    In the new rule, the FAA has combined science and 
operational experience. The FAA introduces the concept of 
maximum flight duty period as the basis for the prescriptive 
rule and fatigue risk management systems as alternatives to the 
prescriptive rule.
    The maximum flight duty period takes into account the 
effects of time on duty, circadian rhythm, and segments flown, 
so workload. Thus, the maximum flight duty period captures and 
mitigates the three major components of fatigue: sleep-wake 
history, circadian rhythm, and workload. Again, fatigue risk 
management systems offer a flexible, evidence-based alternative 
to the prescriptive rule.
    With respect to the maximum flight duty period and its 
modulation by time on duty, the circadian rhythm, time of day, 
and workload, the rule is clear and unambiguous. With respect 
to fatigue risk management, while there are internationally 
accepted standards from the International Civil Aviation 
Association, ICAO, the FAA needs to define what is an 
acceptable demonstration of an equivalent level of safety and 
hence an alternative means of compliance for a fatigue risk 
management system with respect to the prescriptive rule.
    Presumably, this will be defined in the upcoming FAA 
advisory circular on fatigue risk management. In this yet to be 
released advisory circular, it seems reasonable to expect that 
the FAA would consider the use of biomathematical models to 
predict performance on the basis of sleep-wake history and 
circadian phase.
    As the first step in a process of demonstrating an 
equivalent level of safety, a model could be used to make 
relative comparisons between schedules generated by the 
prescriptive rule and schedules generated by a proposed fatigue 
risk management system. To make such comparisons, the model or 
models must be shown to accurately predict human performance. 
Thus, models must be verified as to their internal workings, 
validated in terms of their predictions, and certified for use 
in aviation in a manner similar to the mathematical models used 
to predict mean time before failure of an aircraft component.
    Further, modeling is not the only path to fatigue risk 
management, as ICAO guidance makes clear. In the new rule, the 
FAA introduces the concept of flight time limits, limits that 
are well within the temporal boundaries of the maximum flight 
duty period.
    In support of this, the FAA cites studies suggesting, 
quote, that ``after a person has worked for about eight or 9 
hours, the risk of an accident increases exponentially for each 
additional hour worked.'' This is a strong claim. Strong claims 
require strong evidence. The scientific evidence supporting 
this assertion is weak.
    Accident risk is calculated by dividing the number of 
accidents by the number of people exposed. In the study cited, 
the number of people exposed had to be estimated from other 
data bases as exposure data were not available in the accident 
data bases themselves. As the authors of these papers 
themselves acknowledge, this introduces a major uncertainty 
into the calculation.
    While there may be a rationale for flight time limits, the 
studies cited do not provide it. In this instance, a major 
policy decision was made, in my opinion, on the basis of 
questionable evidence.
    To conclude, the FAA has made important advances in the 
evidence-based management of fatigue risk by integrating 
scientific findings in sleep and performance into its new rule. 
Uncertainty remains in the validation of biomathematical 
performance prediction models for use in FRMS, fatigue risk 
management systems, and in the rationale for flight time 
limits.
    Thank you, Chairman Cantwell, members of the Committee, for 
the opportunity to testify. I would be happy to take any 
questions.
    [The prepared statement of Dr. Belenky follows:]

  Prepared Statement of Gregory Belenky, M.D., Research Professor and 
   Director, Sleep and Performance Research Center, Washington State 
                          University, Spokane
    Chairman Cantwell, Ranking Member Thune, and distinguished members 
of the Subcommittee: thank you for the invitation to comment on the FAA 
rule on Flightcrew Member Duty and Rest Requirements. I am Gregory 
Belenky, Research Professor and Director, Sleep and Performance 
Research Center, Washington State University.
    In the new rule, the FAA has effectively combined science and 
operational experience. They introduce the maximum flight duty period 
as the basis for the prescriptive rule, and, fatigue risk management 
systems as an alternative to the prescriptive rule. The maximum flight 
duty period takes into account the effects of time on duty, the 
circadian rhythm, and segments flown. The maximum flight duty period 
neatly captures and mitigates the three major components of fatigue--
time awake, circadian rhythm, and workload. Fatigue risk management 
systems offer a flexible alternative to the prescriptive rule.
    With respect to the maximum flight duty period and its modulation 
by flight crew circadian rhythms and workload, the latter represented 
by segments flown, the rule is clear and unambiguous. With respect to 
fatigue risk management, what constitutes an acceptable demonstration 
of an equivalent level of safety and hence an alternative means of 
compliance awaits the issuance of the relevant FAA advisory circular.
    In the yet to be released advisory circular, it seems reasonable 
that the FAA would consider the use of biomathematical models to 
predict performance on the basis of sleep wake history and circadian 
rhythm phase. As the first step in a process of demonstrating an 
equivalent level of safety, it could use a model to make relative 
comparisons between schedules generated by the prescriptive rule and 
schedules generated by a proposed fatigue risk management system. To 
make such comparisons, the model must be known to accurately predict 
human performance. Models must be verified as to their internal 
workings, validated in terms of their predictions, and certified for 
use in aviation in a manner similar to the mathematical models used to 
predict mean time before failure of an aircraft component.
    In the new rule, the FAA introduced flight time limits that are 
well within the temporal boundaries of the maximum flight duty period. 
In support of this, the FAA cites studies suggesting ``that after a 
person has worked for about eight or nine hours, the risk of an 
accident increases exponentially for each additional hour worked.'' The 
scientific evidence supporting this assertion is weak. Risk is 
calculated by dividing the number of accidents by the number of people 
exposed to the accident risk. In the studies cited, the number of 
persons exposed had to be estimated as exposure data were not available 
in the accident databases. While there may be a rationale for flight 
time limits, the studies cited do not provide it. In this instance, a 
major policy decision was made on the basis of questionable evidence.
    To conclude, the FAA has made important advances in integrating 
scientific findings in sleep and performance into the new rule. 
Uncertainty remains in biomathematical performance prediction model 
validation and in the rationale for flight time limits.
    Thank you, Chairman Cantwell for the opportunity to testify before 
the Subcommittee. I would be happy to take any questions that you and 
the members of the Committee may have.

    Senator Lautenberg. Thank you.
    And now Captain Carl Kuwitzky.
    Captain, please go ahead.

  STATEMENT OF CAPTAIN CARL KUWITZKY, PRESIDENT, COALITION OF 
               AIRLINE PILOTS ASSOCIATIONS (CAPA)

    Mr. Kuwitzky. Good afternoon, Madam Chairperson Cantwell 
and the distinguished members of the Subcommittee on Aviation 
Operations, Safety, and Security.
    My name is Captain Carl Kuwitzky. I'm a Boeing 737 line 
pilot flying for Southwest Airlines. I've been with Southwest 
since 1983, flying captain the last 25 years. I'm honored and 
grateful for your invitation to appear before you today in my 
capacity as President of the Coalition of Airline Pilots 
Associations.
    You have before you my prepared remarks. But rather than 
read those remarks verbatim into the record, I would like to 
shorten them up a bit and speak to you a little more from the 
heart.
    Today, this committee is taking a look back on the progress 
of the sweeping legislation passed following the tragic Colgan 
accident, and that accident was, indeed, tragic. But out of 
that accident came long-needed change. Today, I want to touch 
on three issues in my comments, two of them directly out of 
that legislation.
    The first is the flight and duty time rules. As you know, 
they were released in December, and they were long overdue. 
Pilots have been working on this issue for 20 years. Why, you 
might ask? No one knows fatigue better than airline pilots. We 
live with it every day. Fatigue is a huge issue in our 
industry.
    The FAA approached this issue appropriately using the best 
available science, convened an aviation rulemaking committee, 
and pored through thousands of public comments. CAPA applauds 
the release of these new rules, but there's a critical flaw. 
And that flaw is the exclusion or carve-out of all cargo 
carriers from the new rule. Therefore, it misses the mark.
    Cargo pilots and pilots flying on the backside of the clock 
were the ones most in need of the new rules. Cargo pilots 
suffer the same fatigue issues as passenger pilots, probably 
even more so. Yet they were excluded.
    We do not have one level of safety. We have two, one for 
passenger pilots, one for cargo pilots. This must change. Cargo 
pilots must be included under the new Part 117 rules. We should 
all operate under one level of safety.
    With respect to first officer qualification, the 
legislation you're reviewing required an upgrade in the minimum 
professional standards for first officers piloting commercial 
aircraft. CAPA has long supported the current ATP certificate 
with its requisite requirements as the minimum level to serve 
as a first officer in Part 121 and 135 operations.
    We appreciate the direction and we support the direction 
the FAA is moving with the recently released NPRM in raising 
the experience level to serve as a first officer in these 
operations. What the NPRM proposes is certainly well above the 
current level, a minimum standard of 250 hours, which is 
completely unacceptable.
    But we believe the current ATP and 1,500 hours should be 
the benchmark. That certification level produces a mature, 
experienced, professional aviator with sound judgment to 
operate in today's complex environment.
    The last issue I'd like to talk about is Federal Flight 
Deck Officers. As you know, the FFDO program was enacted post-
9/11. It was designed to be the last line of defense from a 
terrorist attack on our Nation's cockpits. Many of our Nation's 
pilots volunteered to serve, and these pilots incurred 
significant personal financial costs to participate in 
attending initial training, maintaining proficiency, and 
attending requalification training.
    This is one of the most cost-effective programs in our 
Federal Government--$15 for each flight for an FFDO versus 
approximately $3,000 for a FAM to be on the same flight. And 
the total cost of the FFDO program is but a tiny fraction of 
the entire Federal Air Marshall Service budget.
    Unfortunately, the FFDO budget was reduced by approximately 
half in the President's recent budget release. The budget 
amount, if approved, will not sustain the existing program, 
much less replace pilots who have left the program and will 
begin leaving in larger numbers later this year when age 65 
mandatory retirement begins. There's a backlog of pilots 
awaiting training, but they've not been allowed to go due to a 
lack of funding.
    Our ask is simple. Please reject the cut in the FFDO budget 
and increase it to allow pilot volunteers to attend initial 
training to maintain the existing layer of security in our 
Nation's skies.
    Thank you to the Committee for this opportunity to testify 
before you today. CAPA looks forward to working constructively 
with this subcommittee to address the issues I've raised in my 
testimony. I look forward to your questions and comments.
    [The prepared statement of Mr. Kuwitzky follows:]

        Prepared Statement of Captain Carl Kuwitzky, President, 
                Coalition of Airline Pilots Associations
    Good afternoon, Madame Chairperson Cantwell, Senator Thune and the 
distinguished members of the Subcommittee on Aviation Operations, 
Safety and Security as well as Commerce Committee Chairman Rockefeller. 
My name is Captain Carl Kuwitzky. I am a line pilot currently flying 
for Southwest Airlines for 29 years. I am honored and grateful for your 
invitation to appear before you today in my capacity as President of 
the Coalition of Airline Pilots Associations (CAPA).
    CAPA is a trade association focused exclusively on the safety of 
the flying public and the enhancement of the piloting profession. We 
represent over 31,000 commercial airline pilots of Southwest Airlines, 
American Airlines, US Airways, UPS, Southern Air, ABX Air, Atlas Air 
Cargo, Kalitta Air, Polar Air Cargo, Arrow Air, Horizon Air, Miami Air, 
USA 3000, Omni Air, and Gulfstream Air. CAPA was proudly in the 
forefront in the fight for the passage of the Airline Safety and 
Federal FAA Extension Act of 2010.
    We congratulate this Subcommittee and all of the Senate and the 
House for enacting this important legislation vital to the safety of 
America' flying public and to maintaining and improving the high stands 
of our profession. Enactment of the Airline Safety Bill in 2010 was 
indeed a watershed moment for the commercial aviation industry. 
However, it was only the first step that needs to be taken for the 
safety of our flying public. The rigorous implementation of that bill 
by the Federal Aviation Administration is the next step that must be 
taken to ensure commercial aviation safety. As you know, the FAA 
recently released the new flight duty and rest regulations required by 
the Airline Safety and FAA Extension Act of 2010.
    These long awaited regulations were on the National Transportation 
Safety Board's ``Most Wanted'' list and sought by professional 
commercial airline pilots for over twenty years. The FAA correctly used 
all available science, convened an Aviation Rulemaking Committee and 
considered thousands of public comments to determine specific rules 
governing flight time and duty time in our profession.
    While CAPA applauds the promulgation of those rules, it is with 
regret that we must suggest that the critical standard of ``One Level 
of Safety'' for all commercial carriers was not met by the FAA. The 
regulations unfortunately have a critical flaw, that is, the exclusion 
of mandatory compliance by ``all-cargo'' operations. The safety of our 
Nation's air space is only as strong as its weakest link, and that weak 
link is fatigue in primarily all-night cargo operators who were 
excluded from the rule.
    Madame Chairperson, approximately 15 percent of all departures in 
the United States are all-cargo flights. These aircraft fly in the same 
airspace and routinely interact with passengers carriers throughout the 
aviation system. Cargo and passenger aircraft interact during numerous 
critical phases of flight which include Precision Radar Monitored (PRM) 
approaches and Land and Hold Short Operations (LASHO). During PRM 
approaches, aircraft fly with absolute minimum separation, relying on 
each other to fly precise approaches. During LASHO operations, aircraft 
are cleared to land and hold short of a crossing runway or taxiway 
where other aircraft are operating.
    Madame Chairperson, an exemption similar to this cargo ``carve-
out'' was attempted in the early 1990s when TCAS was mandated for 
passenger carriers while cargo carriers were exempt due to the alleged 
cost of the system. Following a fatal passenger/cargo midair accident 
in 1996, a near miss in 1997 between a UPS Boeing 747 and Air Force 
One, and two additional near misses in 1999, TCAS was finally mandated 
for all cargo aircraft. We fervently hope that the current cargo carve-
out can be obviated by the FAA or by Congressional statute if necessary 
before there is a terrible episode of a fatal accident. It is CAPA's 
position that until the new flight and rest regulations are applied to 
passenger carriers, all-cargo carriers and supplemental carriers, our 
air space will not be governed under ``One Level of Safety'' and the 
American public will not be assured of their right to a maximum level 
of safety.
    The Airline Safety and Federal FAA Extension Act of 2010 was also 
enacted to upgrade the minimum professional stands for First Officers 
piloting commercial aircraft. CAPA has always advocated the Airline 
Transport Pilot (ATP) License as the minimum standard for employment as 
a pilot with a Part 121 or Part 135 air carrier. The ATP provides the 
minimum requisite academic coursework, flight training and experience 
needed for the safe piloting of today's complex, high-speed aircraft 
through a congested, multifaceted air traffic control network in 
difficult weather and other situational environments. Mainline air 
carriers require the ATP for employment and once again, ``One Level of 
Safety'' dictates that all air carriers, regional or otherwise, should 
require the ATP as well. The 1500 flight hours that the ATP requires 
develops a mature, experienced and professional aviator who has the 
foundation to exercise prudent judgment while responsible for the safe 
transportation of scores of passengers.
    We were gratified that the Airline Safety bill did suggest 
directionally that all commercial airline pilots have an ATP. We were 
concerned that the legislation did allow the FAA Administrator to make 
exemptions from this standard. We were further concerned that the FAA 
rules will, while upgrading the current minimum standard, not actually 
require all commercial aviation pilots to have an ATP. We will continue 
to press the FAA and the Congress to ultimately fix this deficiency in 
the standard required in our profession.
    Madame Chairperson, on another issue not part of the Airline Safety 
Bill, I would like to raise the issue of the Federal Flight Deck 
Officer program. The FFDO program is a highly cost effective one 
designed to provide the last line of defense against possible terrorist 
activity aboard commercial aircraft. The pilot participants in this 
program bear significant costs out of their own pockets to train and 
take part in the program. Other programs such as that of the Federal 
Air Marshalls (FAMS) are hugely augmented, again in a highly cost 
effective manner, by the FFDO pilots. The Federal expenditures 
associated with the FFDO program are a tiny fraction of the cost of the 
FAM program. As you know, the FFDO budget has been stagnate for a 
number of years resulting in a significant backlog of pilots who have 
applied to participate in the program and are awaiting training due to 
the lack of Federal funds. In addition, unfortunately the budget the 
President submitted recently to the Congress cuts very substantially 
the Federal funds allocated to the FFDO program.
    CAPA urges the Senate Commerce Committee and the Senate 
Appropriations Committee to reject that cut in expenditure and indeed 
increase FFDO funding so new applicants can be trained for the program.
    Finally, CAPA congratulates this Subcommittee, the full Commerce 
Committee and the entire Congress for finally enacting an FAA 
Reauthorization bill. This bill will help to propel NextGen forward and 
provide a sustainable, certain level of funding for the Nation's air 
travel infrastructure. It is the first step the Congress has taken to 
the development of a national air transportation policy for the 21st 
century.
    CAPA looks forward to working constructively with this Subcommittee 
on all of the matters I have raised in my testimony. I look forward to 
your questions and comments. Madame Chairperson, I would respectfully 
request that my longer statement be included in the record of this 
hearing.

    Senator Lautenberg. Thank you.
    Mr. Hendricks, we'd like to hear from you now.

         STATEMENT OF THOMAS L. HENDRICKS, SENIOR VICE

         PRESIDENT OF SAFETY, SECURITY AND OPERATIONS,

                   AIRLINES FOR AMERICA (A4A)

    Mr. Hendricks. Senator Lautenberg, members of the 
Subcommittee, thank you for the opportunity to appear before 
the Committee today on this timely, important subject.
    Safety underpins every aspect of airline operations. The 
remarkable safety record of the airlines that are members of 
A4A demonstrates their unflagging commitment to fulfilling that 
responsibility. As a former airline captain, I have repeatedly 
witnessed that commitment. The results are extraordinary. No 
mainline U.S. airline has had a fatal passenger accident in 
over a decade.
    That achievement, however, does not mean that we're 
satisfied. Airline employees and management teams continuously 
work to improve safety. We very much appreciate the 
Subcommittee's emphasis on safety, as well as the efforts of 
the Federal Aviation Administration and the National 
Transportation Safety Board.
    The recently enacted FAA Modernization Reform Act includes 
a wide range of initiatives that will further enhance aviation 
safety, including the deployment of ASDE-X radar at major 
airports, promoting the sharing of safety data by airlines and 
airline employees with the FAA, and establishing a risk-based 
inspection system for aircraft repair stations located 
overseas. But the fact is that day in and day out, our members 
and their work forces exceed what laws and regulations require.
    Government's role in airline safety is crucial. But it is 
also important to recognize that how we do safety has changed 
dramatically over the years. The airline industry has reached 
the point where many of the improvements in safety are 
attributable to robust, data-driven analysis programs. They 
often involve collaborative scrutiny of the FAA, employees and 
management. And many of the most effective programs are the 
result of voluntary employee reporting mechanisms.
    These data-based programs enable us to identify emerging 
patterns and promptly deploy focused resources to reduce risks 
prior to crossing the threshold where safety can be 
compromised. This approach--going where the data take us--has 
greatly improved the quality of safety programs.
    With respect to recent safety initiatives, including those 
that Public Law 111-216 directed, we want to compliment the FAA 
on its professionalism in conducting a number of demanding 
rulemakings in a very short time. One of these proceedings is a 
proposed pilot qualification rule.
    In accordance with the legislation, the FAA issued a 
proposal on February 29 that first officers hold an Airline 
Transport Pilot certificate and a minimum of 1,500 hours flight 
time. Existing FAA regulations do not require a first officer 
flying for a Part 121 air carrier to hold an ATP certificate. 
Only the pilot in command must meet this certificate 
requirement. The proposed rule allows for lesser flight 
experience thresholds for aviation college graduates and former 
military pilots.
    A4A is preparing comments for the rulemaking proceeding. 
Although we have not completed them yet, we are concerned about 
the issue of quantity versus quality. Hard hour minima are not 
a substitute for the quality of a pilot's training and 
experience. Moreover, we need to avoid the unintended 
consequence of the rule becoming a significant barrier to 
recruiting airline pilots.
    Public Law 111-216 also contains training requirements that 
we supported because they were targeted initiatives. In 
response to that legislation, the FAA created several aviation 
rulemaking committees. Last May, it issued a supplemental 
notice of proposed rulemaking concerning Subparts N and O, the 
FAA's training regulations. This is a very complex matter.
    In simplest terms, we recommend that the FAA withdraw the 
supplemental rule and convene an aviation rulemaking committee 
to respond to specific concerns. We propose that they 
reconsider its decision not to mandate the Advanced 
Qualification Program as the single means of conducting air 
carrier training. And, finally, we recommend that the FAA 
require training for upset prevention and recovery in adverse 
weather operations.
    The FAA's flight time limitations and rest requirements 
rulemaking proceeding was a complicated undertaking. Overall, 
we believe the outcome was good. The FAA gave careful 
consideration to the comments it received and the final rule 
reflected that.
    Our biggest disappointment was that the rule imposed a hard 
flight time limit of eight or 9 hours, depending on the time of 
day. No other nation imposes limits to flying time on 
commercial aviation. Rather, they correctly provide limits on 
total flight duty periods, which also encompasses nonflying 
activities. Also, the current rule allows for that limit to be 
extended for circumstances beyond a carrier's control. That 
narrow allowance does not compromise safety and recognizes the 
vagaries of airline operations.
    As my remarks indicate this afternoon, the airline industry 
is committed to data-driven evaluations of operational issues. 
That kind of analysis produces the most responsive and 
effective results, and it allows for the most efficient 
deployment of finite resources in making necessary changes. As 
my remarks also indicate, we believe that regulation should 
also demonstrate that commitment.
    We appreciate very much the Subcommittee's leadership in 
aviation safety. We look forward to working with you to achieve 
further improvements in safety. And I look forward to taking 
any questions you might have.
    [The prepared statement of Mr. Hendricks follows:]

 Prepeard Statement of Thomas L. Hendricks, Senior Vice President for 
      Safety, Security and Operations, Airlines for America (A4A)
    Chairman Cantwell, Ranking Member Thune and members of the 
Subcommittee, thank you for inviting us to appear at this timely and 
important hearing.
    Safety underpins every aspect of airline operations. The remarkable 
safety record of the airlines that are members of A4A demonstrates 
their unflagging commitment to fulfilling that responsibility. As a 
former airline captain, I have repeatedly witnessed that commitment. 
The results are extraordinary: no mainline U.S. airline has had a fatal 
passenger accident in over a decade.
    That achievement, however, does not mean that we are satisfied. 
Airline employees and management teams continuously work to improve 
safety. We very much appreciate the Subcommittee's emphasis on safety, 
as well as the efforts of the Federal Aviation Administration and the 
National Transportation Safety Board. The recently enacted FAA 
Modernization and Reform Act includes a wide range of initiatives that 
will further enhance aviation safety, including expediting the 
deployment of ASDE-X radar at major airports, promoting the sharing of 
safety data by airlines and airline employees with the FAA, and 
establishing a risk-based inspection system for aircraft repair 
stations located overseas. But the fact is that, day in and day out, 
our members and their workforces exceed what laws and regulations 
require.
    Government's role in airline safety is crucial but it is also 
important to recognize that how we ``do safety'' has changed 
dramatically over the years. The airline industry has reached the point 
where many of the improvements in safety are attributable to robust 
data-driven analysis programs. They often involve the collaborative 
scrutiny of the FAA, employees and management. And many of the most 
effective programs are the result of voluntary employee reporting 
mechanisms.
    These data-based programs enable us to identify emerging patterns 
and promptly deploy focused resources to reduce risks prior to crossing 
the threshold where safety could be compromised. This approach--going 
where the data take us--has greatly improved the quality of safety 
programs.
    With respect to recent safety initiatives, including those that 
Public Law 111-216 directed, we want to compliment the FAA on its 
professionalism in conducting a number of demanding rulemaking 
proceedings in a very short time.
    One of these proceedings is the proposed pilot qualification rule. 
In accordance with Public 111-216, the FAA issued a proposal on 
February 29 that first officers hold an Airline Transport Pilot 
certificate and a minimum of 1500 hours flight time to obtain the 
certificate. Existing FAA regulations do not require a first officer 
flying for a Part 121 air carrier to hold an ATP certificate; only the 
pilot in command must meet this certificate requirement. The proposed 
rule allows for lesser flight-experience thresholds for aviation 
college graduates and former military pilots.
    A4A is preparing comments for the rulemaking proceeding. Although 
we have not completed them yet, we are concerned about the issue of 
quantity versus quality. Hard-hour minima are not a substitute for the 
quality of a pilot's training and experience. Moreover, we need to 
avoid the unintended consequence of this rule becoming a significant 
barrier to recruiting airline pilots.
    Public Law 111-216 also contained training requirements that we 
supported because they were targeted initiatives. In response to that 
legislation, the FAA created several Aviation Rulemaking Committees. 
Last May, it issued a supplemental notice of proposed rulemaking 
concerning Subparts N and O, the FAA's training regulations.
    This is a complex matter. In simplest terms, we recommend that the 
FAA:

  <bullet> Withdraw the SNPRM and convene an Aviation Rulemaking 
        Committee to develop revisions to Subparts N and O that are 
        data-driven and respond to specific concerns. The SNPRM's 
        proposals, in contrast, would have a negligible effect on 
        airline safety but would impose significant costs on carriers 
        and would divert resources from some of the most sophisticated 
        training programs in the world. That outcome is not 
        justifiable.

  <bullet> Reconsider its decision not to mandate the Advanced 
        Qualification Program as the single means of conducting air 
        carrier training. AQP entails a systematic front-end analysis 
        of training requirements from which explicit proficiency 
        objectives for all facets of pilot training are developed. 
        That, we believe, is how all Part 121 carriers should conduct 
        their training.

  <bullet> Require training for upset prevention and recovery, and 
        adverse weather operations. This should be done by adopting the 
        recommendations of Public Law 111-216 and the Flight Crewmember 
        Training ARC.

    The FAA's flight time limitations and rest requirements rulemaking 
proceeding was a complicated undertaking. Overall, we believe the 
outcome was good. The FAA gave careful consideration to the comments it 
received and the final rule reflected that. Our biggest disappointment 
was that the rule imposed a hard flight-time limit of eight or nine 
hours, depending on the time of the day. It is important to note that 
no other nation imposes limits to flying time on commercial aviation. 
Rather, they correctly provide limits on total flight duty periods, 
which also encompasses non-flying activities. Also, the current rule 
allows for that limit to be extended for circumstances beyond the 
carrier's control. That narrow allowance does not compromise safety and 
recognizes the vagaries of airline operations.
    As my remarks this afternoon indicate, the airline industry is 
committed to data-driven evaluations of operational issues. That kind 
of analysis produces the most responsive and effective results. And it 
allows for the most efficient deployment of finite resources in making 
necessary changes. As my remarks also indicate, we believe that 
regulations should also demonstrate that commitment.
    We appreciate very much the Subcommittee's leadership in aviation 
safety. We look forward to working with you to achieve further 
improvements in safety.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thank you very much.
    We're looking at an industry that has made enormous 
progress in safety over the years, over the decades. And, 
obviously, we've got to pay as much attention to any factor 
that interferes with safe movement in aviation as we can. And 
in this instance, we're looking, particularly, at pilot 
training and the number of hours that should be allowed to 
work--conditions that obviously affected the terrible accident 
that resulted from the Colgan crash up in Buffalo.
    And for some years now, I've been very involved with 
aviation safety. I had an active role in helping to find the 
culprit who brought down Pan Am 103 many years ago. I went to 
Scotland to try and understand what happened there. And one of 
the things that we do notice, particularly, is that progress 
made in aviation safety includes significant advancements in 
technology--when you think about it, the GPS systems.
    I used to ride along in a twin second seat and--I never 
took any training, and a friend of mine once said to me, ``What 
do you do if we're flying along and all of a sudden I go''--I 
said, ``I go''--the same way. And so I admire so much what's 
happened to the pilot population--with the pilot population, 
the skill, the--I will say the easier operation of very 
sophisticated aircraft.
    So, Mr. Scovel, the investigation of the Colgan Air crash 
revealed that prior to the crash both pilots commuted long 
distances, which likely contributed to fatigue. The NTSB 
recommended that the FAA implement strategies to reduce risks 
from commuting.
    What steps do you think the FAA ought to take to address 
issues arising from having to travel that distance? Or should 
that be a factor at all?
    Mr. Scovel. Thank you, Senator. We think commuting has 
potential to be a significant factor as it relates to fatigue. 
And in the course of the NTSB investigation of the most 
unfortunate Colgan Air crash in 2009, NTSB entered a finding 
that the performance of both pilots was likely impaired due to 
their fatigue.
    The NTSB also noted that both pilots had commuted many, 
many miles in order to get to their home base of Newark. The 
co-pilot came from Washington state. The pilot came from 
Florida. The NTSB report also detailed what efforts, if you 
could call them that, both pilots had taken in order to acquire 
some rest before they actually entered the aircraft on the 
fatal flight.
    It's been a problem, and the NTSB, in its report, has 
identified--and I will quote nearly verbatim here as I did in 
my opening statement--that operators have responsibility to 
identify the risk, to take action to mitigate it, and to ensure 
that commuting pilots are fit to fly. NTSB also stated in that 
Colgan report that FAA should address fatigue risks associated 
with commuting, including identifying pilots who commute. As 
part of its investigation, NTSB also examined the Colgan 
payroll out of its Newark base and determined that 49 of 
Colgan's 136 Newark-based pilots--that's 36 percent--had 
typical commutes of 400-plus miles from states like California, 
Nevada, and Washington.
    In executing its responsibility under the Airline Safety 
Act, the National Academy of Sciences reported in July 2011 
that it was unable to find enough data to determine a 
relationship between commuting and fatigue or whether it should 
be regulated. Based on that and based on the NTSB 
recommendation that FAA should address commuting's relationship 
with fatigue, we recommended in September 2011 that FAA collect 
and analyze commuting data and determine what, if anything, is 
needed.
    We don't presume to prejudge the outcome. It may be, based 
on the data and proper scientific analysis, that the current 
situation is just fine. We would tend to suspect not, but 
that'll be up to the experts to judge.
    Senator Lautenberg. We can't discuss that in the abstract. 
There are lots of jobs, lots of careers that are connected to 
being on duty at the appropriate time. And the commutation that 
exists in so many instances has been kind of an accepted part 
of the job. So it takes a lot of thought before a rule change 
to say, ``Well, you shouldn't do that.''
    Mr. Scovel. We need the information, sir. We need the data, 
and right now we don't have it. We're virtually whistling in 
the dark in the absence of that information.
    Senator Lautenberg. Are we getting--is that data being 
developed at this point?
    Mr. Scovel. In response to our recommendation, FAA has told 
us that they will survey the existing data to determine if more 
data may be needed. In fact, we already have the National 
Academy of Sciences report that says they've looked for all the 
data. They haven't been able to find it. We believe it's the 
FAA's duty right now to go out and get that data.
    Senator Lautenberg. Ms. Gilligan, last year, a large Air 
France plane struck a much smaller Delta plane at JFK. Luckily, 
nobody was injured. But this situation could have had tragic 
consequences, and we've seen near misses on the ramp, on the 
airfields themselves. And to help prevent incidents like this, 
the GAO recommended that FAA increase oversight of ramp areas.
    When can we expect FAA to take action on this 
recommendation?
    Ms. Gilligan. Well, Senator, we're working with the 
industry as well. There are some events on the ramp that do 
rise to the level of an incident or an accident and, if so, 
those are reported and they are reviewed. But at this point, we 
don't have a focused program for looking at ramp types of 
incidents, because we believe that there are other areas of 
risk that we can address more forcefully.
    For example, on the flight duty and rest rule, while 
commuting is a concern that's been raised, we believe we've 
addressed it very aggressively in a couple of different ways. 
First of all, the rule we put out does require that the pilot 
report fit for duty and determine that, in fact, they are fit 
and that they've used the rest period to make themselves fit 
for duty. We require that they certify that they're fit. We 
expanded the amount of rest time that the carriers provide to 
the pilots, again, to give the pilot the opportunity to take 
advantage of that rest opportunity.
    And another element in last year's bill which we've not 
commented on was a requirement you put in place for fatigue 
risk management plans. Every airline that holds a U.S. 
certificate has a fatigue risk management plan that's been 
approved by the FAA which includes education on fatigue and 
things that contribute to fatigue, which includes commuting and 
other activities that pilots may be involved in.
    I think to your point, pilots are like all the rest of us, 
and they have lives that they lead beyond the jobs that they 
do. But it's very important--as Captain Kuwitzky pointed out, 
it's very important that pilots be educated to understand how 
they can contribute to fatigue and, more importantly, how they 
can manage their fatigue so that they do report to work fit for 
duty. So I think we've taken very aggressive steps to address 
not just commuting, but the pilot responsibility to spend their 
time resting when that's appropriate.
    Senator Lautenberg. Captain Kuwitzky, in the New York/New 
Jersey region, air cargo is a large part of the aviation 
system, and you say that in your comments. Roughly 15 percent 
of departures nationwide are all cargo. But you say--and I 
think it sounds right to me--that there ought to be one safety 
standard for whether or not you're flying with passengers or 
whether you're flying with cargo.
    We don't want any accidents to take place. And something 
like a cargo plane could very well be an important participant 
in some tragic occurrence if the pilot isn't rested and 
following the rules.
    So what are the potential safety impacts of having weaker 
standards for some types of pilots?
    Mr. Kuwitzky. Thank you, Senator Lautenberg. The passenger 
and cargo pilots share the same air space, same runways, 
taxiways, the same environment every day. If a cargo pilot is 
fatigued, he could be flying an ILS PRM approach just hundreds 
of feet away in the clouds on an instrument approach. Land and 
Hold Short operations are another area where fatigue could 
impair judgment. We also operate in reduced vertical separation 
now. So it wouldn't take much for an overshoot, and a tired 
pilot could have catastrophic results.
    So that's why we're so adamant about one level of safety. 
We operate in the same air space. There shouldn't be separate 
rules for separate operations.
    Senator Lautenberg. Before I call on my colleague, there 
are approximately 20 family members from the Colgan crash 
victims in the audience, and we welcome their participation. We 
are sorry for the problems that brought them here, but we thank 
them for their active participation in finding safer ways for 
aviation to operate, even as good as it is. And it's fantastic, 
overall, when you think about it.
    And I now call on Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. I 
also thank Senator Cantwell for holding this hearing. And I 
want to thank all the witnesses and, of course, the families 
out there who diligently come to so many of these hearings, and 
I hope that you see that all has not been lost in terms of the 
repercussions and the positive outcomes of your work and that 
we've seen some changes to these rules and there's still a lot 
more to be done. But I wanted to thank you for being constant 
reminders of what can go wrong and how serious and tragic it 
can be.
    Minnesota is a hub for Delta, and we also are the home of 
Sun Country Airlines. So we have a number of--we have a bigger 
carrier, but we also have a number of smaller carriers that go 
all over our state. We manufacture Cirrus aircraft up in 
Duluth, and we also have a manufacturing facility that I 
visited which has this incredible--makes parachutes for smaller 
aircraft that have successfully saved hundreds of people where 
the small plane actually starts to crash--I'm sure many of you 
know about this--and the parachute comes up. And I got to visit 
that about a year ago.
    My focus in past hearings on this topic has been on the FAA 
bill and then also on the pilot fatigue issue. So I guess I'd 
start with you, Ms. Gilligan. You have a major bill now with 
significant effort to implement the FAA on top of the 
rulemakings that are required as part of the Airline Safety Act 
of 2010.
    How do you see getting this done, and what do you see as 
the challenges in getting it done?
    Ms. Gilligan. Well, I think you've characterized it 
properly. It will be a challenge. In the recent reauthorization 
bill, we've identified 12 additional rulemakings and as many as 
eight to 10 other requirements in the bill that might well lead 
to rulemaking. So it is a tremendous amount of work for the FAA 
to take on.
    Obviously, we're in the midst at this point of trying to do 
all that planning. At the same time, there are a number of 
requirements that have relatively short timeframes with reports 
to Congress due within the next 90 days and 180 days. We've got 
our teams working together now to try to meet those short-term 
deadlines while we do the planning for some of the longer-term 
requirements.
    But I think, to your point, what's important for us right 
now as well is to make sure we've completed the work we started 
on the 2010 bill, at the same time trying to balance that with 
the demands of the recent reauthorization. So it will be a 
challenge with the resource limitations that we all know all of 
the agencies are facing. But we understand what the 
congressional intent is, and we will certainly work hard to 
meet those expectations. If we run into problems, we'll 
certainly share with staff where we're having problems and what 
we plan to do to address them.
    Senator Klobuchar. OK. Thank you.
    General Scovel, one of the facts that came out of the 
crash, the Colgan crash, was the lack of sleep for the pilots, 
which my colleagues have talked about. A report from your 
office last year found that FAA needed to collect more data on 
the issue of pilot commuting, including how many flight crew 
members in the aviation industry commute and the distances they 
commute.
    Is any of that commuting data available or being reported 
by the industry today? And has FAA taken steps to implement 
your recommendation on commuting?
    Mr. Scovel. Thank you, Senator. The Congress in the Airline 
Safety Act levied a requirement on the National Academy of 
Sciences to survey the field for available data regarding 
commuting's impact on fatigue. The National Academy of Sciences 
reported last July that there was an absolute dearth of such 
data and recommended that it be collected, as did NTSB in its 
Colgan report.
    We have repeated that recommendation to FAA in our report 
last fall that FAA collect the data and undertake a proper 
analysis, again, to determine what impact commuting may have on 
fatigue, whether the current system is fine, or whether other 
regulatory steps too, needed from the agency or by industry are 
to improve FAA's fatigue risk management systems.
    The agency reported back to us that it would, again, survey 
for available data and let us know by this October whether a 
further data collection effort would be required. We think it's 
up to FAA now in order to get that done.
    Senator Klobuchar. So, Ms. Gilligan, could you talk about 
why the FAA did not include the impact of commuting in the new 
pilot fatigue rules? Did FAA examine commuting practices as 
part of the development of the rules?
    Ms. Gilligan. Senator, I'll be glad to comment on that. 
First of all, as the report from the National Academies of 
Sciences concludes, there are a number of things--any number of 
activities that pilots may be involved in that can contribute 
to their fatigue, and that the focus on commuting or any other 
individual activity may not be sufficient to understand the 
risk.
    And that's why in our rule we took a different approach. We 
took the approach of extending the opportunity for rest so that 
pilots now have an opportunity to get the seven or 8 hours of 
sleep that the science tells us people need, and we've placed--
so that's the role for the airline. The airlines have to give 
more opportunity for rest, and they need to evaluate that, in 
fact, the crew is coming to work fit to perform.
    We also see responsibility, as the Academy's report 
identified--responsibility on the part of the pilots to use 
their rest periods to rest, to come to work prepared to perform 
the functions that they're responsible to perform. And our 
rules require that they certify, not just at the beginning of 
the day, but before each flight that they believe they are fit 
to perform that flight. And if they tell their employer they 
are not fit, then we expect the airline to take them off that 
rotation and not assign them to that duty period. So we believe 
that we've struck the right balance within the rule.
    In addition, because of the fatigue risk management plans, 
we also see that the airlines are providing training to the 
pilots on fatigue, what contributes to fatigue, how they can 
better manage their fatigue, so that they, again, can meet 
their responsibility to come to work prepared. And it's, again, 
not just commuting. Spending the day playing golf----
    Senator Klobuchar. No, I would agree. I just think it's 
something unique, as someone who commuted for 5 hours today to 
get here and got up at 4 in the morning--it just seems that 
people who have these jobs tend to be differentiated because of 
the fact that many of them have these long commutes, and that's 
something they have in common that, obviously, can make them 
tired. And that's why I'm more focused on--it certainly was at 
play in the Colgan crash. So I hope you'll continue to look at 
it.
    Thank you.
    Ms. Gilligan. We will.
    Senator Lautenberg. Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. I want to thank our 
witnesses for being here today as well and for their 
willingness to testify.
    Thankfully, the FAA does operate the safest and most 
efficient aerospace system in the world, with over 30,000 safe 
flights daily and nearly 800 million people transported per 
year, all of the while this industry continues to grow with an 
estimated 1 billion passengers estimated annually by the year 
2021. Even though the national air space system has achieved 
its safest period in history, we are reminded by the family 
members of those here today that there is still a lot of room 
for improvement.
    For example, since November 2001, regional carriers have 
been involved in the last six fatal accidents involving U.S. 
air carriers which resulted in 136 fatalities. Of these, four 
have been attributed to pilot error, including the most recent 
one involving Colgan Air, Inc., in 2009, which we know resulted 
in 50 fatalities in Buffalo, New York.
    In response to this accident, Congress passed the Airline 
Safety Extension Act in 2010, which directs the FAA to update 
pilot flight and duty regulation, improve pilot training and 
experience requirements, and require airlines to implement 
safety management systems. While the FAA has made some 
important safety improvements, they also have missed some key 
deadlines.
    For instance, they should be commended for promoting the 
use of voluntary safety reporting systems, SMS implementation, 
and updating pilot flight and duty regulations. However, the 
FAA has not met key timelines for raising pilot training 
standards, implementing crew member mentoring and leadership 
programs, and increasing minimum pilot qualifications.
    And so I appreciate having those of you who are here today 
to share your insights with us. To ask a couple of questions 
related to those subjects--one has to do with the FAA last 
month proposing--or announcing proposed rules to raise the 
qualifications for first officers from 250 hours to 1,500 
hours. Included in these rules are two exceptions that provide 
flight hour credit for military pilots and baccalaureate 
aviation degrees.
    And I would direct this to any of you on the panel. But can 
any of you comment on the rule, in general, and these 
exceptions, in particular?
    Mr. Kuwitzky. I'll take a shot at it, Senator Thune. Our 
position has always been that the ATP and 1,500 hours is the 
minimum, because it produces within the criteria to get the ATP 
a certain level of experience that's able to translate into the 
cockpit. You can't get experience in a classroom or reading 
about it. The only place you can get experience is in the 
cockpit of an airplane, experiencing all that goes on.
    Now, you can get 3,000, 4,000 hours of experience in a crop 
duster that has no translation to our operation. But if you 
have a minimum of 1,500 hours and you have exposure in the crew 
system, in the airline style operation, you're going to be a 
very good first officer. You're going to understand the system, 
and you'll be able to serve very well.
    Senator Thune. Anybody else?
    Mr. Hendricks. Yes, Senator Thune. I'd like to offer my 
views on this. I think we're trying to accomplish the same 
thing, which is to have the most highly qualified and trained 
pilots operating in the flight decks of our aircraft in the 
Part 121 environment.
    I would offer and like to echo the statement made by Mr. 
Voss previously that it's about the quality of the training, 
not necessarily about a hard number of hours. I'm a former 
military pilot. At 300 hours, I was flying fighters off of 
aircraft carriers. I felt very qualified. The training I had 
gotten was world-class.
    Many airlines in Europe have what are known as ab- initio 
training programs. They're very successful. They take 
relatively low-time pilots, expose them to very high- quality 
training, and the record shows over the course of a couple of 
decades they've produced quality pilots that perform well over 
the long term.
    So while I agree with my panel members that we want to make 
sure we have the most highly qualified pilots flying in the 
flight decks of our aircraft, we should look at the quality of 
that training, the breadth of that training, rather than just a 
random number of hours, if you will.
    Senator Thune. Let me ask you as a follow-up, if this rule 
becomes permanent, how much more difficult is it going to be 
for carriers, especially regional carriers, to find first 
officers that qualify?
    Mr. Hendricks. We think the potential for the regional 
industry--we think there's a potential it would be very 
difficult. If you look at the requirement for the baccalaureate 
degree that you referred to, some of those degrees in aviation 
cost upwards of $200,000-plus. And then once those funds are 
expended, a pilot is not qualified to operate in the 
environment because he's got to go out and get another 750 or 
800 hours of flight time. And what type of quality flying is he 
going to achieve that's going to make him a better and more 
qualified airline pilot?
    So we have concerns, even with the exceptions that have 
been made by the FAA for military pilots and those with 
aviation degrees.
    Senator Thune. Let me ask this, if I might, Ms. Gilligan. 
On the issue of the FAA issuing the proposed rule for first 
officer qualifications, they have not issued one for pilots. 
What's causing the delay there?
    Ms. Gilligan. Well, sir, that particular rule addresses the 
particular requirement in the Act that we raise the 
requirements for those who act as a first officer. Right now, 
all pilots in command are required to hold an Airline Transport 
Pilot certificate, and one of the requirements for that 
certificate is 1,500 hours.
    Now, there are other training enhancements that the Act 
requires. Those we are covering in other rulemakings, one in a 
rewrite of our training rules, generally, and that will affect 
both first officers as well as pilots in command. So I think 
you'll see that we will address all of the requirements in the 
Safety Act, but they are in different rulemakings, depending on 
what made the most sense.
    Senator Thune. What's the estimated timeline for issuance 
of--you talk about those proposed rules?
    Ms. Gilligan. The first officer qualification rule, which--
the proposal just went out. The statute actually has a 
requirement that the 1,500 hours would go into effect on a date 
certain, which is August of 2013. So we are looking to finalize 
our rule before that date so that the airlines can take 
advantage of whatever we build into the rule.
    The training rule doesn't have--the overall rewrite of our 
training rule doesn't have a final schedule yet. It's quite a 
complex rulemaking, and we got quite a number of comments. 
We're looking at how we can better balance the requirements of 
the rule and the costs that it will drive. And we expect that 
we'll have a published schedule for that shortly, and that will 
be available on the Department of Transportation website once 
the schedule is published.
    Senator Thune. Thank you, Mr. Chairman.
    Senator Lautenberg. I have one question, Ms. Gilligan. The 
FAA reauthorization signed into law earlier this year exempts 
certain NextGen projects from environmental review. Exemption 
has raised concerns in my state and my region that there'll be 
potentially increased noise as a result of NextGen 
implementation.
    Now, how will the FAA provide communities with an 
opportunity for public input during implementation? Will they?
    Ms. Gilligan. Senator, that is an area that I'm not 
personally involved in, although I can tell you that we are 
reading the language very carefully, because we understand 
that--while I think it was congressional intent that some of 
the Next Generation air transportation system improvements move 
forward as quickly as we can, we understand that it was not 
meant to do it without any concern for environmental effects.
    So I can assure you--I can promise that we will get back to 
you directly and let you know how that's being interpreted to 
help you respond to that question.
    [The information referred to follows:]

    The FAA Modernization and Reform Act of 2012 did not exempt any 
projects from environmental review. The Act does provide two legislated 
categorical exclusions for certain NextGen procedures. A categorical 
exclusion is still subject to environmental review; however, since a 
categorical exclusion is presumed to have no significant impact, the 
review is less detailed and the review process is less extensive than 
for projects with potential significant impacts. Since these 
categorical exclusions have been enacted in legislation, their 
implementation will not be postponed for further public process. 
However, there will be an opportunity for public feedback at the time 
both categorical exclusions are incorporated in a revision that is 
currently being drafted to the FAA's guidance implementing the National 
Environmental Policy Act. This guidance is subject to public review.

    Senator Lautenberg. I will hope that they could listen to 
the language that comes from the homeowners in the area.
    Thank you all very much for your excellent testimony. The 
record will be kept open, and you may get questions in writing, 
and please respond as promptly as you can.
    Thank you all very much.
    [Whereupon, at 3:51 p.m., the hearing was adjourned.]
                            A P P E N D I X

            Prepared Statement of Hon. Charles E. Schumer, 
                       U.S. Senator from New York
    I would like to thank Chairman Cantwell and Ranking Member Thune 
for holding this important hearing on commercial airline safety 
oversight. It is of great importance to me and the families of 
Continental flight 3407 that the Senate Commerce Committee is 
investigating the progress that has been made on implementing P.L. 111-
216--The Airline Safety and Federal Aviation Administration Extension 
Act of 2010--and the work that remains to be done.
    I know you are aware of the reason why this issue is so personally 
important to me. On February 12, 2009, the Nation was jolted awake to 
the issue of aviation safety when Continental Flight 3407 crashed near 
Buffalo, New York, claiming fifty-one lives. Since that tragic day, we 
have learned a great deal about what led to the crash. Working in the 
wake of the crash with the National Transportation Safety Board (NTSB), 
the Federal Aviation Administration (FAA), and the heroic family 
members who lost their loved ones on flight 3407, we were able to 
successfully pass H.R. 5900 in order to prevent an accident like this 
from ever happening again.
    Since H.R. 5900 (P.L. 111-216) was signed into law on August 1, 
2010, the FAA has made significant progress in implementing aspects of 
the law, including publishing pilot fight and duty rules. However, much 
work remains to be done to fully implement the law. Critical 
rulemakings still need to be completed including publishing of final 
rules on crewmember training and pilot certification and qualification 
requirements. FAA must also complete work on a pilot records database. 
If completed, each of these actions will improve the preparedness of 
those we entrust to fly our planes. In addition, action must be taken 
to address the problem of pilot commuting. FAA has studied the problem 
of commuting and has committed to report on this issue by October 1, 
2012. I look forward to FAA completing this review and urge them to 
implement any additional changes that are needed to combat pilot 
fatigue. Finally, the law requires completion of a rule on safety 
management systems by August 1, 2012. It is my hope that FAA finalizes 
a strong rule and works proactively with industry to make sure that all 
carriers are reporting sufficient information.
    As we move ahead with full implementation of P.L. 111-216, I look 
forward to working with FAA, the NTSB and the Inspector General (IG) to 
ensure that our aviation safety programs truly raise the bar for 
aviation safety. It is not enough to simply write regulations. We must 
continue to evaluate their performance and seek new opportunities to 
enhance our safety systems. In addition, our safety regime is only as 
good as its enforcement, which is why oversight hearings such as this 
and reports by the NTSB and the IG are so critical.
    In closing, I reiterate that much progress has been made since the 
passage of P.L. 111-216, but work still needs to be done to realize its 
full implementation and the fulfillment of our national promise to 
provide the best in aviation safety. Three years have passed since the 
last fatal commercial aviation accident--the crash of Continental 
Flight 3407--but we cannot lower our guard or slow the pace when it 
comes to aviation safety. It is imperative that we continue to push 
ahead with strong regulations and I am confident that by continuing to 
work together, we can ensure that the FAA will meet its obligations to 
the Nation's airline passengers.
    Thank you for holding this hearing to review the safety of our 
Nation's airline industry. I look forward to continuing to work with 
you to promote safety in our Nation's skies.
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                                  to 
                      Margaret ``Peggy'' Gilligan
    Question. What are the primary challenges for the FAA in 
implementing a new centralized electronic pilot records database (PRD)?
    Answer. The primary challenges involved in implementing a PRD 
include:

  <bullet> Initiating several new rulemaking projects;

  <bullet> Meeting the cost/benefit analysis;

  <bullet> Developing a common data standard that will facilitate the 
        transfer of records from more than two thousand Part 121, 125, 
        and 135 operators;

  <bullet> Cost of entering a decade worth of FAA and air carrier data 
        in the PRD; and

  <bullet> Accommodating data from the National Driver Register (NDR).
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                      Margaret ``Peggy'' Gilligan
Flight Duty and Time
    Question 1. Ms. Gilligan, does the FAA's vision of one level of 
safety mean one level of safety across all Part 121 operators or does 
it mean one level of safety between regional airlines and mainline 
carriers?
    Answer. The term ``one level of safety'' relates to scheduled 
passenger-carrying operations conducted under Part 121, which covers 
all scheduled operations conducted in aircraft with 10 or more seats. 
All scheduled carriers referred to as regional airlines or mainline 
airlines are covered by Part 121 and meet the same regulatory 
requirements.

    Question 2. The FAA takes pride in the fact that the flight and 
duty time rules are science based. What is the scientific basis for 
all-cargo operations not being included under the new rule?
    Answer. The decision to not include all-cargo operations under Part 
117 was driven by economics rather than science. Even if the FAA is 
directed by Congress to issue a rule, we must still do so in a manner 
in which the benefits resulting from the rule justify the costs.
    In evaluating this rule under this requirement, it became clear 
that applying this rule to cargo operators was not clearly justified 
compared to the benefits generated in this segment of the industry. 
However, these carriers have the ability to operate under the new rules 
if they so choose.

    Question 3. According to OMB's cost-benefit analysis of the flight 
and duty time rules, the projected cost for including all-cargo 
operations is $306 million and the projected benefit of avoiding one 
fatal all-cargo accident ranges roughly between $20 million and $32 
million depending on the number of crewmembers on board the aircraft. 
Do you agree with scenarios and assumptions OMB used for its cost-
benefit analysis of the flight and duty time rules for all-cargo 
airlines? If the economic benefits of the analysis are weighted heavily 
towards preventing the loss of life, and all-cargo airlines only carry 
a handful of crew, doesn't that a priori set the bar impossibly high 
for any FAA safety rules for all-cargo airlines to clear OMB?
    Answer. In developing a rule, we are required to do so in a manner 
in which the benefits resulting from the rule justify the costs. It is 
impossible to predict the outcome of any future cost-benefit analysis 
without knowing the specific content of the proposed regulation and the 
benefits associated with it.
    In evaluating this rule under this requirement, it became clear 
that applying this rule to cargo operators was not clearly justified 
compared to the benefits generated for this segment of the industry. In 
light of this, based on the requirements in the Act that all air 
carriers, including cargo operators, must have an approved fatigue risk 
management plan and provide fatigue education training, we determined 
an appropriate alternative would be to allow cargo operators to 
voluntarily adopt provisions of the rule.

    Question 4. Secretary LaHood called for all-cargo airlines to meet 
voluntarily the standards called out in the flight and duty time rule. 
Do you believe this will be an effective approach? Which all-cargo 
airlines have made such a commitment to date?
    Answer. The Secretary has already engaged in several meetings with 
all-cargo airlines to discuss these matters. Some cargo airlines 
already have implemented improvements, such as providing improved rest 
accommodations for pilots to use while cargo is loaded and unloaded 
during night time operations.
    In addition, in accordance with the Act, all-cargo carriers have an 
approved FRMP, which is an air carrier's method for managing and 
mitigating day-to-day flightcrew member fatigue throughout its 
operation within the current regulatory structure for flight, duty, and 
rest limitations. However, no air carriers have begun implementing the 
new flighty, duty and rest rules.

    Question 5. Many of our Nation's busiest airports for cargo are 
also our busiest airports for passengers. For example, SeaTac is the 
17th largest airport in terms of passenger enplanements. It is also the 
18th largest for cargo. Nearby Boeing Field is the Nation's 25th 
largest airport for cargo. It is a metroplex where both passenger and 
cargo aircraft share the same airspace and are in close proximity on 
the ground. Twenty two of the 30 busiest passenger airports are also in 
the top 30 busiest airports for cargo. It is at these busiest of 
airports where I have the greatest concern about the disparity in the 
rules for all-cargo and passenger airlines. When it became clear that 
the FAA's proposed rules on flight and duty times for all-cargo 
airlines would not stand as a result of OMB's cost-benefit analysis, 
did the agency consider requiring all-cargo airlines operating at these 
most busiest airports to use the same flight and duty time rules as 
passenger airlines do?
    Answer. No. From a surveillance and oversight perspective this 
would not be operationally and functionally feasible. In addition, 
during any twenty-four hour period, most passenger and all-cargo 
operations operate opposite of one another. Passenger operations 
generally occur between the hours of 5:30 A.M. and 11:00 P.M. while 
all-cargo operations generally occur between the hours of 9:30 P.M. and 
8:30 A.M.
Pilot Commuting
    Question 6. Ms. Gilligan, the National Transportation Safety Board 
(NTSB) in its analysis following the February 2009 crash of Colgan Air 
Flight 3407 in Buffalo, NY, found that out of 136 Newark-based Colgan 
pilots, 20 had commutes between 400 to 1,000 miles, and 29 had commutes 
over 1,000 miles from their home to their domicile of Newark, New 
Jersey. Why do some pilots commute long distances to their duty 
stations--is it out of economic considerations, lifestyle 
considerations, other reasons?
    Answer. As stated in the National Academy of Science report, 
quality of life and economic issues are the reasons pilots commute. 
Pilots typically live in a particular geographic area to preserve the 
quality of life for their families or they live in a location where 
they were previously domiciled but have bid to be assigned to another 
domicile within the carrier's system.

    Question 7. Can airlines benefit if their flight crews commute to 
their duty stations? How widespread are long distance work commutes for 
the crews for mainline carriers and for the crews of regional carriers?
    Answer. As stated in the NAS report, having pilots able to commute 
longer distances to their domiciles rather than requiring them to live 
nearby may allow the industry to change flight patterns more quickly to 
respond to changing market demands. Since, for most airlines, pilots 
are not required to live near their domiciles, the airlines typically 
do not pay for pilot relocation or for cost-of-living adjustments when 
pilots move from one domicile to another. The latest data suggests that 
60 percent of the mainline and regional pilots commute to their 
domicile.

    Question 8. The 2010 law Congress passed required the National 
Academy of Science to conduct a study on the effects of commuting on 
pilot fatigue and air carriers commuting policies. The report had three 
conclusions and made six recommendations. Do you agree with the 
report's conclusions? Does the FAA intend to take action on any of the 
recommendations?
    Answer. The FAA included one of the NAS recommendations in draft AC 
117-3, Fitness for Duty, in which NAS recommended, ``Pilots should 
avoid planning commutes or other pre-duty activities that result in 
being awake beyond approximately 16 hours before the scheduled end of 
duty, endeavor to sleep at least 6 hours prior to reporting for duty, 
and obtain more than 6 hours of sleep per day whenever possible to 
prevent cumulative fatigue from chronic sleep restriction. Pilots 
should also consider the amount of sleep and time awake in their 
decision-making relative to when to inform their supervisors that they 
should not fly due to fatigue.'' All other recommendations require 
additional studies and we are currently evaluating how to address these 
recommendations.

    Question 9. In your written testimony you state: ``In establishing 
these requirements, we took into account that off-duty activities do 
have an impact on fatigue for pilots, regardless of the type of 
activity, such as playing golf or commuting to work. We expect pilots 
to manage their off-duty rest to ensure they report ready for work.'' 
Do you believe that pilot commuting should be incorporated into 
airlines' Fatigue Risk Management System?
    Answer. There are distinct differences between a Fatigue Risk 
Management System (FRMS) and a Fatigue Risk Management Plan (FRMP). The 
FRMS applies to operations outside the regulatory structure and a FRMP 
operates within the regulatory structure. The FRMP is a statutory 
requirement and requires all air carriers, including cargo carriers, to 
develop a fatigue education and awareness training program. One of the 
elements of this training program is the effect of fatigue as a result 
of commuting.

    Question 10. The USDOT Inspector General's September 2011 report 
recommended that the FAA ensure the collection and analysis of data 
regarding domicile and commuting lengths for all Part 121 flight crews 
and determine if additional changes are needed or if the airlines need 
to take further mitigating actions in their fatigue management systems. 
Has the FAA agreed to act on these DOT IG recommendations? Do you 
foresee any specific challenges in trying to identify the domicile of 
flight crews?
    Answer. The FAA concurred in part with the DOT IG recommendation to 
collect additional data, by committing to a review of existing 
literature and data on the subject to determine if additional data 
collection would be warranted. The work by the National Academy of 
Sciences (NAS) represents the most recent effort to determine whether 
there is a linkage between commuting and safety. The NAS panel 
identified neither a correlation between pilot commuting and safety nor 
a unique risk to aviation safety.
    Since commuting may still be the result of a change to an air 
carrier's business model, such as closing a domicile or furloughing 
pilots, or due to a crewmember's personal choice, any data collection 
represents only a snap shot of the industry.
    Collecting data on pilot domicile and commuting practices would be 
a daunting task and any consideration of additional data gathering in 
this regard must be based upon consideration of whatever data is 
already available and the potential safety benefit of collecting 
additional data.
Status of Pilot Training and Experience Rules
    Question 11. Ms. Gilligan, some of the witnesses here today have 
expressed concerns about the FAA's progress on requirements to update 
pilot training and experience rules. Where are the proposed rules in 
the process? What is the FAA doing to make sure these efforts are on 
track?
    Answer. The FAA has two rulemaking projects that currently address 
pilot training and experience. The Qualification, Service, and Use of 
Crewmembers and Aircraft Dispatchers Supplemental Notice of Proposed 
Rulemaking (SNPRM) is a comprehensive training rule that includes 
revised airline pilot training requirements. The SNPRM public comment 
period closed in September 2011 and the FAA is currently developing the 
final rule. The Pilot Certification and Qualification Requirements for 
Air Carrier Operations Notice of Proposed Rulemaking, which provides 
training requirements for achieving an airline transport pilot 
certificate and includes the requirement that all airline pilots have 
an airline transport pilot certificate, is currently open for public 
comment. The comment period closes on April 30, 2012 and the FAA will 
then work on developing the final rule. The FAA anticipates publishing 
both final rules in 2013.
Centralized Database of Pilot Records
    Question 12. Ms. Gilligan, the `Airline Safety and Federal Aviation 
Administration Extension Act of 2010' required the FAA to develop a 
centralized database of pilot records, which would include a pilot's 
training and experience history, in order for airlines to better screen 
applicants for pilot positions. What are the primary challenges for the 
FAA in implementing a new centralized electronic pilot records 
database? What is the current timeline for completing the database?
    Answer. As previously mentioned, the primary challenges involved in 
implementing a PRD include:

  <ctr-circle> Several new rulemaking projects;

  <ctr-circle> Meeting the cost/benefit analysis;

  <ctr-circle> Developing a common data standard that will facilitate 
        the transfer of records from more than two thousand air 
        carriers and operators;

  <ctr-circle> Cost of entering a decade worth of FAA and air carrier 
        data in the PRD; and

  <ctr-circle> Accommodating data from the National Driver Register 
        (NDR).

    We have several major milestones in place and anticipate the 
Database Proof-of-Concept by 4th Quarter FY 12. The time period to 
comply with historical data is set for November 2016.
Effectiveness of Call to Action on Safety
    Question 13. Ms. Gilligan, former FAA Administration Babbit's Call 
to Action on Safety shortly after his Senate confirmation was 
universally well received. It included a number of FAA actions but also 
included significant voluntary efforts by industry. Looking back, would 
you say that there remains a high rate of industry participation in 
these voluntary safety efforts by both mainline and regional airlines 
or has interest and participation waned over time as the lessons 
learned from the Colgan Air crash becomes more historical in nature?
    Answer. Participation in FAA's voluntary reporting programs is at 
an all time high. In January of 2011, 69 percent of part 121 operators 
participated. Today, over 80 percent participate in at least one 
voluntary program. If we break it down further into mainline and 
regional carriers, virtually 100 percent participate in at least one 
voluntary program and most participate in several voluntary programs.
Airline Transport Pilot Certification
    Question 14. Ms. Gilligan, the Airline Safety and Federal Aviation 
Administration Extension Act of 2010 allows the Administrator to credit 
specific academic training courses beyond those required towards 
meeting the flight hours requirements. The Administrator would have to 
determine that allowing a pilot to take specific academic training 
courses will enhance safety more than requiring the pilot to fully 
comply with the flight hours requirement. Would the training courses 
considered for credit towards flight hour requirements have to be taken 
at FAA-approved schools exclusively or could the courses also be taken 
at non-approved schools?
    Answer. The FAA has not looked at any individual academic course to 
allow credit towards meeting the 1,500 hours of pilot time; rather it 
has proposed two alternative hour requirements for obtaining an ATP 
certificate with restricted privileges based on overall academic course 
work. The first alternative permits military pilots to apply for the 
restricted ATP at 750 hours total time. The second alternative permits 
pilots who graduated from a 4-year baccalaureate aviation degree 
program who also obtained their commercial pilot license and multi-
engine and instrument ratings at an affiliated flight school to apply 
for a restricted ATP at 1,000 hours total time.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                      Margaret ``Peggy'' Gilligan
    Question 1. I understand that the FAA has been hard at work to 
implement provisions of legislation that I was proud to champion with 
Senator Snowe, the Ensuring One Level of Aviation Safety Act, which was 
passed as part of the larger Airline Safety and Federal Aviation 
Administration Extension Act of 2010. I appreciate the agency's effort 
but remain concerned that the rule regarding crewmember training has 
faced so many delays. The final rule was initially scheduled to be 
completed on October 1, 2011. When does FAA expect to have this 
rulemaking completed?
    Answer. The FAA is currently in the process of addressing all the 
comments to the Supplemental Notice of Proposed Rulemaking that was 
published on May 20, 2011 and is developing a Final Rule.

    Question 2. The Airline Safety and Federal Aviation Administration 
Extension Act of 2010 also called for the establishment of a Pilot 
Record Database. Creating this database, as the Department of 
Transportation Inspector General has observed, will require a number of 
years of rulemaking and engagement with stakeholders to complete. What 
milestones has FAA set for itself in the development of the Pilot 
Records Database, and what is the time-frame for these goals?
    Answer.

Major Milestones*:
Begin work on the Database              August 2010
    --Requirements Team
    --Contract with LM
Convene PRD ARC                         January 2011
ARC Report                              July 2011
Evaluating recommendations              On-Going
Study: Economic and hosting             July 2012
 alternatives
Database Proof-of-Concept (PoC)         4th Quarter FY 2012


    This adjusted timeline reflects the addition of time for an 
``economic and hosting alternatives study''. It is not the same 
schedule that was provided in the PRD ``Statement to Congress'' in Feb 
2012. Once the Proof-of-Concept is complete, we will evaluate the 
feedback and determine a rulemaking timeline.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                      Margaret ``Peggy'' Gilligan
    Question 1. I am concerned that the fatigue rule allows for 
voluntary implementation by all-cargo carriers. As Capt. Kuwitzky 
testified today, all-cargo carriers comprise 15 percent of departures. 
Those flights interact with passenger flights on the ground and in the 
sky. What steps is the FAA taking to ensure that all-cargo carriers 
have adequate policies in place to ensure their pilots are not-fatigued 
while flying?
    Answer. The FAA developed requirements for an FRMP, which is an air 
carrier's method for managing and mitigating day-to-day flightcrew 
member fatigue throughout its operation within the current regulatory 
structure for flight, duty, and rest limitations. All part 121 air 
carriers, including all-cargo carriers, have an approved FRMP.

    Question 2. In the testimony today we have heard different 
suggestions for ensuring that crew members and first officers, 
specifically, are adequately trained. Some groups are concerned that a 
requirement for a minimum number of hours may not be sufficient to 
ensure that pilots have the necessary skills. One suggestion is to 
ensure that pilots also receive specific training in skills like upset 
prevention and recovery prior to or in addition to receiving their 
airline transport pilot (ATP) certificate. How does the FAA propose to 
address the need for additional training, initial and periodic 
updating, in upset prevention/loss of control recovery?
    Answer. The FAA reconvened the Stick Pusher and Adverse Weather 
(SPAW) ARC in January 2012. The FAA is tasking the ARC with specific 
deliverables on upset prevention and recovery training in simulators.
    The SPAW ARC will meet from March to August 2012. We will consider 
the ARC's recommendations and develop the guidance material for the 
delivery of upset prevention and recovery training in simulators for 
air carriers and the simulator training proposed for pilots seeking an 
ATP certificate.
    The FAA will continue its collaborative efforts in stall and upset 
prevention and recovery training with EASA, ICAO, and through prominent 
work groups such as the Royal Aeronautical Society's International 
Committee for Aviation Training in Extended Envelopes (ICATEE). These 
harmonized efforts will ensure U.S. pilots will continue to receive the 
highest quality and relevant training available.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                      Margaret ``Peggy'' Gilligan
    Question 1. The FAA established an Aviation Rulemaking Committee in 
2010 which made recommendations for the establishment of a mentoring 
program to help more senior pilots work with less experienced 
crewmembers. This group made recommendations to the FAA in November 
2010, yet the FAA has missed the statutory deadline to address the 
mentoring mandate contained in the Airline Safety and Federal Aviation 
Administration Extension Act. Why has the FAA not met its statutory 
deadline?
    Answer. The rule has been out of the FAA in review in the Executive 
Branch since March 2011.

    Question 2. When does the FAA anticipate it will address issue a 
final rule on mentoring?
    Answer. Once the NPRM is published, the FAA is required by statute 
to issue a final rule 16 months after the close of the comment period.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                      Margaret ``Peggy'' Gilligan
    Question. There are currently six Aviation Safety items on NTSB's 
Most Wanted List, including Pilot and Air Traffic Controller 
professionalism.
    Recent accidents and incidents have highlighted the hazards to 
aviation safety associated with departures by pilots and air traffic 
controllers from standard operating procedures and established best 
practices.
    In fact, an air traffic controller at Gulfport-Biloxi airport who 
nearly caused a mid-air collision last year recently repeated the same 
error. Despite the near miss last year, the FAA, after a brief 
suspension, declared this air traffic controller fit to resume his 
duties.
    While I applaud the thousands of air traffic controllers that 
provide safe and professional service to our Nation on a daily basis, I 
am concerned that the FAA saw fit to return an air traffic controller 
to his duties after a history of multiple incidents that required past 
disciplinary action by the FAA.
    Can you clarify the standards and procedures that the FAA uses in 
its internal review process in such incidents?
    Answer. The FAA has internal policies and procedures for reviewing 
air traffic incidents and determining the appropriate course of action 
for a particular air traffic controller.
    Specifically, the FAA closely monitors and evaluates risks and 
hazards represented by incidents in the air traffic (ATC) system. 
Incidents are required to be reported via various internal safety 
management orders. These reporting programs allow for direct action to 
be taken by management when it is deemed necessary to address the risks 
or hazards in the National Airspace System (NAS). They also allow for 
data to be collected to continue to analyze the system for risks which 
helps monitor, assess, and identify systemic risks in the NAS.
    FAA managers are guided by the Human Resources Policy Manual (HRPM) 
PM-9.1, Performance Management System (PMS), FAA Table of Penalties, 
FAA Order 3400.20, Individual Performance Management (IPM) for 
Operational Personnel and specific articles in the NATCA CBA to manage 
performance reviews and the conduct of all air traffic control 
specialists. When the operational actions of a particular air traffic 
controller are called into question, management will make a 
determination as to whether the employee's actions are a performance 
issue warranting additional or remedial training, whether it is a 
conduct issue requiring discipline, or whether his/her actions are the 
result of systemic issues in the NAS that need correcting, or some 
combination thereof.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                       Hon. Calvin L. Scovel III
Flight and Duty Time
    Question 1. What is your interpretation of the FAA's one level of 
safety? Does it mean one level of safety across all Part 121 operators 
or just regional and mainline carriers?
    Answer. ``One level of safety'' is a term developed and used by 
FAA. Generally speaking, FAA has indicated that this term refers to an 
ongoing commitment of regulatory oversight, technical expertise, and 
continued efforts from labor and management to share safety best 
practices among all operators. However, FAA has not articulated exactly 
what it means or how to implement it. For example, as part of its 
commitment to safety, FAA proposed one set of regulatory requirements 
for all Part 121 operators, but ultimately published new fatigue rules 
that only apply to Part 121 passenger flights. Cargo carriers remain 
exempt from the changes, and this raises questions about how far ``one 
level of safety'' extends. FAA has also indicated that Part 135 air 
carriers should expect a proposed rulemaking to address pilot fatigue 
in their operations that will likely include provisions similar to the 
Part 121 changes. In our opinion, FAA is making progress to address 
pilot fatigue, but more work remains to define and achieve one level of 
safety across the industry.

    Question 2. Is there scientific basis for all-cargo operations to 
be excluded from the new rules? Do you consider their exemption from 
the new regulations as leading to an unacceptable level of risk?
    Answer. FAA's decision to exclude cargo operations from the new 
rules was based on cost. However, the Agency acknowledged that fatigue 
factors are ``universal'' based on sleep science and initially proposed 
to include cargo carriers under the new regulations. During rulemaking, 
industry experts made conflicting arguments regarding whether the new 
rules should apply to cargo carriers. For example, one carrier 
representative noted that some all-cargo operators have invested 
millions in high-quality rest facilities and stated that they typically 
fly fewer total hours than passenger flights, thus mitigating potential 
fatigue. Conversely, a number of labor groups supported the inclusion 
of cargo carriers under the new rules, and NTSB stated that ``human 
fatigue factors are the same across operations and science cannot 
support the notion of allowing longer duty hours for certain 
subgroups.'' We have not examined the level of risk associated with 
FAA's decision but believe that safety--not cost--should be FAA's 
overarching concern.
Pilot Commuting
    Question 3. Do you agree with conclusions reached by National 
Academy of Science in its report on the effect of commuting on pilot 
fatigue? Do you consider their six recommendations useful?
    Answer. The conclusions from the National Academy of Sciences study 
on commuting and pilot fatigue are consistent with findings from our 
report issued last year that examined similar issues. Our work in this 
area was limited to six carrier visits, but none of them had commuting 
policies. In addition, FAA's new flight crew regulations do not require 
carriers to identify pilots who commute or have policies to address 
issues that may impact commuting and fatigue. We believe the Academy's 
recommendations for FAA to collect more information are useful and will 
help FAA better understand pilots' commuting patterns, identify factors 
or trends that may induce fatigue, and target areas that may need 
specific attention or additional research. The Agency will be unable to 
determine the potential impact commuting may have on fatigue until this 
information is collected and assessed.

    Question 4. FAA stated that it would review available data on pilot 
commuting and determine by October 1, 2012 if additional data could 
offer added safety benefits. Does the FAA's proposed action address the 
intent of your recommendations?
    Answer. In light of our work and the National Academy of Sciences' 
conclusions that there is inadequate data on pilot commuting, FAA's 
proposed actions to ``scan'' for available information on commuting 
pilots does not directly address our recommendations. We believe that 
FAA should collect and analyze this information so it can position 
itself to make certain that commuting and fatigue do not have 
detrimental consequences or impact safety. However, until FAA conducts 
its review of available commuting data, it will be premature to presume 
or prejudge the outcome of this work.
Pilot Training
    Question 5. Mr. Scovel, one of the subheadings in your written 
testimony is called ``Industry Concerns Have Delayed FAA's Rulemaking 
Efforts To Enhance Pilot Training Standards''. You also mention that 
with the upcoming advancements in pilot training, it is important for 
the FAA to consider how to strengthen its oversight practices of 
pilots. Will this require a rulemaking or can the FAA do this with its 
existing authority? Will it require additional staff resources or can 
it be done through the re-allocation of existing staff resources?
    Answer. FAA can use its existing statutory authority to strengthen 
its oversight of air carrier pilot training programs. In our December 
2011 report on pilot training, we found that FAA was not well 
positioned to assess these programs--in part because it has not 
prepared inspectors to effectively oversee pilots who have performed 
poorly or failed training.
    We made recommendations to improve oversight of pilot performance 
that could be accomplished by ensuring inspectors follow existing 
guidance, and in other cases expanding on guidance to better target 
surveillance to high-risk areas. For example, FAA guidance requires 
inspectors to compare pilot proficiency checks that they have performed 
against those conducted by the carriers' check airmen. However, we 
questioned the viability of this requirement since nearly all pilot 
proficiency checks are conducted by check airmen, not FAA inspectors. 
As a result, FAA inspectors may not have sufficient data to make a 
meaningful comparison.
    We recognize that there are limitations in FAA's inspector 
workforce and that the Agency cannot monitor every pilot. However, FAA 
could obtain valuable data, analyze trends, and provide more effective 
oversight by requiring inspectors to perform a representative sample of 
pilot examinations. In response to our recommendation, FAA is currently 
considering whether to establish a method of documenting comparison 
reviews made between FAA inspectors and check airmen.
Electronic Pilot Records Database
    Question 6. Mr. Scovel, what are the primary challenges for the FAA 
in implementing a new centralized electronic pilot records database?
    Answer. The primary challenges for FAA in implementing a new 
centralized electronic pilot records database include defining the data 
to be captured, developing a transition plan, and incorporating 
National Driver Register (NDR) records.
    First, FAA must determine the level of detail that should be 
captured from current and historical air carrier pilot training 
records. For example, the Act stipulates that comments and evaluations 
made by a pilot's check airman be included in the database. However, 
industry is highly protective of these data and opposes including them 
in the database.
    Second, the Agency will have to develop a strategy to transition to 
the new database while also ensuring air carriers receive available 
data in the interim. FAA projects the final rule and database 
implementation will not take place until 2014 at the earliest. 
Furthermore, the initial data available will be limited to FAA data 
until air carriers are able to populate the database with their 
records.
    Finally, incorporating records from the NDR will be complicated due 
to the design of the NDR system. When a request is processed through 
the NDR, the system identifies possible matches and determines which 
State retains the records. The requester must contact each State with a 
possible match to obtain the records and then attempt to verify they 
are for the pilot in question. This cumbersome process will impact how 
FAA incorporates these records into the new database. In addition, FAA 
has not yet determined the implications of including State records in a 
national database without regard to each State's record retention 
policy.
Effectiveness of Voluntary Industry Measures
    Question 7. Mr. Scovel, former FAA Administrator Babbitt's Call to 
Action on Safety shortly after his Senate confirmation was universally 
well received. It included a number of FAA actions but also included a 
lot of industry voluntary efforts. Looking back, would you say that 
there remains a high rate of industry participation in these voluntary 
safety efforts by both mainline and regional airlines, or has interest 
and participation waned over time as the lessons learned from the 
Colgan Air crash become more historical in nature? Overall, do you 
believe that voluntary measures for aviation safety put in place since 
the Colgan Air crash have generally been effective?
    Answer. Thus far, FAA's efforts to facilitate air carrier's 
adoption of voluntary safety programs have been effective in increasing 
overall participation. After the Colgan Air accident, FAA focused on 
advancing the use of voluntary safety programs as a part of its 2009 
Call to Action on Airline Safety and Pilot Training. These efforts were 
bolstered by provisions in the Airline Safety and FAA Extension Act of 
2010 that focused on safety programs for reporting incidents, recording 
flight data, advanced qualification training, and comprehensive risk 
management. As a result, air carrier participation in these important 
programs has increased since the time of the accident.
    Our ongoing analysis of current FAA data (as of January 2012) shows 
a continued rise in voluntary safety program use--70 percent of Part 
121 air carriers have at least one program, up from 59 percent 2 years 
ago. Further, 47 percent of Part 121 air carriers now have multiple 
programs, compared to 36 percent 2 years ago. However, despite overall 
gains, program implementation has mostly occurred at larger air 
carriers, and work remains to ensure smaller carriers are provided the 
assistance needed to implement new safety programs.
    We have not examined the effectiveness of voluntary safety programs 
since the Colgan accident; however, both FAA and the airline industry 
have continued to emphasize their importance.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                       Hon. Calvin L. Scovel, III
    Question. Inspector General Scovel, please expand on the discussion 
related to FAA's ability to develop and implement enhanced pilot 
screening and qualifications at Part 121 air carriers. Specifically, is 
FAA on track to issue a final rule that would allow industry and other 
aviation stakeholders sufficient time to meet the new requirements 
before the statutory deadline of August 1, 2013? If not, what 
challenges has the Agency encountered and what obstacles remain for 
issuing the final rule?
    Answer. FAA is behind schedule in issuing a final rule to enhance 
pilot screening and qualifications by August 2012. As required by the 
Airline Safety and Federal Aviation Administration Extension Act of 
2010, FAA recently issued a proposed rule that would require first 
officers to hold an Airline Transport Pilot (ATP) certificate, 
requiring 1,500 hours of pilot flight time. This rule would provide an 
allowance for pilots with fewer than 1,500 hours of flight time, but 
who have an aviation degree or military pilot experience, to obtain a 
restricted ATP certificate. Finally, the proposal would require first 
officers to have an aircraft type rating, which involves additional 
training and testing specific to the aircraft they fly.
    While issuing a proposed rule is a significant first step, air 
carriers may have insufficient time to make necessary adjustments to 
their training and qualification programs prior to the mandatory 
deadline of August 2013. For example, at two regional air carriers we 
visited as part of our ongoing review, more than 75 percent of current 
first officers did not have an ATP. Further, neither of the carriers 
had developed a plan to ensure these pilots would be able to meet the 
enhanced requirements by the deadline, nor had FAA inspectors followed 
up with these carriers to assess their ability to comply with enhanced 
requirements.
    FAA continues to encounter resistance from air carrier 
representatives who oppose the Act's requirement to increase the 
minimum hours. They argue that a pilot's quality and type of flying 
experience should be weighted more heavily than the number of flight 
hours. Nevertheless, it is important that FAA take steps to determine 
the potential impact the new ATP requirement would have on current 
pilots, and issue a rule with enough lead time for air carriers to 
prepare first officers to meet the new qualifications.
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                                  to 
                              William Voss
    Question. The FAA is currently in the process of working with cargo 
carriers to have them voluntarily meet the new flight and duty 
regulations that are mandatory for the commercial carriers. Is it 
realistic to expect that all cargo carriers will meet this goal?
    Answer. I believe a large number of cargo carriers will voluntarily 
adopt the most important safety features of the new rule. The most 
important, and overlooked feature, of the new rule is the provision for 
compliance through the use of a Fatigue Risk Management System (FRMS). 
Given the obvious challenges posed by the overnight schedules 
associated with cargo operations, many cargo carriers have already 
started implementing FRMS. These carriers will likely come up with 
scheduling solutions that will vary somewhat from the proposed flight 
and duty time limitations, but will be tailored to their unique 
operations and will ensure a high level of safety.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                              William Voss
    Question 1. Mr. Voss, can you detail why you consider flight crew 
member pairing a powerful tool to mitigate risk?
    Answer. In many parts of the world, experienced crews have been in 
very short supply for a very long time. Many airlines in these regions 
have managed this risk by paying close attention to crew pairing. They 
consider factors such as total experience, familiarity with the route, 
experience in the type of aircraft, and experience in the weather 
specific conditions and so on. The airlines examine each flight to 
ensure that the combined experience of the crewmembers addresses the 
risks that the specific flight is likely to encounter. This relatively 
simple and common-sense approach greatly mitigates the risks that can 
be created by junior crewmembers who must at some point acquire 
operational experience. Crew pairing is done to a limited extent by 
U.S. airlines but more could be gained by looking at this risk-
mitigation approach more closely.

    Question 2. Mr. Voss, do you believe that exempting all-cargo 
airlines from the flight and duty time rules represents an acceptable 
level of risk? Do you believe significant numbers of all-cargo airlines 
will voluntarily adopt the new flight and duty time requirements?
    Answer. I believe a significant number of cargo airlines will 
achieve the safety objectives of the new rule by implementing Fatigue 
Risk Management Systems that allow them to monitor fatigue risk in 
their operation, and tailor crew schedules to mitigate these specific 
risks. The provision for FRMS is a key component of this new rule, and 
makes a great deal of sense for night-time cargo operators. FRMS have 
been implemented in many major airlines around the world, and have been 
shown to assure a high level of safety while allowing significant 
operational flexibilities.

    Question 3. Mr. Voss, what are mainline and regional airlines doing 
to improve pilot training for safely performing flight operations 
independent of any new FAA rules?
    Answer. Of course the FAA has a number of voluntary programs that 
significantly improve operational safety. Following the Colgan accident 
there was a significant increase in the number of Regional Airlines 
conducting Flight Operations Quality Assurance (FOQA). It has long been 
a position of the Flight Safety Foundation that this program provides 
essential predictive safety information about the operation of the 
airlines. FOQA has been an international requirement for more than a 
decade. The U.S. is one of the few nations that does not mandate this 
program by regulation.
    Another important voluntary program that is much more cutting-edge 
is the Advanced Qualification Program. This program allows airlines to 
analyze operation data to identify crew deficiencies and then develop 
training programs that target the actual risk that face the airline 
rather than simply comply with statutory requirements that were 
published decades before.
    This data-driven approach to training is a fundamental change. 
Traditional regulatory approaches generate lists of training objectives 
that rapidly become obsolete and burdensome. These ``laundry lists'' 
are inevitably a response to the last accident. The training driven by 
the AQP system is always targeting the next accident.

    Question 4. Mr. Voss, former FAA Administration Babbit's Call to 
Action on Safety shortly after his Senate confirmation was universally 
well received. It included a number of FAA actions but also included a 
lot of industry voluntary efforts. Looking back, would you say that 
there remains a high rate of industry participation in these voluntary 
safety efforts by both mainline and regional airlines or has interest 
and participation waned over time as the lessons learned from the 
Colgan Air crash becomes more historical in nature?
    Answer. The FAA has always had a large number of voluntary 
programs. All of these programs are very good and make a significant 
contribution to safety. Participation in these programs among Regional 
airlines clearly increased in the aftermath of the Colgan accident. I 
believe many of these airlines will continue to participate in these 
voluntary programs, because once these programs are established they 
prove their value by providing real operational benefit and insight to 
the airline.
    It is interesting to note that many of these voluntary programs are 
mandatory nearly everywhere in the world except the U.S. In this 
regard, the FAA is actually non-compliant with international standards. 
There are several reasons for this. First of all, industry and labor 
forces have much more influence over the regulatory process in the U.S. 
compared to the rest of the world. Secondly, the FAA is constrained by 
the administrative procedures act which requires them to cost-benefit 
each regulation against a history of fatalities. The safety record in 
the U.S. is so good, that it is not possible to cost-justify the 
implementation of safety regulations that are considered essential in 
the rest of the world.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                         Gregory Belenky, M.D.
Flight and Duty Time
    Question 1. Dr. Belenky, what are the fundamental differences 
between a prescriptive rule approach to fatigue mitigation and a 
fatigue risk management one?
    Answer. A prescriptive rule is a one size fits all approach to 
fatigue mitigation usually taking the form of limits to permissible on-
duty hours/24 hours. In contrast, a fatigue risk management system does 
not set prescriptive limits but rather uses data collection in actual 
operations, often in judicious combination with sleep and performance 
prediction modeling, to tailor fatigue risk management to the actual 
operation in question to ensure adequate sleep for all operational 
personnel. A fatigue risk management system ensures that there is 
adequate timing and duration of sleep opportunity, monitors to ensure 
that personnel make good use of this opportunity, follows up to ensure 
that the combination of adequate opportunity and use made of the 
opportunity is effectively sustaining performance, and investigates 
errors, incidents, and accidents with an eye toward further improving 
the system.

    Question 2. Dr. Belenky, based on your research experience and the 
literature is there any difference in the type of fatigue experienced 
by pilots of passenger airlines and that experienced by all-cargo 
airlines?
    Answer. Fatigue is a result of time awake (sleep/wake history), 
time of day (circadian rhythm), and workload (approximated by time on 
task). There is no difference in the fatigue experienced by pilots 
whether flying passengers or cargo, if time awake, time of day, and 
workload are the same.

    Question 3. Dr. Belenky, in your testimony you raise issues with 
the studies the FAA cites that suggest ``that after a person has worked 
for about eight or nine hours, the risk of an accident increase 
exponentially for each additional hour worked''. Could you describe in 
more depth the difficulties with the scientific papers claiming an 
exponential increase in accident risk after 8-9 hours on duty?
    Answer. The FAA relied on review papers in reaching this 
conclusion. These review papers overstated the conclusions reached in 
the primary sources they cited and did not discuss the limitations and 
caveats that the authors of the primary sources included in their 
discussion of their results. Specifically, none of the data sets used 
in the analyses in the primary sources had exposure data from the same 
population as they were taking their accident data. Accident risk is 
calculated by dividing the absolute number of accidents by the number 
of people exposed to the accident risk (exposure). So, in the above 
example, to calculate accident risk in the 9th hour on duty one would 
divide the number of accidents that occurred during the 9th hour on 
duty (numerator) by the number of people on duty during the 9th hour 
(denominator). As is obvious, this calculation is sensitive to the 
accuracy of both the numerator and denominator. In the primary sources 
cited by the review articles cited by the FAA in support of its 
assertion of an exponential increase in accident risk, the researchers 
had accurate accident data (numerator) in for example the 9th hour on 
duty but did not have number of people on duty during the 9th hour from 
the same data set. They were therefore forced to estimate this number 
from other, unrelated data sets. For example, in one paper specific to 
fatigue risk in aviation, accident data was data was derived from a 
review of records over a 20 year period through 1998 and the exposure 
data estimated from a single two month period in 1998 as self-reported 
by a few airlines. Similar to the example just given, for all the 
primary sources cited by the secondary sources cited by the FAA, 
exposure data (the denominator; the number of people working extended 
hours) was not available from the data set from which the number of 
accidents was determined and had to be estimated from other unrelated 
data sets. Thus, the evidence for the FAA assertion ``that after a 
person has worked for about eight or nine hours, the risk of an 
accident increase exponentially for each additional hour worked'' is at 
best flimsy. Hence, a major policy decision--to impose flight time 
limits within the temporal boundaries of the flight duty period--was 
based on inadequate, highly questionable evidence.

    Question 4. Dr. Belenky, in your testimony, you state that 
operational fatigue is the result of integrating effects of sleep/wake 
history (time awake, sleep loss), circadian rhythm (time of day), and 
workload (time on task, task intensity, and task complexity). In 
additional there appears to be trait-like individual difference in 
response to all three factors. My understanding is that many of the 
predictive models that have been developed use ad hoc data sets. How 
can researchers validate mathematical models predicting human 
performance from sleep/wake history and circadian rhythm phase? Is 
there a need for a FAA approved standardized process for the 
verification, validation, and certification of these models?
    Answer. As you indicate, what validation has been done has been 
done by the model developers themselves and using data sets available 
to the particular modeler in question. What is needed is a process of 
model verification, validation, and certification that is independent 
of the model developer and uses the same standardized data sets in 
validating any and all models. This process would most logically be 
done by an independent agency or entity with guidance and oversight 
from the FAA.

    Question 5. Dr. Belenky, as long as a pilot has eight hours of 
sleep within a 24 hour period, does it matter if the sleep is 
consolidated or if it is split? Another name for the smaller segment of 
split up sleep is a nap. Are you supportive of pilots taking naps while 
on duty?
    Answer. If total sleep time sums to 8 hours in every 24 hours, it 
does not matter if the sleep is consolidated into a single sleep period 
or split into two or three sleep periods (main sleep plus one or two 
naps). Naps add to recuperative sleep time. Again, it is total sleep 
time in 24 hours that is the primary determinant of recuperation. 
However, splitting sleep into two or three periods is one thing, 
fragmenting sleep with awakenings every two to three minutes is 
another. If sleep is fragmented, i.e., interrupted by awakenings 3-4 
times/hour, minute-by-minute recuperative value is reduced, and if 
interrupted every 2-3 minutes recuperative value is abolished, even if 
total sleep time sums to 8 hours.
Pilot Commuting
    Question 6. Dr. Belenky, the National Research Council report ``The 
Effects of Commuting on Pilot Fatigue'' included three conclusions and 
six recommendations. The conclusions were along the lines of ``there is 
insufficient evidence'', ``there is inadequate data'' and ``there are 
no valid and reliable tools and techniques feasible to reach the goals 
of detecting fatigues and fitness for duty in pilots in an operational 
setting''. One recommendation was: ``Pilots should avoid planning 
commutes or other pre-duty activities that result in being awake beyond 
approximately 16 hours before the scheduled end of duty, endeavor to 
sleep at least 6 hours prior to reporting for duty, and obtain more 
than 6 hours sleep per day whenever possible to prevent cumulative 
fatigue from chronic sleep restrictions. Pilots should also consider 
the amount of sleep and time awake in their decision making relative to 
when to inform their supervisors that they should not fly due to 
fatigue.'' What do you think of that conclusion?
    Answer. The NRC report on commuting is excellent and the specific 
recommendation given above is sound.

    Question 7. Dr. Belenky, based on your research do you believe a 
pilot who commutes long distances can get quality sleep on the flight 
to their domicile?
    Answer. The recuperative value of in-flight sleep depends upon the 
duration of the sleep opportunity, the timing of the sleep opportunity 
relative to the circadian cycle, and the quality of the sleeping 
environment. The quality of the sleeping environment is a function 
primarily of how flat one can lie while sleeping (the flatter the 
better) and secondarily of how quiet and isolated from noise and other 
disturbance the sleeping environment is. If one can lie flat, be 
insulated from sound, and the sleep opportunity is of adequate duration 
and placed at a sleep conducive time with respect to the circadian 
cycle, then sleep will be of good quality and therefore recuperative.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Captain Carl Kuwitzky
    Question 1. CAPA opposes the carve-out from the flight and duty 
regulations that the cargo industry received for a number of reasons, 
including the predominance of nighttime flights in the industry. The 
FAA is currently in the process of working with cargo carriers to have 
them voluntarily meet this requirement. Can you give us an update on 
how many carriers CAPA represents that have agreed to this?
    Answer. As of this writing there have been no all-cargo carriers 
voluntarily ``opt-in'' to the new Part 117 rules.

    Question 2. Is it realistic to expect that all cargo carriers will 
meet this goal?
    Answer. Given the fact that the cargo industry lobbied extremely 
hard to exclude themselves and their pilots from the rule, I think it 
is highly unlikely that they would voluntarily ``opt-in'' under the 
Part 117 rules.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                         Captain Carl Kuwitzky
Flight and Duty Time Rules
    Question 1. Captain Kuwitzky, according to OMB's cost-benefit 
analysis of the flight and duty time rules, the projected cost for all-
cargo operations is $306 million and the projected benefit of avoiding 
one fatal all-cargo accident ranges roughly between $20 million and $32 
million, depending on the number of crewmembers on board the aircraft. 
Do you believe that the scenarios and assumptions OMB used to evaluate 
the rule for all-cargo airline pilots were the proper ones?
    Answer. No, I don't. The OMB considered the loss of a cargo 
aircraft in isolation. By that I mean they did not consider the loss 
including a passenger flight involved either inflight with a mid-air 
collision, or on the ground with a cargo flight. Additionally, they did 
not consider the financial cost should a cargo flight go down in a 
congested metropolitan area.

    Question 2. If the economic benefits of the analysis are weighted 
heavily towards preventing the loss of life, and all-cargo airlines 
only carry a handful of crew, doesn't that a priori set the bar 
impossibly high for any FAA safety rules for all-cargo airlines to 
clear OMB?
    Answer. No, please see the previous answer. If a cargo flight is 
involved in a mid air collision or loss of control in flight and 
crashes in a congested metropolitan area, the costs involved could well 
exceed the costs of a passenger carrier going down due to fatigue.

    Question 3. In your testimony, you mentioned that several years 
after TCAS was required for passenger jet, it was required for cargo 
jets. In the final rule for requiring TCAS on all cargo aircraft, did 
OMB perform a cost benefit analysis?
    Answer. With respect to an OMB review, I do not know for certain. I 
do know that the FAA conducted an ``Initial Regulatory Evaluation 
Initial Regulatory Flexibility Determination, And Trade impact 
Assessment'' for Collision Avoidance Systems for Cargo and All New 
Manufactured Airplanes. This analysis was done by the Office of 
Aviation Policy and Plans-Regulatory Analysis Division in September 
2001. The docket number is as follows: FAA 2001 0910910.

    Question 4. Secretary LaHood called for all-cargo airlines to meet 
voluntarily the standards called out in the flight and duty time rule. 
Why or why not do you believe this will be an effective approach?
    Answer. This approach is to be applauded but it is extremely 
problematic. Due to the OMB review, The Secretary of Transportation is 
limited in what he can do. That is why we believe the proper action is 
for Congress to address the deficiency in Part 117 and to compel DOT/
FAA to require cargo carriers to comply with Part 117.

    Question 5. What is your interpretation of the FAA's ``one level of 
safety''? Does it mean one level of safety across all Part 121 
operators or does it mean one level of safety between regional airlines 
and mainline carriers?
    Answer. ``One Level of Safety'' is a broad term that we have long 
viewed as applying to all commercial121 operations. The level of safety 
should be constant regardless of whether there are 30 or 300 passengers 
in the back of the aircraft. It should be no different if it is an all-
cargo operation as well.
Pilot Commuting
    Question 6. Captain Kuwitzky, why do some pilots commute long 
distances to their duty station--is it out of economic considerations, 
lifestyle considerations, or for other reasons?
    Answer. Pilots commute for a variety of reasons including lifestyle 
and economic factors. Additionally, many pilots commute out of 
necessity due to being on the bottom of their respective seniority 
list. Company's often open and close bases as well as transfer flying 
to other bases on a monthly basis forcing junior pilots to another 
base. A pilot moving considering these numerous variables is both 
problematic financially and personally for the pilot's family.

    Question 7. Do you have a sense whether, in general, pilots of 
regional carriers on average commute a greater distance to their 
domicile that pilots of mainline carriers?
    Answer. I do not have any hard data but would expect that commuting 
distance would not vary much from regionals to mainline carriers. I 
would say though that I would expect a higher percentage of regional 
pilots commuting than mainline pilots.

    Question 8. How do pilots that make these long commutes typically 
address their fatigue?
    Answer. Pilots with long commutes typically have fewer flight 
options to get to their destination, which would normally give them 
plenty of opportunity to get rest in hotels or apartments in advance of 
their trip. The pilot members of CAPA have a positive record of showing 
up for work rested and in compliance with FAA requirements.

    Question 9. Do you believe pilots who commute long distances to 
their duty stations represent a safety concern?
    Answer. No. Pilots who commute know very well of their 
responsibility to show up for work well rested. They plan to arrive in 
time to get the necessary rest before their trip. However, among the 
regional carriers, the low pay at some carriers may force pilots to 
seek less than optimum rest facilities in advance of a trip.
Pilot Training
    Question 10. Captain Kuwitzky, what are mainline and regional 
airlines doing to improve pilot training for safely performing flight 
operations independent of any new FAA rules?
    Answer. I do not have access to the various carriers to speak to 
this question.
Lithium Batteries
    Question 11. Captain Kuwitzky, my understanding is that CAPA is 
concerned about the language regarding the air transport of lithium 
batteries in the enacted ``FAA Modernization and Reform Act of 2012''. 
Can you explain your concerns?
    Answer. CAPA is concerned in that the Act you referenced actually 
lessens an already weak standard at place in our Air Transport System. 
By allowing a standard in this country to now be set by an 
international regulatory body (ICAO), we have further diluted our 
ability to manage ``at home'' an area of Airline Safety that needs 
immediate reform. Since 1997, UPS Airlines alone has lost two 
airliners, one to spontaneous lithium battery fire and another 
apparently so based on preliminary reports. There were also two pilot 
fatalities in the recent UPS accident in Dubai. There have been 
numerous other similar accidents both here and abroad with similar 
results. In fact the FAA's own internal study released just last fall, 
predicts that U.S. Air Carriers will lose at least five commercial 
aircraft, their crews and cargo, to lithium based fires in the next 10 
years. We have no idea to what level we may expect fatalities and 
property damage on the ground at these aircraft crash sites, but past 
history indicates there will be and to us that is clearly unacceptable 
risk. CAPA has long requested the Senate mandate an industry stake 
holder working group to look at and propose safe standards and 
increased protections when transporting these hazardous I dangerous 
materials. In addition, we believe the best standard of safety on this 
and any rule regarding air transportation is one set and regulated here 
at home.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                         Captain Carl Kuwitzky
    Question. In your testimony you address the cost effectiveness of 
the Federal Flight Deck Officer (FFDO) program and ask this committee 
and the Appropriations Committee to reject the Administration's 
proposed cuts to the FFDO program in the FY13 budget. In the budget, 
the Administration states that funding for the FFDO program should be 
reduced because TSA is focusing its ``aviation security activities on 
programs that mitigate the highest amount of risk at the lowest cost'' 
and that the FFDOs are less necessary because other security 
improvements since 2001 ``have greatly lowered the chances of 
unauthorized cockpit access and represent a comprehensive and redundant 
risk-mitigation strategy that begins well before passengers board the 
aircraft. How do you respond to the Administration's position on the 
FFDO program and could you discuss in more detail why you believe the 
budget cuts are ill advised?
    Answer. While improvements have been made post-9/11 on our aircraft 
including a hardened cockpit door, it must be noted that the cockpit 
doors were not breached by force on 9/11. Every day our Nation's 
cockpit doors are opened inflight due to physiological needs by the 
pilots or to receive meal and/or beverage service and an opportunity is 
introduced for terrorists to attempt to breach the cockpit. Data has 
shown that it takes less than 3 seconds for a terrorist to breach the 
cockpit when the door is opened. Additionally, the cockpit door is 
designed to prevent penetration from ballistic intrusion. While that is 
an improvement, the door can still be breached with sufficient force. 
Having a cost effective solution in place with FFDO's armed in the 
cockpit is and should be the last line of defense.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Thomas L. Hendricks
    Question 1. In your testimony, you mention how useful databased 
safety measures are to carriers and to the FAA. I applaud A4A's great 
progress in implementing ASAP and FOQA at all of your member airlines 
even before the FAA finalizes this requirement. Can you update me on 
how many of your regional airline partners have yet to implement these 
programs?
    Answer. While A4A does not represent regional airlines, we have 
attached slides from MITRE Corp. that shows which regional airlines 
have ASAP and FOQA programs. Those regional carriers that do not have 
an FAA-approved FOQA program are denoted in grey. 69 percent of 
Regional Airline Association (RAA) carriers have established pilot ASAP 
programs, and 55 percent have implemented FAA-approved FOQA programs.

    Question 2. Beyond ASAP and FOQA, are there other safety programs 
that the FAA has not required which could be useful?
    Answer. Yes, and many are in place. Technically, the Internal 
Evaluation Program (IEP) is not ``required'', but there is an Advisory 
Circular that addresses it (AC-120-59A). DOD requires it in their 
biennial Air Carrier Survey Program audits, and most Part 121 carriers 
do it. These periodic internal compliance audits are a reasonable way 
to stay ``up to date'' between biennial DOD and IATA Operational Safety 
Audits (IOSAs) that most Part 121 carriers undergo to satisfy DOD 
airlift, international codeshare and alliance requirements. In 
addition, carriers must undergo continuous data reporting under FAA's 
Air Transportation Oversight System (ATOS) to satisfy their Certificate 
Management Offices. This enables the transfer of data collected by 
inspectors (with appreciable air carrier assistance) into the ATOS 
database. Safety Attribute Inspection (SAI), Element Performance 
Inspection (EPI), and Constructed Dynamic Observation Report (ConDOR), 
random inspection, and Dynamic Observation Report (DOR) data are used 
to assess air carrier system design and performance, and identify any 
safety issues. When many of these programs are fused together with 
ASAP, FOQA, and FAA's Continuous Analysis and Surveillance System 
(CASS) under the umbrella of Safety Management Systems (SMS), the 
resulting processes require air carriers to devote considerable funds, 
personnel, time and attention to administration of safety programs 
across the functional departments comprising operations.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Thomas L. Hendricks
Flight and Duty Time Rules
    Question 1. Mr. Hendricks, to date have there been any operational 
challenges reported by airlines in implementing the FAA's new flight 
and duty time rules?
    Answer. No, the implementation date is still more than a year away.
Pilot Commuting
    Question 2. Mr. Hendricks, do you think there is any linkage 
between pilot commuting and safety? In general, do airlines encourage, 
discourage, or are silent on the issue of whether its flight crews 
should commute long distances from their home to their domiciles? Page 
24 of the National Academy of Sciences report ``The Effects of 
Commuting on Pilot Fatigue'' cites the benefits to commuting for 
airlines. These benefits include ``ability to adapt quickly to changes 
in flight patterns because of changes in the market; no need to require 
pilots to live near domicile; no need to pay relocation expenses for 
pilots for domicile change made; and no need to pay cost-of-living 
adjustments for domicile changes'' Do you agree with this statement?
    Answer. Individual airlines all address the commuting issue, albeit 
in different manners, through their safety and training programs, and 
via contractual agreements with pilots. The issue is best addressed by 
individual airlines. Suffice it to say, safety is the paramount 
consideration in any and all agreements between airlines and their 
pilots. With respect to the NAS report, the benefits to pilots and 
their airlines vary by company, individual situations, and can be 
somewhat subjective.

    Question 3. Do you agree with the U.S. DOT's IG recommendations 
that the FAA--(1) Ensure the collection and analysis of data regarding 
domicile and commuting lengths for all Part 121 flight crews. 
Specifically, information regarding the number of pilots and other 
flight-crewmembers who commute, their methods of transportation, and 
distances, and distances they commute, should be collected, and (2) 
Review and analyze the Part 121 domicile and commuting data collected 
to determine if further changes to flight duty and domicile regulations 
are needed or if airlines need to take further mitigation actions in 
their fatigue management systems?
    Answer. We do not object to these recommendations.

    Question 4. Should pilot commutes be incorporated in a given 
airline's Fatigue Risk Management system?
    Answer. Yes--we believe pilot commutes should be incorporated in a 
given airline's Fatigue Risk Management system.
One Level of Safety
    Question 5. Mr. Hendricks, does A4A interpret the FAA's vision of 
one level of safety to mean one level of safety across all Part 121 
operators or does it mean one level of safety between regional airlines 
and mainline carriers?
    Answer. I think the term ``one level of safety'' has become abused 
and outmoded. As we move into the future, Safety Management Systems 
(SMSs) will comprise an infinite level of safety. We will be looking 
beyond compliance with existing regulations to an industry that 
communicates safety effectively across all functional boundaries, 
starting with shared safety policies, aggressive hazard precursor 
identification and reporting, data-driven risk assessment, and layered 
mitigations.
    One of industry's prime tasks will be to continuously evaluate risk 
mitigation effectiveness as conditions in the National Airspace System 
change dynamically day-to-day and through constant evolution. The 
regulator's task will also evolve--from constantly looking over the 
operator's shoulder to spot non-compliance to observing performance 
metrics at various nodes of multiple processes to validate that the 
operator's SMS is functioning as it should.
Pilot Training
    Question 6. Mr. Hendricks, what are mainline and regional airlines 
doing to improve pilot training for safely performing flight operations 
independent of any new FAA rules?
    Answer. I can only speak for the mainline carriers. Our members 
constantly collect data and feedback to adjust and improve their 
programs as necessary. We are very proud of our training programs and 
believe they are the best I the world.
Call to Action
    Question 7. Mr. Hendricks, former FAA Administration Babbitt's Call 
to Action on Safety shortly after his Senate confirmation was 
universally well received. It included a number of FAA actions but also 
included a lot of industry voluntary efforts. Looking back, would you 
say that there remains a high rate of industry participation in these 
voluntary safety efforts by both mainline and regional airlines or has 
interest and participation waned over time as the lessons learned from 
the Colgan Air crash becomes more historical in nature?
    Answer. The commercial aviation industry is moving aggressively 
toward adopting Safety Management Systems (SMS) to meet the design 
goals of a rule that will likely go into effect in mid-August of this 
year. SMS is revolutionizing the way we look at safety. All FAA Part 
121 commercial airlines and FAA Part 139 airports will, as aviation 
service providers, have a common safety strategy put forth by the 
International Civil Aviation Organization. It will be scalable and 
flexible, depending on the size and complexity of the organization, but 
it will leverage existing required processes, those that air carriers 
have adopted voluntarily as traditional ``best practices,'' and the 
results of the Call to Action. I predict that SMS will further enhance 
the industry's unprecedented level of safety.
Pilot Database
    Question 8. Mr. Hendricks, the FAA is required to develop a 
centralized database of pilot records, which would include a pilot's 
training and experience history, in order for airlines to better screen 
applicants for pilot positions. You heard Mr. Scovel discuss some of 
the FAA's challenges in accomplishing this from the USDOT IG's 
perspective. What are the challenges from A4A's perspective to the FAA 
implementing a database and corresponding processes that will make it 
useful for your member airlines?
    Answer. Last year, A4A and several of our member carriers 
participated on an Aviation Rulemaking Committee (ARC) to develop a 
practical platform for the FAA's electronic Pilot Records Database 
(PRD). While the ARC members made substantial progress on most issues, 
IG Scovel's concerns about the feasibility of entering ``historical'' 
pilot records in a standardized format into the PRD are very well-
founded.
    The ARC's investigation revealed that ``historical'' records, which 
are estimated to exceed 7 million documents and date back to the 1970s, 
are stored in a variety of incompatible mediums (e.g., paper--typed; 
paper--handwritten; microfiche; digital, and scanned). Further, the 
content of these records varies widely and can include irrelevant or 
privacy protected information: e.g., medical and payroll information 
might appear on the same sheet with the record of a training event. 
Moreover, carriers cannot remove unrelated information as Federal 
regulations prohibit carriers from ``altering'' or ``summarizing'' 
existing aviation records.
    Accordingly, the ARC recommended a ``phase-in'' system for the PRD. 
Under ARC's proposal, carriers hiring pilots would obtain ``current'' 
and ``future'' records from the PRD, while continuing to request 
``historical'' records directly from the prior employers until the PRD 
had at least five years of records stored.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                          Thomas L. Hendricks
    Question 1. The DOT IG's report notes that implementation of 
voluntary safety programs such as ASAP and FOQA has mostly occurred at 
larger air carriers, while it hasn't been implemented at smaller and 
regional carriers. What barriers are there to implementing these 
voluntary safety programs?
    Answer. There are no barriers. There are currently 244 pilot, 
dispatcher, mechanic, flight attendant, and ground support programs. 
Resource impacts are scalable. A small regional air carrier can operate 
a pilot ASAP fairly economically. The biggest hurdle is training Event 
Review Committee members to work effectively toward consensus.

    Question 2. What can mainline carriers do to make sure these 
programs exist for their smaller regional code sharing partners?
    Answer. Mainline carriers have been doing this for the past two 
years. Our mainline carriers with regional codeshare partners meet 
frequently in person or by teleconference to look at trends, discuss 
best practices, and encourage optimal safety performance. Two of our 
mainline carriers, Delta Air Lines and U.S. Airways, have completed 
Level IV of the FAA SMS Pilot Program, and share lessons learned with 
their codeshare partners (Piedmont, Pinnacle, Colgan, PSA, ExpressJet, 
Chautauqua, Comair, Compass, GoJet, Mesaba, Shuttle America, SkyWest).
                                 ______
                                 
    Prepared Statement of Air Line Pilots Association, International
    The following statement is submitted by the Air Line Pilots 
Association, International (ALPA), representing more than 53,000 
professional airline pilots flying for 37 airlines in the United States 
and Canada. ALPA is the world's largest pilot union and the world's 
largest non-governmental aviation safety organization. We are the legal 
representative for the majority of professional airline pilots in the 
United States and are the recognized voice of the airline piloting 
profession in the country, with a history of safety advocacy that 
extends for over 80 years. As the sole U.S. member of the International 
Federation of Airline Pilots Associations (IFALPA), ALPA has the unique 
ability to provide active airline pilot expertise to aviation safety 
issues worldwide, and to incorporate an international dimension to 
safety advocacy.
    The ``Airline Safety and Federal Aviation Administration Extension 
Act of 2010'' stands as a major milestone in ensuring that airline 
travel remains the safest form of transportation in human history. ALPA 
applauds the Senate's diligence in monitoring progress toward 
implementation of the safety improvements outlined in this legislation. 
We have been pleased to represent the voice of airline pilots nation-
wide through our participation in all of the FAA Aviation Rulemaking 
Committees formed as result of the Act. We have commented extensively 
through that process and through the public comment process for FAA 
Notices of Proposed Rulemaking (NPRM) covering pilot fatigue and 
mitigations for it, pilot training and standards, pilot qualification 
requirements, and principles related to the initial and continuing 
professional development of an airline pilot. Our formal comments go 
into extensive detail on many of the topics under consideration by the 
Subcommittee and we would be pleased to provide the Subcommittee with 
copies of those comments. ALPA has long said, and continues to 
maintain, that the single most effective safety feature of a modern 
airline aircraft is a well-trained, well-motivated, well rested 
professional pilot.
Pilot Fatigue
    ALPA believes that in general, our industry is making good progress 
in developing and implementing the safety enhancements set forth in the 
legislation under discussion here today. There are, however, notable 
areas where there remains critical work to be done.
    Foremost among these is the gap left in the safety net by the 
exclusion of pilots of all-cargo airlines from the provisions of the 
newly promulgated flight and duty time regulations. We continue to find 
it unconscionable that some airline pilots will not be afforded the 
safety margins that the new law provides as relates to fatigue risks. 
This inequity has been created despite the fact that airline pilots 
operate the same aircraft at the same time in the same airspace and to 
and from the same crowded airports, and that this discrepancy is based 
solely on the nature of the payload.
    Just this month, the National Sleep Foundation's report on its 2012 
`Sleep in America' poll vividly illustrated the risk posed by fatigue 
among transportation workers and the particular challenges that airline 
pilots face in delivering on their commitment to achieving the highest 
standards of safety. That poll is the latest evidence of the serious 
risk. ALPA respectfully urges the Administration to acknowledge that 
risk--and the compelling and conclusive science that preceded it--and 
bring cargo pilots under the new pilot fatigue rules. To that end, we 
ask this Committee to pursue an immediate legislative remedy to mandate 
that the new flight and duty regulations (FAR Part 117) apply to all-
cargo operations.
    In spite of that shortcoming, the new pilot fatigue rule marks 
historic progress in what must be an unrelenting commitment to ensuring 
the highest safety standards throughout the airline industry. For 
decades, ALPA has fought for regulations that are based on modern 
science; apply equally to all types of airline operations, including 
domestic, international, and supplemental; and enable air carriers to 
establish Fatigue Risk Management Systems. ALPA is proud to have led 
the effort to move forward on these critical safety provisions in our 
role as co-chair of the FAA's Aviation Rulemaking Committee, which made 
recommendations regarding this important rule, with the determined goal 
of advancing safety. While the new rule brings much-needed science-
based improvements in flight and duty regulations, ALPA will continue 
to strongly advocate for One Level of Safety for all types of flight 
operations and across the airline industry.
Pilot Training and Development
    Another key element of the Act is the recognition that the 
screening, selection, training, qualification and continued 
professional development of a pilot in air carrier service is a 
critical factor in maintaining the absolute highest levels of safety. 
The Act directed a number of activities, including the formation of 
several aviation rulemaking committees (ARCs). Those groups have done 
extensive work to identify industry best training practices and to 
develop recommendations for more rigorous selection and qualification 
criteria, improved training standards and means to ensure continuing 
professional development of airline pilots. ALPA's advocacy in these 
efforts has been consistent and universal across the activities 
specified in the Act. Almost all of the industry efforts directed by 
the Act have been completed, and FAA is in the process of evaluating 
the many recommendations made.
    To date, we note the publication of the aforementioned long-awaited 
improvements to flight time, duty time and fatigue regulations, and 
rulemaking proposals for revisions of training standards and 
requirements for new first officers in airline service and for 
implementation of safety management systems at airlines.
    The remaining efforts identified in the legislation are not yet 
incorporated in proposed rulemaking. This means there remains a great 
deal of work yet to be done, and we urge the Administration to dedicate 
sufficient resources to ensure these vital efforts can continue without 
delay.
    In particular, we note the potential, embodied in the Act, for 
significant improvements in the minimum qualifications necessary to 
become a professional airline pilot and in the standards to which 
pilots must be trained. As our industry has evolved, the complexity and 
sophistication of the aircraft, the airspace, and the operations have 
increased dramatically. Yet the pilot training and qualification 
regulations have failed to keep pace. The FAA has recently issued a 
Notice of Proposed Rulemaking that, when finalized, will represent a 
quantum leap in recognizing what ALPA has said for some time--that 
piloting an airline aircraft in revenue service is a demanding 
profession that requires the highest levels of training and 
certification that operating in today's airspace system demands. In 
particular, those improvements include the following:

  <bullet> Increasing the minimum flight experience necessary in order 
        to be hired by a FAR 121 air carrier

  <bullet> Establishing a restricted ATP that recognizes that quality 
        of training is more important than total flight hours 
        accumulated and gives appropriate level of credit to military 
        trained pilots and graduates of aviation colleges and 
        universities that have intense structured professional pilot 
        training programs

  <bullet> Establishing ATP training programs tailored toward FAR 121 
        airline operations

  <bullet> Establishing a requirement for SIC pilot to be type rated in 
        the aircraft they operate to ensure that they demonstrate the 
        same knowledge requirements and flying skills as the PIC for 
        that aircraft.

  <bullet> Establishing minimum experience requirements for pilots 
        before they can move into the PIC position

    Federal Aviation Regulations (FAR) Parts 61 and 121 have not kept 
pace with the dynamic airline industry. Many pilot training 
requirements currently in force were first published in an era in which 
common business practices, driven not by regulation but by the supply 
of pilots and equipment in use, dictated that low-time, commercial-
certificated pilots could only get airline jobs flying small, slow, 
propeller-driven aircraft and as flight engineers on jet transports. 
Pilots would traditionally fly several years and thousands of hours 
before even being given an opportunity to upgrade to first officers on 
high-performance jet transports.
    Today, it is not uncommon for new-hire pilots to be employed as 
first officers of high-altitude, high-performance aircraft carrying 50 
or more passengers in highly complex Part 121 operations. This reality 
demands that airlines hire pilots with more knowledge and greater 
skills than the new-hire airline pilots of the past, but in fact, just 
the opposite is happening at some airlines.
    Due to economic pressures, some ``regional'' airlines actually seek 
out and hire the least experienced pilots meeting FAA minimum 
requirements because they are willing to accept the lowest compensation 
in order to build flight time and use that experience to progress to 
larger, more stable airlines. It must be noted that building this 
experience is done in unrestricted revenue service.
    It is also noteworthy that before code-sharing with regional 
partners began, all flying was done by the pilots of an airline on a 
single pilot-seniority list. This practice ensured that newly hired 
airline pilots--even those with thousands of hours of military or 
civilian flight time--had several years of airline operations 
experience before assuming the command responsibilities of an airline 
captain. However, as competitive cost concerns increased with the 
advent of post-deregulated start-up carriers, the ``legacy'' airlines 
began to outsource the flying to as many as a dozen new ``regional'' 
partners flying 30- to 50-seat propeller aircraft and 50- to 90-seat 
jets. The ``legacy'' airlines then began the practice of having their 
``partners'' bid against each other to maintain these ``fee for 
departure'' outsourcing contracts. As the legacy airlines replaced more 
and more mainline flying by this outsourcing scheme to regional 
operators, they furloughed hundreds of highly experienced pilots, 
effectively replacing them with lower-paid and lower-experienced 
pilots.
    The time has clearly come for these regulations to be updated to 
ensure that a high standard of aptitude, knowledge and training are met 
by anyone flying an aircraft in Part 121 operations. One critical gap 
in this effort, however, needs to be addressed. New regulations 
promulgated with the intent of ensuring relevant experience is obtained 
before pilots begin airline service must not allow the unintended 
consequence of rendering an active airline pilot suddenly ineligible to 
continue his or her employment. Fairness and common sense dictate that 
attempts to ensure relevant experience should not inadvertently result 
in taking that experience out of the cockpit. New regulations must 
include a clear path for currently employed airline pilots to follow to 
continue to fly and be able to achieve full compliance with 
requirements imposed after their employment began.
    As a result of P.L. 111-216, we have seen broader recognition of 
the value of professional development, command training and mentoring. 
ALPA has long advocated these principles, and the ongoing industry 
activity to develop these programs, initiated as a result of the Act 
must be supported in order to continue. As we have noted, our industry 
has changed dramatically since the era when many of today's training 
regulations were developed. That change has affected the training 
culture within airlines as well. The days of pilots being ``seasoned'' 
through years of experience under the tutelage of wise old Captains are 
gone. However, the need for the piloting skills developed in that 
manner remains, and the need for the pilot in command to in fact be in 
command has become more acute. The solution is to replace the 
mentoring, command training and professional development which once 
were a guaranteed by-product of business models and industry practices 
with formal mechanisms to address the means to develop these skills.
    An airline captain must have skills far beyond simply being able to 
operate the aircraft from the captain's seat. The captain must be able 
to organize the efficient cooperative activity of all flight crew, 
cabin crew, and ground crew to ensure the safe planning and conduct of 
the flight from gate to gate. He or she must be able to maintain 
control of situations under adverse conditions and in the face of 
pressure to compromise standards in the interest of operational 
expediency. The need to maintain command authority has arguably 
increased due to the continuing decline in experience levels of other 
crewmembers.
    P.L. 111-216 accurately identified the need for airlines to provide 
specific command training courses for new captains to instill in them 
the skills to lead on the flight deck. In addition to basic skills such 
as aeronautical decision making and crew resource management, new 
captains should receive training to reinforce effective communication, 
leadership, conflict resolution, and judgment necessary to properly 
lead a crew, exercise command authority, and maintain the highest 
levels of safety in the face of internal or external pressures.
    The Act also points out the value of mentoring. Mentoring is a form 
of instructing in which seasoned pilots share their experiences to help 
newer pilots increase their proficiency. This activity does not take 
the place of any proficiency training, but supplements it. In many 
cases, this mentoring takes the form of captains mentoring first 
officers, but could also be an experienced first officer providing 
counsel to a new-hire on company policies, piloting technique, aircraft 
systems, etc. Much of this mentoring can be informal if an airline 
safety culture fosters the opportunity for pilots to interact away from 
the actual flight, but can and should also be formalized in the 
interest of transferring the maximum amount of knowledge across 
experience levels. This training must go beyond just written statements 
in the airline's manuals.
    ALPA has long recognized the value of a formal Professional 
Standards function within an airline's pilot group, and in fact 
maintains such a formal organization at each ALPA-represented airline 
and as part of ALPA's Air Safety Organization at the national level. 
Such Professional Standards organizations, supported by both line 
pilots and airline management, are identified in the legislation as a 
critical component to enhancing safety.
    The ARC that addressed mentoring, leadership and professional 
development has made its recommendations to the FAA, and that activity 
must not be allowed to stagnate. These are critical cultural changes 
that will take time to fully implement and mature, so we must begin 
sooner rather than later to implement these enhancements.
Safety Management Systems
    A safety management system (SMS), such as referred to in P.L. 111-
216, has been described as a comprehensive, process-oriented approach 
to managing safety throughout an organization. An SMS includes an 
organization-wide safety policy; formal methods for identifying 
hazards; controlling, and continually assessing risk; and promotion of 
a safety culture.
    SMS stresses not only compliance with technical standards but 
increased emphasis on the overall safety performance of the 
organization. ALPA has participated in numerous FAA activities related 
to developing and promoting SMS, including the SMS Pilot Project and 
the SMS Aviation Rulemaking Committee (ARC). We are encouraged that the 
FAA appears to be on schedule to comply with P.L. 111-216 and publish a 
final SMS rule this summer.
    Use of SMS has been recognized by the International Civil Aviation 
Organization (ICAO) as an effective means to implement a non-punitive 
safety culture in an organization. SMS encourages all members of an 
organization to identify hazards and for that identification to be made 
without fear of retribution, even if the identified problem is that 
individuals' own error. Thus, protection of safety data is an essential 
and critical element of any safety program, and especially of an SMS. 
Data must be gathered in sufficient depth and detail to support 
analysis of risk and implementation of corrective procedures, 
processes, etc.
Voluntary Safety Programs
    We note that the Act recognizes the value of voluntary safety 
programs that can exist independently or be part of an SMS, such as the 
Aviation Safety Action Program (ASAP), Flight Operations Quality 
Assurance (FOQA), Advanced Qualification Program (AQP) and Line 
Oriented Safety Audits (LOSA). We must point out, however, that these 
programs rely to varying degrees on data provided by individuals that 
is provided voluntarily with an expectation that the reporter's 
forthrightness will be respected as an attempt to enhance safety and 
thus the need to protect those data from misuse is critical to the 
survival of these safety programs. Processes in place to protect the 
data gathered through various need to be strengthened and expanded to 
provide proper protection for the data, both within and outside an 
organization.
    Information gathered through an anonymous, non-punitive employee 
reporting program must be protected against disclosure to anyone who is 
not authorized to view such safety reports. If sanctions are taken 
against an employee as a result of a safety report, that reporting 
program will lose participation. Much can be inferred about an 
organization's safety culture through their support for employee 
reporting programs. Failure to protect data in these programs will 
hinder future data-gathering efforts. ALPA has spoken often at a number 
of venues urging protection of this information to better assure data 
privacy and legal protections. Use of this information for any other 
than its intended purpose perverts an essential, much-needed safety 
system.
    In conclusion, ALPA is encouraged by the progress made to date in 
pursuing safety enhancements outlined in P.L. 111-216, but we reiterate 
that much remains to be done. ALPA stands ready to continue to assist 
in that effort, and we appreciate the opportunity to offer our views to 
the Subcommittee.
                                 ______
                                 
     Prepared Statement of Gerald L. Dillingham, Ph.D., Director, 
                  Physical Infrastructure Issues, GAO
 Aviation Safety: FAA Has an Opportunity to Enhance Safety and Improve 
            Oversight of Initial Pilot Training<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ The complete statement can be found at http://www.gao.gov/
products/GAO-12-537T.
---------------------------------------------------------------------------
What GAO Found
    FAA's pilot training requirements for certification of commercial 
pilots are not aligned with airline operations or emphasize skills that 
airlines consider important for greater aviation safety.

  <bullet> Requirements do not emphasize training in decision-making, 
        although this skill is essential to the airline pilot 
        profession. According to FAA and other stakeholders, the 
        regulations regarding ground school and flight training, as 
        well as the test standards for a commercial pilot certificate, 
        generally emphasize the development of motor skills to master 
        of maneuvers and individual tasks to determine competence, and 
        not decision making.

  <bullet> Requirements do not emphasize training in using modern 
        technologies, such as flight simulation training devices. 
        Modern aircraft used by regional airlines have evolved and the 
        operational demands have increased on pilots in high altitude 
        and complex airline operations. Pilots in today's newer 
        aircraft have to manage automation, advanced avionics and 
        systems, information displays, and other new technologies.

  <bullet> Requirements and testing do not emphasize situational 
        awareness or understanding risk assessment, or provide a 
        complete understanding of managing the automation of the 
        aircraft.

    Many of the key industry stakeholders GAO interviewed said the 
current training regulations for commercial pilots should be revised to 
incorporate additional training requirements that would improve the 
performance capabilities of the first officer applicants that seek 
employment at airlines. Some of the recommended types of training are 
provided to pilots when they are hired by airlines to ensure that the 
newly hired commercial pilots are competent in a range of training 
areas--some per FAA requirements. However, according to the Air Line 
Pilots Association, the lack of specific training requirements to be a 
commercial airline pilot results in a wide range of initial training 
experiences, not all of which are well suited for the commercial 
airline industry. To compensate, some regional airlines use various 
flight training devices to screen pilots during the hiring process to 
gauge their piloting skills. FAA has an opportunity to ensure that the 
knowledge and skills it requires of commercial pilots is still 
relevant.
    FAA has an annual inspection program that includes the oversight of 
pilot schools, pilot examiners, and flight instructors, i.e., the 
gatekeepers for the initial pilot training process. However, GAO's 
analysis of FAA inspection data found that the agency does not have a 
comprehensive system in place to adequately measure its performance in 
meeting annual inspection requirements for pilot schools and pilot 
examiners, which could make it difficult to ensure regulatory 
compliance and that safety standards are being met. GAO's report 
included recommendations to improve FAA's oversight of pilot 
certification by developing a comprehensive system that may include 
modifying or improving existing data systems to: (1) measure its 
performance in meeting the agency's annual inspection requirements for 
pilot schools and pilot examiners and (2) better understand the scope 
of discretionary inspections for flight instructors. FAA generally 
agreed with the recommendations.
Why GAO Did This Study
    Regional airlines have experienced the last six fatal commercial 
airline accidents, and pilot performance has been cited as a potential 
contributory factor in four of these accidents, including the most 
recent in February 2009 which resulted in 50 fatalities. Public and 
media concerns about aviation safety escalated as a result about the 
level of safety across the entire airline industry, particularly about 
pilot education and training before they can be hired by regional 
airlines. The Federal Aviation Administration (FAA) is responsible for 
ensuring that pilots receive the necessary training and undergo the 
proper certification testing. Once hired, all U.S. commercial airlines 
are required to provide the advanced training for their pilots. 
However, to become a certified commercial pilot, which is currently the 
minimum requirement for being hired by an airline as a first officer; 
individuals must undergo several steps of pilot training and 
certification in accordance with FAA regulations.
    This statement is based on GAO's November 2011 report on initial 
pilot training and focuses on (1) the various types of U.S. pilot 
training organizations, the regulatory training requirements for 
commercial airline pilots, and how they compare in preparing pilots 
candidates for commercial airlines, and (2) how and to what extent FAA 
carries out its oversight role of pilot training and certification of 
private and commercial pilots.

    Chairwoman Cantwell, Ranking Member Thune, and members of the 
Subcommittee:

    I am pleased to submit this statement on GAO's work related to the 
U.S. pilot training system. This study was undertaken at the request of 
the House Committee on Transportation and Infrastructure, its 
Subcommittee on Aviation, and members of Congress. Although the U.S. 
mainline airlines are experiencing an unprecedented level of safety, 
there have been several accidents in recent years involving regional 
airlines.\1\ Specifically, the last six fatal commercial airline 
accidents involved regional airlines, which account for about 53 
percent of the Nation's commercial flights. As a result, Congress and 
the flying public have raised concerns about the extent that there is 
``one level of safety'' \2\ across the entire airline industry. The 
National Transportation Safety Board (NTSB) cited pilot performance as 
a potential contributory factor in four of these accidents, including 
the one on February 2009, in Buffalo, New York, involving Colgan Air., 
Inc. in which 50 lives were lost.\3\ The focus of our study was the 
initial pilot education and training required before pilots can be 
hired by airlines, at which time they receive advanced training.\4\ The 
continued safety of the U.S. aviation system depends in part on the 
roughly 3,400 U.S. pilot schools providing well-trained pilot 
candidates for airlines. This is particularly relevant for regional 
airlines, which are much more likely to hire and train pilots directly 
from these schools, whereas large mainline airlines tend to hire and 
train pilots who already have experience at regional airlines or in the 
military.
---------------------------------------------------------------------------
    \1\ Mainline carriers operate aircraft seating 90 or more 
passengers and regional air carriers are airlines that generally 
operate aircraft seating fewer than 90 passengers.
    \2\ Since 1995, FAA has imposed the ``one level of safety'' on the 
entire airline industry in which all U.S. commercial airlines--mainline 
and regional--are subject to the same standards and requirements, and 
receive the same level of safety oversight.
    \3\ NTSB Aircraft Accident Report, 2010, Loss of Control on 
Approach, Colgan Air, Inc., Operating as Continental Connection Flight 
3407, Bombardier DHC-8-400, N200WQ, Clarence Center, New York, February 
12, 2009. NTSB/AAR-10/01. Washington, D.C.
    \4\ Mainline and regional airlines provide their pilots with 
1)advanced training as entry-level indoctrination training when they 
are hired and 2)continual recurrent training while they are employed.
---------------------------------------------------------------------------
    This statement is based on our November 2011 report \5\ and focuses 
on (1) the various types of U.S. pilot training organizations, the 
regulatory training requirements for commercial airline pilots, and how 
they compare in preparing pilots candidates for commercial airlines, 
and (2) how and to what extent FAA carries out its oversight role of 
pilot training and certification of private commercial pilots. To 
address our objectives in the report, we reviewed and synthesized 
published literature related to pilot certification and training issues 
in the United States. We also reviewed Federal Aviation Regulations 
related to training and certification for pilots, and legislative 
provisions that addressed issues related to pilot training. We 
interviewed officials at Department of Transportation (DOT), Federal 
Aviation Administration (FAA), and NTSB. We also conducted interviews 
with representatives from a range of aviation stakeholder 
organizations, including pilot unions, pilot school associations, 
general aviation groups, commercial aviation industry associations, 
international aviation associations, and regional airlines. For a more 
detailed explanation of our scope and methodology, see appendix I of 
our full report.
---------------------------------------------------------------------------
    \5\ GAO, Initial Pilot Training: Better Management Controls are 
Needed to Improve FAA Oversight, GAO-12-117 (Washington, D.C.: November 
2011).
---------------------------------------------------------------------------
    The performance audit on which this statement is based was 
conducted from March 2010 through November 2011 in accordance with 
generally accepted government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.

                                  <all>

</pre></body></html>
